<html>
<title> - NOMINATIONS OF JOHN HAMMERSCHMIDT TO BE A MEMBER OF THE NATIONAL TRANSPORTATION SAFETY BOARD; JEFFREY RUNGE TO BE ADMINISTRATOR OF THE NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION; NANCY VICTORY TO BE ASSISTANT SECRETARY OF COMMERCE FOR COMMUNICATIONS AND INFORMATION; AND OTTO WOLFF TO BE ASSISTANT SECRETARY OF COMMERCE AND CHIEF FINANCIAL OFFICER</title>
<body><pre>[Senate Hearing 107-934]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-934



                NOMINATIONS OF JOHN HAMMERSCHMIDT TO BE 
                       A MEMBER OF THE NATIONAL 
   TRANSPORTATION SAFETY BOARD; JEFFREY RUNGE TO BE ADMINISTRATOR OF 
                  THE NATIONAL HIGHWAY TRAFFIC SAFETY 
                  ADMINISTRATION; NANCY VICTORY TO BE 
ASSISTANT SECRETARY OF COMMERCE FOR COMMUNICATIONS AND INFORMATION; AND 
 OTTO WOLFF TO BE ASSISTANT SECRETARY OF COMMERCE AND CHIEF FINANCIAL 
                                OFFICER

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                       WEDNESDAY, AUGUST 1, 2001

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


87-006              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

           COMMITTEE ON COMMERCE, SCIENCE AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida

               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
                  Mark Buse, Republican Staff Director
               Jeanne Bumpus, Republican General Counsel


                            C O N T E N T S

                              ----------                              

                                                                   Page
Hearing held on August 1, 2001...................................     1
Statement of Senator Allen.......................................     2
Statement of Senator Burns.......................................     4
Statement of Senator Dorgan......................................     1

                               Witnesses

Hammerschmidt, John, Member, renominated to be a Member of the 
  National Transportation Safety Board...........................    33
    Biographical information.....................................    33
Helms, Hon. Jesse, prepared statement............................     4
Myrick, Congresswoman Sue, U.S. Representative from North 
  Carolina.......................................................     2
Runge, Jeffrey W., M.D., nominee to be Administrator of the 
  National Highway Traffic Safety Administration.................     5
    Prepared statement...........................................     6
    Biographical information.....................................     7
Victory, Nancy, Nominee to be Assistant Secretary of Commerce for 
  Communications and Information.................................    18
    Prepared statement...........................................    19
    Biographical information.....................................    20
Wolff, Otto, nominee to be Assistant Secretary of Commerce and 
  Chief Financial Officer........................................    25
    Prepared statement...........................................    26
    Biographical information.....................................    27

              Additional Material Submitted for the Record

Runge, Jeffrey W., M.D.:
    Response to written questions submitted by Hon. John McCain..    59
    Response to written questions submitted by Hon. Olympia Snowe    62

 
                   NOMINATIONS OF JOHN HAMMERSCHMIDT 
      TO BE A MEMBER OF THE NATIONAL TRANSPORTATION SAFETY BOARD; 
   JEFFREY RUNGE TO BE ADMINISTRATOR OF THE NATIONAL HIGHWAY TRAFFIC 
   SAFETY ADMINISTRATION; NANCY VICTORY TO BE ASSISTANT SECRETARY OF 
   COMMERCE FOR COMMUNICATIONS AND INFORMATION; AND OTTO WOLFF TO BE 
      ASSISTANT SECRETARY OF COMMERCE AND CHIEF FINANCIAL OFFICER

                              ----------                              


                       WEDNESDAY, AUGUST 1, 2001

                               U.S. Senate,
                   Committee on Commerce, Science, 
                                        and Transportation,
                                                     Washington, DC
    The Committee was called to order at 2:30 p.m., Hon. Byron 
L. Dorgan, Chairman of the Subcommittee on Consumer Affairs, 
Foreign Commerce and Tourism, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. I call this hearing to order. Good afternoon, 
and we welcome Congresswoman Myrick. We have today nominees for 
four positions, two in the U.S. Department of Transportation 
and two in the U.S. Department of Commerce. All of these are 
very important nominations, and from my perspective, they are 
all good nominations that we welcome and nominations 
represented by men and women who I think will serve our country 
well.
    We will hear the nomination for Dr. Runge, who has been 
nominated for the position to be Administrator of the National 
Highway Traffic Safety Administration; Nancy Victory to be 
Assistant Secretary of Commerce for Communications and 
Information; Otto Wolff to be Assistant Secretary of Commerce 
for Administration and Chief Financial Officer; and John 
Hammerschmidt, renominated to be a Member of the National 
Transportation Safety Board.
    With your permission, Congresswoman Myrick, I would like to 
ask the nominees to come forward, and then I am going to ask 
you to introduce Dr. Runge and then my colleague, Senator 
Allen, will, I believe, be here to introduce Nancy Victory. If 
I might ask the four nominees to come forward and we will add 
one additional chair. I thank you all very much.
    I am going to ask Congresswoman Myrick to give her comments 
and then if Senator Allen is here, I will ask for his comments. 
Following that, we will then hear statements from the four 
nominees. Senator Allen is now with us. Senator Allen, I was 
just indicating that we will hear comments from Congresswoman 
Myrick, who is here to introduce Dr. Runge. Following that, I 
would call on you to provide comments of introduction for Nancy 
Victory, and then we will proceed to hear the statements of the 
nominees.
    So, Congresswoman Myrick, thank you very much. We are 
delighted you are here. Please proceed.

            STATEMENT OF CONGRESSWOMAN SUE MYRICK, 
            U.S. REPRESENTATIVE FROM NORTH CAROLINA

    Congresswoman Myrick. Thank you. I am very proud to be 
here, and I appreciate this opportunity to introduce Dr. Jeff 
Runge. He is nominated to be Administrator for the National 
Highway Traffic Administration. I have known him for years, and 
I wholeheartedly support his confirmation. His expertise in the 
area of motor vehicle injury care is really superb, and it does 
seem a perfect fit for this job.
    His years as an emergency room physician at Carolinas 
Medical Center in Charlotte, North Carolina, has very much 
prepared him for this because they see approximately 10,000 
motor vehicle injury-related cases a year, and so he has become 
an expert in injury control. He has worked extensively to 
organize programs in North Carolina in the field of injury 
prevention, by securing grants for research and also serving on 
various boards in North Carolina from the North Carolina 
Governor's traffic safety program through the University of 
South Carolina highway safety research center. He has also 
contributed his knowledge in the area of helmet use, and child 
safety. In 1998, he played a very large role in developing the 
largest legislative package in the State of North Carolina to 
combat impaired driving. He was a fellow at the National 
Highway Traffic Safety Administration in 1996, and he worked 
closely when there with the highway safety advocates on a 
national level. His achievements and his knowledge in the area 
of traffic safety make him a highly qualified nominee. Mr. 
Chairman, I thank you again for this opportunity.
    The Chairman. Congresswoman Myrick, thank you very much. 
You are welcome to stay, but I know that you have pressing 
business in the U.S. House of Representatives.
    Congresswoman Myrick. We have some votes coming up. You 
know how that is.
    The Chairman. I do, indeed. Thank you very much for joining 
us. Next, let me call on Senator Allen, who will give an 
introduction to Nancy Victory, then I will hear statements. 
After that, I will call on my colleague, Conrad Burns, and see 
if he has a statement.

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Thank you, Mr. Chairman, and thank you 
especially for having this hearing for these important 
nominees. It is my special pleasure to introduce to our 
committee Nancy Victory as the President's nominee for the post 
of Assistant Secretary for Communications and Information in 
the U.S. Department of Commerce.
    Not only is Nancy a tremendously qualified to lead this 
important office within the Department of Commerce. I note here 
it says maybe she puts in that many hours at Wiley, Rein & 
Fielding, and she is a resident of the Commonwealth of 
Virginia, and has been for 7 years, and we are very proud to 
have her as a resident of the Commonwealth of Virginia. She 
taught at Georgetown or went to law school at Georgetown 
University, graduated cum laude. She has experience and 
knowledge garnered in the private sector dealing with a great 
number of technology issues which I think makes her an ideal 
choice to be the President's principal voice on domestic and 
international telecommunications and information technology 
issues.
    Yesterday, we had a hearing, very important hearing, on the 
issue of trying to find additional spectrum for the ever-
increasing demand for new wireless services, especially third 
generation or 3G. The National Telecommunications and 
Information Administration, or NTIA, which Nancy will head, is 
an essential player in meeting these very truly important 
missions since the agency is responsible for managing the 
Federal Government's use of the radio frequency spectrum.
    The efforts of NTIA, the Federal Communications Commission, 
the Department of Defense, and all the private sector 
interests, as we witnessed yesterday will significantly impact 
short-term and long-term policies related to truly one of 
America's most vital economic and national security interests. 
Nancy Victory is uniquely qualified to serve as the Assistant 
Secretary of NTIA, given her 12 years plus of experience 
covering spectrum issues in particular.
    As a partner with the law firm of Wiley, Rein & Fielding, 
Ms. Victory gained a great deal of expertise in wireless and 
satellite issues, including spectrum allocation, licensing, and 
compliance. And I have met Nancy on several occasions over the 
years, and I feel very strongly that with her experience and 
her knowledge, I am convinced she will be a tremendous asset to 
our country's technological advancements. I know she will bring 
all those years of experience and hard work on the very 
difficult and relevant telecommunications issues that we face 
today in her role as Assistant Secretary.
    I also can say with great confidence that she is a woman of 
outstanding character and I have no doubt she will serve our 
country with integrity and will certainly meet the needs of all 
Americans, consumers, as well as our telecommunications 
enterprises alike. So in closing, I hope the Committee will 
move quickly on her nomination so she can get to work on these 
important issues for the competitive advantage of our country 
in the years to come. Thank you, Mr. Chairman.
    The Chairman. Senator Allen, thank you very much.
    Senator Burns.

                STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. Mr. Chairman, I have a short statement. I am 
very happy that Ms. Victory is here today. Welcome, and I have 
been most interested in filling that position at the Commerce 
Department for quite a while. NTIA, I believe, is one of the 
most important seats there is down there, and to have someone 
of your capability, your leadership is really good. I am 
looking forward to working with you.
    Yesterday we had our first hearing on spectrum and spectrum 
reform and, of course, with the 3G, third generation wireless 
upon us now, your position becomes very, very important, so we 
are looking forward to working with you as we wander down that 
path to spectrum reform and management reform. So welcome today 
and I support you wholeheartedly. Thank you, Mr. Chairman.
    The Chairman. Senator Burns, thank you very much. I am 
going to ask consent to include a statement in the record from 
Senator Helms in addition to the statement made by the 
Congresswoman a few minutes ago in support of the nomination of 
Dr. Jeffrey Runge.
    [The prepared statement of Senator Helms follows:]

               Prepared Statement of Senator Jesse Helms

    Mr. Chairman and members of the committee, I regret that a 
previously scheduled hearing forbids my formally presenting Dr. Jeffrey 
Runge of North Carolina to this committee, but it's nonetheless an 
honor to make clear my strong support of this distinguished nominee to 
this significant position.
    President Bush's wise decision to nominate Dr. Jeffrey Runge as 
Administrator of the National Highway Safety Administration comes at a 
critical time for our nation's transportation system. The events of 
recent months have highlighted the importance of having a competent and 
sound team at NHTSA. Dr. Runge is the ideal nominee to head this 
critical Federal agency inasmuch as he is a highly regarded emergency 
physician in Charlotte who has extensive experience in national highway 
safety issues.
    Mr. Chairman, he is respected among his peers across the country as 
a leader in developing programs that are helping to reduce the number 
of driving while impaired cases. Dr. Runge developed the Safe 
Communities Program in Mecklenburg County now a model national program. 
It should be noted that North Carolina has some of the strongest 
traffic safety laws in the country--and ours are among the safest 
highways as well.
    In North Carolina Dr. Runge has served on the Governor's Task Force 
on DWI, the Governor's Highway Safety Program and countless other civic 
organizations in the Charlotte area. In his spare time he is the 
Director of the Carolinas Center for Injury Prevention & Control at the 
Carolinas Medical Center--one of the major healthcare facilities in 
North Carolina.
    It's important to have an administrator who has extensive 
experience in traffic injury control and one who is recognized 
nationally as a leader in the field. Dr. Runge will serve this 
Administration and all Americans with distinction and it is a genuine 
pleasure to unhesitatingly and enthusiastically support his nomination.
    Thank you, Mr. Chairman.

    The Chairman. Let me begin on this side and Dr. Runge, is 
it Runge--it is, is not it?
    Dr. Runge. Yes, sir.
    The Chairman. Dr. Runge, thank you very much for being 
here. I indicated at the start that I think the President has 
chosen well. I intend to support all of these nominees. It is 
the intention, I believe, of the Committee to report these 
nominees out tomorrow. We will have a Committee markup 
tomorrow, and I think all of the nominations will be on that 
markup. But we are appreciative of all of you being here.
    Dr. Runge, if before you proceed you want to introduce any 
members of your family who have accompanied you, please do so.
    Dr. Runge. Thank you, Mr. Chairman. I would like to 
introduce my wife, Ginny, behind me, and my two big brothers, 
Richard, a Lutheran pastor in Charlotte and my brother Skip, 
who is a family therapist in Georgetown, South Carolina.
    The Chairman. Welcome. Thank you very much for being here.
    Senator Burns. Watch them lizards.
    The Chairman. Dr. Runge, just ignore that if you would. It 
is a Montana statement.
    Dr. Runge. I understand that.
    The Chairman. Dr. Runge, why do not you proceed and we will 
certainly incorporate your entire statement in the record. You 
may summarize if you wish.

        STATEMENT OF JEFFREY RUNGE, M.D., NOMINEE TO BE 
     ADMINISTRATOR OF THE NATIONAL HIGHWAY TRAFFIC SAFETY 
                         ADMINISTRATION

    Dr. Runge. I am very honored to appear before you this 
afternoon as you consider my nomination to become Administrator 
of the National Highway Traffic Safety Administration. Should 
you confirm my nomination, I look forward to working with each 
of you to protect the citizens of our Nation from the epidemic 
of motor vehicle injury. I must tell you that my decision to 
move from a comfortable academic practice in one of our 
nation's top centers for emergency medicine to become part of 
this Administration was simply one of duty, honor and service 
to country and mankind. Those were the values that I revere, 
and I will use them as a compass as I pursue my duties as 
Administrator should you confirm me.
    It has been a difficult decision to leave the direct care 
of patients, and I do so only because I believe that I could 
make a larger difference in the health of people from this 
position than I can one patient at a time. I am grateful to my 
family, to my parents and my siblings for their lives of 
servanthood of which I am both humbled and proud.
    As a physician, I have dedicated my professional life to 
the reduction of human suffering through clinical practice, 
research and education in emergency medicine and trauma care, 
and throughout my career, I have been engaged in the study of 
traffic injury control. I have been active in supporting sound 
laws and regulations and their enforcement, and have been an 
activist and spokesperson at the State and national levels for 
educational, legal, and engineering solutions to the enormous 
public health problem of traffic injuries.
    In my day-to-day clinical practice, I have tried in earnest 
to affect one life at a time by counseling patients on safe 
driving and seatbelt use, encouraging parents to use 
appropriate child restraints and by doing alcohol screening and 
intervention on patients at risk for driving while impaired.
    While this type of one-on-one effort is needed, substantial 
gains will only be made by large scale public education, policy 
development and by ensuring that our vehicles are as safe as 
humanly possible. Serving as head of NHTSA is, therefore, the 
ultimate opportunity to engage in traffic intervention and 
control on the largest possible scale. To give highway traffic 
injury the priority it deserves in our country will require 
strong, unswerving leadership, and I pledge to you that I will 
give all my energy and passion to provide that type of 
leadership that will bring about a reduction in the risk to 
Americans posed by the disease of traffic injury.
    Congress passed a law as it gave the agency its safety 
mission, and I welcome your active oversight of this important 
issue. I will, therefore, pledge to the Committee to make sure 
you are kept abreast of our progress to the greatest possible 
extent, and consider it a privilege to meet regularly with you 
to address the concerns of your constituents. By whatever route 
we take, we all want to end up in the same place, a safer 
America, and we can make that happen. I am very appreciative of 
your time and consideration of my nomination, sir. Thank you.
    [The prepared statement and biographical information of Dr. 
Runge follow:]

            Prepared Statement of Jeffrey William Runge, MD

    Mr. Chairman and Members of the Committee, I am honored to appear 
before you this afternoon as you consider my nomination to become the 
administrator of the National Highway Traffic Safety Administration. 
Should you confirm my nomination, I look forward with great 
anticipation to working closely with each of you to protect the 
citizens of this country from the epidemic of motor vehicle crash 
injury.
    My decision to move from a comfortable academic practice in one of 
our nation's top centers for emergency medicine to become part of this 
administration was, simply, one of duty, honor, and service to our 
country and my fellow man. Those are values I revere, and would use as 
a compass as I pursue my duties as administrator. It has been a very 
difficult personal decision to leave the direct care of patients, and I 
do so only because I believe that I can make a larger difference in the 
health of people in this position than I can one patient at a time. I 
am grateful to my wife Ginny and to my two teenage children, Emily and 
Will, for their willingness to uproot our home to come to Washington to 
pursue this mission. I am grateful for the example of my parents and my 
siblings for their lives of servant hood, of which I am both humbled 
and proud. My two brothers, Richard, a Lutheran pastor, and Skip, a 
family counselor, are here today to give me their support as they have 
done my whole life.
    I have dedicated my professional life to the reduction of human 
suffering through clinical practice, research, and education in 
emergency medicine and trauma care. Throughout my career, I have been 
engaged in the study of traffic injury control. I have been active in 
supporting sound laws and regulations and their enforcement, and have 
been an activist and spokesperson at the State and national levels for 
educational, legal, and engineering solutions to the enormous public 
health problem of traffic injury.
    In my day-to-day clinical practice, I have tried in earnest to 
affect one life at a time by counseling patients on safe driving and 
seat belt use, encouraging parents to use appropriate child restraints, 
and by doing alcohol screening and intervention on patients at risk for 
driving while impaired. While this type of one-on-one effort is needed, 
substantial gains will be made only through large-scale public 
education, policy development, and by ensuring that our vehicles are as 
safe as humanly possible. Serving as head of the National Highway 
Traffic Safety Administration is, therefore, the ultimate opportunity 
to engage in traffic injury prevention and control on the largest 
possible scale.
    The agency has a statutory duty to provide science-based regulation 
of the automotive industry, a duty that I am committed to carrying out. 
I am also committed to bringing into focus for the American people the 
fact that traffic injury is a disease that requires the cooperation of 
every American citizen to control it. It is the leading killer of 
children over age 3 years and of adults to age 33. It can and must be 
controlled in the same way we have controlled infectious diseases in 
this country. This disease will claim over 40,000 lives in the United 
States next year, will send over 3 million of our citizens to the 
emergency department, which will result in 300,000 hospitalizations. 
Many of those who survive their injuries will experience some degree of 
disability that will limit their productivity and quality of life. Any 
other disease with this prevalence in the population would become a 
national priority of the highest order in which every citizen would 
participate. To give highway traffic injury the priority it deserves 
will require strong, unswerving leadership. I pledge to you that I will 
give every effort to provide the type of leadership that will bring 
about a reduction in the risk to Americans posed by the disease of 
traffic injury.
    Every segment of our society depends on transportation for 
commerce, subsistence, and socialization, and therefore every citizen 
of the United States is a stakeholder in this issue. Everyone must, 
therefore, be involved in the solution to the problem. Safe movement on 
the highways is an issue of personal and social responsibility, and we 
must foster that cultural change. Safe, sober, and responsible driving 
is a societal duty of every citizen. At the same time, their vehicles 
must be designed and manufactured to be as safe as they can be so that 
crashes can be avoided and injury can be mitigated when crashes do 
occur.
    Congress passed the laws that gave the agency its safety mission, 
and I welcome your active oversight of this important issue. I would 
therefore pledge to the Committee to make sure you are kept abreast of 
our progress to the greatest possible extent, and consider it a 
privilege to meet regularly with you to address the concerns of your 
constituents. By whatever route we take, we all want to end up in the 
same place, a safer America. Together we can and will make that happen.
    I am very appreciative of your time and your consideration of my 
nomination.
                                 ______
                                 

                      A. BIOGRAPHICAL INFORMATION

    1. Name: Jeffrey William Runge.
    2. Position to which nominated: Administrator, National Highway 
Traffic Safety Administration.
    3. Date of nomination: June 25, 2001.
    4. Address: Office: Department of Emergency Medicine, Carolinas 
Medical Center, P.O. Box 32861, Charlotte, NC 28232-2861; Home: 7320 
Governors Hill Lane, Charlotte, NC 28211-5016.
    5. Date and place of birth: October 20, 1955, Charlotte, NC.
    6. Marital status: Married to Virginia Deck Runge, June 13, 1981.
    7. Names and ages of children: Emily Catherine Runge, 17; William 
Edgar Runge, 14.
    8. Education: Residency-Emergency Medicine, Charlotte Memorial 
Hospital & Medical Center, Charlotte, North Carolina 1982-1984; 
Internship-Emergency Medicine, Charlotte Memorial Hospital & Medical 
Center, Charlotte, North Carolina 1981-1982; Doctor of Medicine, 
Medical University of South Carolina, Charleston, South Carolina 1977-
1981; Bachelor of Arts (Magna Cum Laude), The University of the South, 
Sewanee, Tennessee 1973-1977; Emergency Medical Technician, Nashville, 
Tennessee 1974; Middleton High School, Charleston, SC 1970-1973.
    9. Employment record: Faculty Physician, Department of Emergency 
Medicine, Carolinas Medical Center, Charlotte, North Carolina 1984-
Present; Internship and Residency in Emergency Medicine, Charlotte 
Memorial Hospital, Charlotte, NC 1981-1984.
    10. Government experience: Assistant Medical Examiner, Mecklenburg 
County, NC 1998-Present (will resign if confirmed); Visiting Fellow, 
National Highway Traffic Safety Administration, Washington, DC 1996; 
National Center for Injury Prevention and Control, Centers for Disease 
Control, Atlanta, GA; Injury Control Grant Review Committee (ad hoc) 
1995-1999; Injury Control Grant Review Committee 1999-Present (will 
resign if confirmed); Health Services Resource Administration, Office 
of Emergency Medical Services for Children, Traumatic Brain Injury 
Program Advisory Board 1998-2001; Mecklenburg County Emergency Medical 
Service Charlotte, NC; Audit & Review Committee 1984-1995; Chairman 
1990-1992; Mecklenburg County Emergency Medical Services Advisory 
Council Charlotte, NC 1987-1993; NC Governor's Task Force on Driving 
While Impaired 1998-2000, 1994-1995; NC Governor's Task Force for 
Healthy Carolinians 2010 1999-2000; NC Office of Emergency Medical 
Services Trauma Systems Task Force 1991-1996; NC Governor's Task Force 
on Injury Control Co-Chairman 1988-1992.
    11. Business relationships: Board of Trustees, The University of 
the South, Sewanee, TN 1997-2000; Executive Committee, North Carolina 
Medical Society, Raleigh, NC 1996-2001; Secretary, Board of Directors, 
Foundation for Education and Research in Neurological Emergencies, 
Chicago, IL 1998-2001; Board of Directors, Association for the 
Advancement of Automotive Medicine, Chicago, IL 1999-2001; Board of 
Directors, North Carolina College of Emergency Physicians, Raleigh, NC 
1986-1992; Board of Directors, Mecklenburg County Medical Society, 
Charlotte, NC 1992-1993, 1996-1998; Editorial Board, Emergency Medicine 
Alert Atlanta, GA 1994-1999; Board of Advisors, Highway Safety Research 
Center, University of North Carolina, Chapel Hill, NC 1999-2001; Board 
of Advisors, NC Safe Kids, Raleigh, NC 2000-2001; Consultant, Wyeth-
Ayerst Resident Reporter Program 1999-2000; Consultant, Hemoglobin 
Therapeutics Program, Baxter Pharmaceuticals, Chicago, IL 1999; 
Consultant to the following law firms and insurance companies: Thompson 
& Knight, Dallas, TX 2000; Womble, Carlisle, Sandrige & Rice, 
Charlotte, NC 2001; Bennett and Guthrie, Winston-Salem, NC 2000; 
Medical Protective Insurance Company, Fort Wayne, Indiana 2000.
    12. Memberships: American College of Emergency Physicians, Dallas, 
TX 1981-Present; Alcohol Screening Task Force-Chair 2000-2001; Trauma 
Care & Injury Control Committee 1993-2001; Research Committee 1997-
2001; Blood Alcohol Reporting Task Force 1997-1998; Chairman, Injury 
Control Section 1994-1995; Councilor 1993-1995; Injury Prevention & 
Control Subcommittee 1991-1993; Chairman 1992-1993; Public Health in 
Emergency Medicine Task Force 1990-1991; Society for Academic Emergency 
Medicine, Lansing, MI 1984-Present; Clinical Trials Center Task Force 
1996-1998; Research Committee 1990-1993, 1998-1999; Public Health 
Committee 1991-1993; EM Database Task Force 1992-1994; North Carolina 
Medical Society, Raleigh, NC 1984-Present; Speaker, House of Delegates 
1997-2001; Vice-Speaker, House of Delegates 1996-1997; Injury Control 
Committee 1994-2001; Chairman 1994-1997; Legislative Affairs Committee 
1991-2001; Delegate 1990-Present; Constitution & Bylaws Committee 1996-
2001; Finance Committee 1995-1997; Commissioner 1994-1995; Disaster & 
Emergency Care Committee Chairman 1992-1994; Vice-Chair 1988-1992; 
Emergency Medicine Section Chairman 1988-1989; Association for the 
Advancement of Automotive Medicine, Chicago, IL 1990-Present; Executive 
Committee 2000-2001; Board of Directors 1999-2001; Membership & 
Credentials Committee 1998-2000; North Carolina College of Emergency 
Physicians, Raleigh, NC 1981-Present; President 1990-1991; President-
elect 1989-1990; Board of Directors 1986-1992; Chairman BTLS 1986-1988; 
Editor-NC EPIC 1985-1989; Mecklenburg County Medical Society, 
Charlotte, NC 1984-Present; Board of Directors 1996-1998, 1992-1993; 
Secretary 1993; Public Health Committee 1991-1992; Disaster & Emergency 
Care Committee 1985-1992; Chairman 1989-1992; National Center for 
Injury Prevention and Control, Centers for Disease Control, Atlanta, 
GA; Injury Control Grant Review Committee (ad hoc) 1995-1999; Injury 
Control Grant Review Committee, 1999-Present (would resign, if 
confirmed); National Academy Of Sciences, Transportation Research 
Board, Washington, DC; Alcohol and Traffic Safety Committee 1999-
Present (would resign, if confirmed); Applied Research Ethics National 
Association, Boston, MA 1989-1994; American Medical Association 
Chicago, IL 1984-1989, 1991-Present; Myers Park Country Club, 
Charlotte, NC 1988-Present; St. John's Episcopal Church Charlotte, NC 
1982-Present.
    13. Political affiliations and activities: (a) List all offices 
with a political party which you have held or any public office for 
which you have been a candidate. I have neither had an office with a 
political party, nor have I been a candidate for public office.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years. I served on the Board of Directors of the NC Medical Society 
Political Action Committee from 1991 to 2001, as Secretary-Treasurer 
1995-1996 and Vice-Chair 1996-1997.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. 1998, Sue Myrick for 
Congress $500.00; 2000, Sue Myrick for Congress $750.00; 2000, Mike 
Easley for Governor $1,000.00; 2000, North Carolina Medical Society PAC 
$500.00; 2001, Sue Myrick for Congress $500.00.
    14. Honors and awards: Director's Corporate Award: ``To Promote and 
Protect the Public's Health,'' Mecklenburg County Health Department, 
2001; George Podgorny Emergency Medicine Service Award, NC College of 
Emergency Physicians, 1997; Highway Safety Leadership Award, NC 
Governor's Highway Safety Program, National Highway Traffic Safety 
Administration, 1996; Best Oral Methodology Research Presentation, 
Society for Academic Emergency Medicine, 1992; Phi Beta Kappa, The 
University of the South; Omicron Delta Kappa, The University of the 
South; Georgia M. Wilkins Scholarship (Academics, Leadership, Service), 
The University of The South, 1973-1977; Charles Pollard Marks 
Scholarship (Outstanding Junior in the College), The University of the 
South, 1976-1977; Hoff Scholarship (Chemistry), The University of the 
South, 1974-1975; Sullivan Scholarship (Academics), The University of 
the South, 1976-1977.
    15. Published writings: Peer-Reviewed Manuscripts; Moran GJ, Talan 
DA, Mower W, Newdow M, Ong S, Nakase JY, Pinner RW, Childs JE, for the 
Emergency ID Net Study Group. Appropriateness of Rabies Postexposure 
Prophylaxis Treatment for Animal Exposures. JAMA 2000; 284: 1001-1007; 
Talan DA, Moran GJ, Newdow M, Ong S, Mower WR, Nakase JY, Pinner RW, 
Slutsker L, for the Emergency ID NET Study Group. Etiology of Bloody 
Diarrhea Among Patients Presenting to United States Emergency 
Departments: Prevalence of E. coli 0157:H7 and Other Enteropathogens. 
Clin. Infect. Dis. 2000 (in press); Sloan EP, Koenigsberg M, Houghton 
J, Gens D, Cippolle M, Runge JW, Mallory MN, Rodman G, for the DCLHb 
Traumatic Hemorrhagic Shock Study Group. The informed consent process 
and the use of exception to informed consent in the clinical trial of 
DCLHb in severe traumatic hemorrhagic shock. Acad Emerg Med 1999; 
6(12):12031209; Sloan EP, Koenigsberg M, Gens D, Cippolle M, Runge JW, 
Mallory MN, Rodman G, for the DCLHb Traumatic Hemorrhagic Shock Study 
Group. Diaspirin cross-linked hemoglobin (DCLHb) in the treatment of 
severe traumatic hemorrhagic shock: a randomized controlled efficacy 
trial. JAMA 1999; 282(19): 1857-1864; Peterson TD, Jolly, BT, Runge JW, 
Hunt RC. Motor vehicle safety: current concepts and challenges for 
emergency physicians. Ann Emerg Med 1999; 34(3):384-393; Talan DA, 
Citron DM, Abrahamian FM, Moran GJ, Goldstein EJC, for the Emergency 
Medicine Animal Bite Infection Study Group. Bacteriologic analysis of 
infected dog and cat bites. NEJM 1999; 340(2): 85-92; Talan DA, Moran 
GJ, Mower WR, Newdow M, Ong S, Slutsker L, Jarvis WR, Conn L, Pinner 
RW, for the Emergency ID NET Study Group. Emerg ID Net: An emergency 
department-based emerging infections sentinel network. Ann Emerg Med 
1998;32(6):703711; Biros MH, Runge JW, Lewis RJ, Doherty C. Emergency 
medicine and the development of the Food and Drug Administration's 
final rule on informed consent and waiver of informed consent in 
emergency research circumstances, Acad Emerg Med 1998; 5:359-368; 
Sweeney TA, Runge JW, Gibbs MA, Raymond JC, Schafermeyer RW, Norton J. 
Automatic external defibrillators in an urban EMS system, Ann Emerg Med 
1998; 31(2): 234-240; Madden C, Garrett JM, Cole TB, Runge JW, Porter 
CQ. The urban epidemiology of recurrent injury: beyond age, race, and 
gender stereotypes, Acad Emerg Med 1997; 4(8):772-775; Young B, Runge 
JW, Waxman KS, Harrington T, Wilberger J, Muizelaar JP, Boddy A, Kupiec 
JW. Effects of Pegorgotein on Neurologic Outcome of Patients with 
Severe Head Injury: A Multicenter, Randomized Controlled Trial. JAMA 
1996;276(7):538-543; Runge JW, Pulliam CL, Carter JL, Thomason MH. 
Enforcement of Drunken Driving Laws in Cases Involving Injured 
Intoxicated Drivers. Ann Emerg Med 1996; 27:66-72; Biros MH, Lewis RL, 
Olson CM, Runge JW, Cummins RO, Fost N: Informed Consent in Emergency 
Research. JAMA 1995 273(16):1283-1287; Fligner DJ, Spivey WH, Runge JW. 
Informed Consent and the Regulation of Research (SAEM Position Paper) 
Academic Emerg Med 1994; 1(6):561-562; Runge JW, Martinez JC, Caravati 
EM, Williamson SG, Hartsell SC. Histamine antagonists in the treatment 
of acute allergic reactions. Ann Emerg Med 1992; 21(3):237241; Ribbeck 
BM, Runge JW, Thomason MT, Baker JW. Injury surveillance: a method for 
recording E codes in injured emergency department patients. Ann Emerg 
Med 1992; 21(1):37-40; Vaughn DE, Runge JW. Out-of-hospital do not 
resuscitate orders in North Carolina. NC Med J 1991; 52(9): 433-435; 
Caravati EM, Runge JW, Hartsell SE. Nifedipine in renal colic: a 
double-blind crossover placebo controlled clinical trial. Ann Emerg Med 
1989; 18:352-54.
    Reviews and Chapters: Runge JW. Motor vehicle crash biomechanics: 
Interpreting the Polaroid. Emergency Medicine Alert 2000; 6(8): 61-63; 
Runge JW. Airbags and crash injury: effectiveness and risk. Emergency 
Medicine Alert 1998;4(9):69-71; Runge JW, Hargarten S. Injury Control. 
In Emergency Medicine: Concepts and Clinical Practice, Fourth Edition. 
Rosen, Barkin, et al, Ed. St. Louis, MO. 1997-1996; Runge JW, Allen FH. 
Emergency Treatment of Status Epilepticus. Neurology 1996; 46(6):S20-
S23; Runge JW. Treatment of status epilepticus. Emergency Medicine 
Alert 1996;3(4):28-30; Runge JW. Status epilepticus: a neurologic 
emergency. Emergency Medicine Alert 1996;3(3):21-23; Runge JW. 
Emergency research: the problem with informed consent. Emergency 
Medicine Alert 1995; 2(5):37-39; Kline JA, Runge JW. Streptococcal 
Pharyngitis: A Review of Pathophysiology, Diagnosis, and Management. J 
Emerg Med 1994; 12(5):665-680; Runge JW. The Cost of Injury. Em Med 
Clin NA 1993; 11(1):241-254; Runge JW. Pneumonia in adults. Crit Dec 
Emerg Med 1990; 4:229-237; Runge JW. Pneumonia in children. Crit Dec 
Emerg Med 1990 4:239-246; Runge JW. Orthopedic Problems in Pediatric 
Trauma. Pediatric Trauma Management for EMS. Charlotte NC, Hemby 
Pediatric Institute, M 53-58, 1989; Runge JW. Schafermeyer RW. 
Respiratory emergencies. Primary Care Clinics 1986 13(1):177-192.
    Editorials and Commentaries: Runge JW. Screening for alcohol use 
disorders--barriers and excuses. Ann Emerg Med 2000; 36(6): 629-630; 
Runge JW. Antihistamines and driving performance--an under-recognized 
issue in traffic safety. [commentary]. Ann Emerg Med 2000; 36: 389-390; 
Runge JW. Disease control and crash injury--modifying host risk 
factors. [commentary]. Ann Emerg Med 2000; 36:165-166; Runge JW. 
Linking data for injury control research. Ann Emerg Med 2000; 35(6): 
613615; Runge JW. Pediatric patients still ride in front of air bags. 
Emergency Medicine Alert 2000; 6(9):68-69; Runge JW. The new safer 
family of dummies [commentary]. Ann Emerg Med 1999; 33:721-722; Runge 
JW. Intubation difficulty in poisoned patients. Emergency Medicine 
Alert 1998; 4(11):84-85; Runge JW. Cell phones and the multitasking 
driver [commentary]. Ann Emerg Med 1998; 31(2):278-280; Runge JW. Use 
of troponin for diagnosis of ED patients with chest pain. Emergency 
Medicine Alert 1998; 4(9):67-68; Runge JW. Making physiologic sense of 
the diagnosis of pulmonary embolism: potential for a new diagnostic 
method. Emergency Medicine Alert 1997;4(7):49-50; Runge JW. End-tidal 
C02 and CPR: Do we need technology or common sense? Emergency Medicine 
Alert 1997; 4(5):33-34; Runge JW. Guest Editor. Emergency medicine: 
North Carolina's response. An issue of the NCMJ 1997;58(4); Runge JW. 
Emerging success: finding a void and filling it. NCMJ 1997; 58(4): 235-
236; Runge JW. A super alternative for wound closure: a new generation 
of cyanoacrylate. Emergency Medicine Alert 1997; 4(3):17-18; Runge JW. 
Do motorcycle helmets affect riders' vision and hearing? [commentary]. 
Ann Emerg Med 1997, 29(2):283; Runge JW. The economic cost of motor 
vehicle crashes, 1994 [commentary]. Ann Emerg Med 1996, 28(6):712; 
Runge JW. NHTSA Crash-Injury Research and Engineering Network 
[commentary]. Ann Emerg Med 1996; 28(4):451-452; Runge JW. Bystander 
CPR: quality, not quantity. Emergency Medicine Alert 1996; 2(11):83-84; 
Runge JW. Man does not live by ACD alone. Emergency Medicine Alert 
1995; 2(3):1920; Runge JW. Triage by mechanism of injury: do we really 
need a trauma team? Emergency Medicine Alert 1995; 1(8):59; Runge JW. 
Crystalloid resuscitation challenged for penetrating injuries to the 
torso. Emergency Medicine Alert 1994; 1(7):49-50; Runge JW. 
Aminophylline does not improve CPR outcome. Emergency Medicine Alert 
1994; 1(3):17-18; Runge JW. Transesophageal echocardiography for 
evaluation of thoracic aortic dissection. Emergency Medicine Alert 
1994; 1(1):1-2; Runge JW. Informed consent: an unresolved issue 
[letter]. Ann Emerg Med 1990; 19(7):841.
    Published Abstracts: Runge JW, Garrison HG, Shen G, Hall WL, Waller 
AE. Seat belt use and speeding among crash injury patients with alcohol 
use disorder. Acad Emerg Med 2001; 8(5):482; Runge JW, Cruz TH. 
Immunize children against injury--one patient at a time. Acad Emerg Med 
2001; 8(5):587; Runge JW, Garrison HG, Hall WL, Waller A. 
Identification and referral of impaired drivers through ED protocols. 
Acad Emerg Med 2000; 5:436; Roberts EL, Runge JW. ED DIRECT: A method 
for ED-based alcohol abuse intervention. Acad Emerg Med 2000; 5:474-
475; Runge JW, Garrison HG, Hail WL, Waller A. Prevalence of alcohol 
abuse or alcohol dependency in patients treated for motor vehicle crash 
injury. Acad Emerg Med 1999; 6(5):490-491; Sloan EP, Koenigsberg MD for 
the DCLHB Traumatic Hemorrhagic Shock Clinical Trial Group, Acad Emerg 
Med 1999; 6(5):379-380; Moran GJ, Talan DA, Mower WR, Newdow M, Ong S, 
Childs JF, Pinner RW, The EMERGEncy ID Net Study Group. Appropriateness 
of emergency department rabies post-exposure prophylaxis for animal 
exposures in the United States, Acad Emerg Med 1999;5:376; Talan DA, 
Moran GJ, Ong S, Mower WR, Merchant G, Pinner RW, Slutsker L, The 
EMERGEncy ID Net Study Group. Prevalence of E.-coli O157:H7 and other 
enteropathogens among patients presenting to U.S. emergency departments 
with bloody diarrhea. Acad Emerg Med 1999;5:389; Ong S, Moran GJ, Talan 
DA, Mower WR, Tsang VCW, Pinner RW, The EMERGEncy ID Net Study Group. 
Radiographically imaged seizure patients and neurocysticercosis in U.S. 
emergency departments. Acad Emerg Med 1999;5:390; Runge JW, Andrews LL, 
Marx JA. Five year follow up study of injured intoxicated drivers. Acad 
Emerg Med 1998; 5(5): 542; Silverman R, Gallagher J, Runge J, Osborne 
H, Feldman J, Kindshuh M, Gaeta T, Schwartz R. Pulmonary function of 
patients with severe asthma released from the emergency department. 
Acad Emerg Med 1997; 4(5): 483; Sloan EP, Luer M, Fischer J, Ramsay E, 
Runge JW, Philbrook B, Allen FH. Cardiac effects with high-dose, high-
rate intravenous fosphenytoin seizure therapy. Acad Emerg Med 
1997;4(5):380; Sweeney T, Runge JW, Gibbs MA, Carter JM, Schafermeyer 
RW, Norton JH. First responder defibrillation does not increase 
survival from sudden cardiac death in a two-tiered urban-suburban EMS 
system. Acad Emerg Med 1996; 3(5): 422; Silverman R, Osborn H, Runge 
JW, Gallagher EJ, Chiang W, Gaetha T, Feldman J, Scharf S, Mancherje N, 
Kwiatkkowski T, Freeman K. Magnesium sulfate as an adjunct to standard 
therapy in acute severe asthma. Acad Emerg Med 1996; 3(5):467; Ramsay 
E, Philbrook B, Fischer JL, Sloan EM, Allen FH, Runge JW, Smith MF, 
Kugler AR. Safety, tolerance and pharmacokinetics of fosphenytoin 
compared to Dilantin following rapid IV administration. Neurology 1996; 
46(suppl):A245; Runge JW, Sloan EP, Turnball TL, Fischer JH, Allen FH. 
Intravenous fosphenytoin loading for emergent seizure control. Ann 
Emerg Med 1995; 25(1):139; Allen FA, Runge JW, Legarda A, Maria BL, 
Matsuo R, Kugler AR, Knapp LE. Multicenter open-Label study on safety, 
tolerance, and pharmacokinetics of intravenous fosphenytoin in status 
epilepticus. Epilepsia 1994; 35(suppl):93; Garvey JL, Raymond RM, Runge 
JW, Schroeder D, Leonova E, Carter JM. Cocaine directly induces 
hypodynamic cardiotoxicity. Acad Emerg Med 1994; 1(3):320; Allen FH, 
Runge JW, Legarda S, Maria BL, Matsuo F, Kugler AR, Knapp LE. 
Multicenter, open-label study on safety, tolerance and pharmacokinetics 
of intravenous fosphenytoin in status epilepticus. Epilepsia 1994; 
34(8):93; Brewer TO, Schafermeyer RW, Runge JW, Norton HJ. 
Transcutaneous PC02 compared with arterial PC02 for detecting C02 
retention in the emergency department. Acad Emerg Med 1994; 1(2):A49; 
DiPasquale JT, Nichols JA, Runge JW. Can patients requiring a single 
physician evaluation be predicted at triage? Acad Emerg Med 1994; 
1(2):A29; Legarda S, Maria BL, Matsuo F, Allen FH, Runge JW, Kugler AR, 
Marriott J. Safety, tolerance, and pharmacokinetics of fosphenytoin, a 
phenytoin prodrug, in status epilepticus. Epilepsia 1993; 34(6):60; 
Runge JW, DeStefano AA, Garvey JL, Quinn ME, Raymond RM. Adenosine 
mediates cardiac tachyphylaxis to catecholamines. Ann Emerg Med 1993; 
22(5):893; Garvey JL, Runge JW, Schroeder JD, Leonova E, Carter JM, 
Raymond RM. Cardiodepressant effect of continuous cocaine infusion in 
anesthetized dogs. FASEB J 1993; 7(4):A684; Runge JW, Garvey JL, 
Schroeder JD, Leonova E, Rose FR, Raymond RM. Etomidate as a canine 
anesthetic in cardiovascular research. FASEB J 1993; 7(4):A708; Runge 
JW, Pulliam CL: Prosecution of injured alcohol-intoxicated drivers for 
DWI. Ann Emerg Med 1992; 21(5):590; Runge JW, Martinez JC, Caravati EM, 
Williamson SG, Hartsell SC: Cimetidine in the treatment of acute 
allergic reaction. Ann Emerg Med 1989; 18(4):475 16.
    Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated.
    I do not have any transcripts of speeches. I lecture from slides, 
notes, or extemporaneously. Titles, locations and dates of invited 
extramural presentations are provided below.
    ``Biomedical Ethics--A Global Perspective,'' University of NC at 
Charlotte Conference on Global Health Disparities, Charlotte, NC, April 
2001; ``Emergency Department Screening and Intervention for At-risk 
Drinkers,'' CDC Conference on Screening and Intervention, Arlington, 
VA, March 2001; ``Ethics in Emergency Research, Informed Consent, and 
the IRB,'' Emergency Medicine Basic Research Skills Workshop, Dallas 
TX, November 2000; ``Injury Prevention and Control in Emergency 
Medicine Practice,'' Grand Rounds, University of Indiana, Indianapolis, 
IN, September 2000; ``Ethical Issues in Emergency Research,'' Grand 
Rounds, Medical College of Wisconsin, Milwaukee, WI, September 2000; 
``Federal Funding for Injury Control Research,'' Society for Academic 
Emergency Medicine, San Francisco, CA, May 2000; ``Crash Investigation: 
Engineering and Clinical Concepts,'' and ``Linking the Medical Record 
and the Vehicle,'' Car Crash and Occupant Injury Course, Association 
for the Advancement of Automotive Medicine, Miami, FL, April 2000; 
``Ethical Issues in Research Planning and Design,'' Emergency Medicine 
Foundation, Basic Research Skills Workshop, Dallas, TX, November 1999; 
``Injury Biomechanics Workshop,'' American College of Emergency 
Physicians Scientific Assembly, Las Vegas, NV, October 1999; ``Triage 
Decisions in the Practice of Injury Control,'' NC Chapter, American 
Trauma Society, Hickory, NC, April 1999; ``Evidence-Based Triage of 
Injury,'' ENA/ENCARE National Leadership Symposium, Los Angeles, CA, 
February 1999; ``Screening and Referral of Injured Impaired Drivers,'' 
ENA/ENCARE National Leadership Symposium, Los Angeles, CA, February 
1999; ``Injured Impaired Drivers and the Medical Community,'' National 
Academy of Sciences, Transportation Research Board, Washington, DC, 
January 1999; ``Ethical and Regulatory Issues in Human Subject 
Research,'' Emergency Medicine Foundation, Basic Research Skills 
Workshop, Dallas, TX, November 1998; ``From Hypothesis to Pharmacy: The 
Drug Research & Development Process,'' Community Conference on Clinical 
Research, Bioethics Resource Group, Charlotte, NC, September 1998; 
``Community-Based Injury Control: The Future of Injury Reduction,'' 
Alabama Safe Communities Workshop, Birmingham, AL, July 1998; 
``Research Ethics and the IRB,'' ``How to be a Successful Clinical 
Trials Investigator,'' Society for Academic Emergency Medicine, 
Chicago, IL, May 1998; ``DUI and the Medical Community--To Report or 
Not to Report Suspected Offenders,'' Lifesavers 1998, Cleveland, OH, 
March 1998; ``Diagnosis and Treatment of Seizures in an Acute Care 
Setting,'' Emergency Medicine Grand Rounds, Orlando Regional Medical 
Center, Orlando, FL, February 1998; ``Partners in Progress: Reaching 
the National Goal through Innovative Alcohol Research,'' National 
Academy of Sciences, Transportation Research Board, Washington, DC, 
January 1998; ``Ethical and Regulatory Issues in Human Subject 
Research,'' Emergency Medicine Foundation, Basic Research Skills 
Workshop, Dallas, TX, November 1997; ``Emergency Research and Exception 
to Informed Consent,'' FDA/NIH Workshop: Contemporary issues in human 
subjects research, Charlotte, NC, September 1997; ``Fundamentals of 
Research: Research Ethics and Human Subjects,'' Society for Academic 
Emergency Medicine, Washington, DC, May 1997; ``Preserving Your 
Research Career,'' Research Directors Workshop, Society for Academic 
Emergency Medicine, Washington, DC, May 1997; ``Multi-center Clinical 
Research Workshop,'' Society for Academic Emergency Medicine, 
Washington, DC, May 1997; ``Trauma Triage,'' American College of 
Emergency Physicians Scientific Assembly, New Orleans, LA, September 
1996; ``Community Injury Control Simply Safety: Protecting Michigan's 
Children,'' Lansing MI, September 1996; ``Safe Communities,'' National 
Association of Governors' Highway Safety Representatives, Nashville TN, 
September 1996; ``The Science of Injury Control,'' and ``Repeat Injury: 
Risk Assessment in the ED,'' ENA/ENCARE First National Injury 
Prevention Conference and the 6th National ENCARE Conference, Orlando 
FL, July 1996; ``Community-Based Injury Control,'' Wisconsin Governor's 
Highway Safety Conference, Appleton, WI, June 1996; ``Safe Communities: 
How to work with an existing network,'' Great Lakes Injury Prevention 
Conference, Columbus OH, May 1996; ``Research Ethics and Human 
Subjects,'' Society for Academic Emergency Medicine, Denver CO, May 
1996; ``Safe Communities,'' Lifesavers 14 Conference, Albuquerque NM, 
April 1996; ``Ethics and Informed Consent in Emergency Medicine 
Research,'' Critical Care Symposium, Temple University School of 
Medicine, Philadelphia PA, March 1996; ``Rapid Treatment of Status 
Epilepticus,'' Southern Clinical Neurology Society, Huatulco, Mexico, 
January 1996; ``The Science of Injury Control'' and ``The Physics of 
Automobile Crash Injury,'' Orlando Regional Medical Center, January 
1996; ``Community Injury Control,'' National Highway Traffic Safety 
Administration, Washington, DC, December 1995; ``Health Care Providers 
as Partners in Traffic Safety,'' National Association of Governors' 
Highway Safety Representatives, Anchorage, AK, September 1995; 
``Partnerships for Injury Prevention: Injury Control at the State and 
Local Level,'' Moving Kids Safely Conference, Washington, DC, June 
1995; ``Ethics in Clinical Research,'' Society for Academic Emergency 
Medicine, San Antonio, TX, May 1995; ``Update on Emergency Informed 
Consent,'' Society for Academic Emergency Medicine, San Antonio, TX, 
May 1995; ``New Partners in Injury Prevention,'' National Lifesavers 
Conference, Indianapolis, IN, April 1995; ``The State of Resuscitation 
Research,'' National Institute of Health/Food and Drug Administration, 
Public Forum on Informed Consent in Emergency Research, Bethesda, MD, 
January 1995; ``Regulatory Issues in Resuscitation Research,'' 
Coalition of Acute Resuscitation Researchers, Washington, DC, October 
1994; ``Exception to Informed Consent: Under What Circumstances?'' 
Society for Academic Emergency Medicine, Washington, DC, May 1994; 
``Fundamentals of Research: Ethics and Human Subjects,'' Society for 
Academic Emergency Medicine, Washington, DC, May 1994; ``Injury 
Prevention: You Can Make a Difference,'' American College of Emergency 
Physicians, Clinical Forum, Kansas City MO, April 1993; ``Treating 
Trauma Before it Happens: Injury Control for Practicing Emergency 
Physicians,'' American College of Emergency Physicians, Clinical Forum, 
Kansas City MO, April 1993; ``Pre-hospital Do Not Resuscitate Orders: A 
Non-Legislative Approach,'' EMS Strategies 1993: An Issues Forum for 
EMS Leaders ACEP, Dallas TX, February 1993; ``Traffic Injury as a 
Health and Economic Issue,'' National Conference of State Legislators, 
Committees of Health & Transportation, Cincinnati OH, July 1992; 
``Interacting with your IRB,'' Society for Academic Emergency Medicine, 
Washington DC, May 1991;
    17. Selection: (a) Do you know why you were chosen for this 
nomination by the President?
    I presume that I was nominated because of a lifelong dedication to 
the reduction of human suffering through the clinical practice, 
research, and education in emergency medicine and trauma care. 
Throughout my career, I have been engaged in the study of traffic 
injury control, have been active in supporting sound laws and 
regulations and their enforcement, and have been an activist and 
spokesperson at the State and national levels for educational, legal, 
and engineering solutions to the enormous public health problem of 
traffic injury.
    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment?
    I have been studying and practicing emergency medicine for over 20 
years and have been a teacher in the specialty and a researcher for 
more than 17 years. With my special interest in crash injury treatment 
and research, working in one of the busiest trauma centers in the 
eastern United States, I have an intimate understanding of the need for 
an integrated approach to highway traffic safety. I believe that our 
Nation is best served by investing in the prevention of traffic injury, 
rather than paying for the ever-rising cost of injury treatment. In 
addition to experience in clinical medicine, I have concentrated my 
academic research on the epidemiology of traffic injury and on 
strategies to deal with driving while impaired, and I have written and 
taught extensively on the subject. I also served as a parttime 
volunteer fellow at NHTSA in 1996, dividing time between the engineers 
and scientists in the Research and Development Division and the program 
officers in the Traffic Safety Programs Division.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate?
    Yes.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain.
    No.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization?
    No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service?
    No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable?
    If confirmed, I will serve at the pleasure of the President.

                   C. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.
    Please refer to the Acting General Counsel Opinion Letter.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    Please refer to the Acting General Counsel Opinion Letter.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    Please refer to the Acting General Counsel Opinion Letter.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy.
    I have stayed in contact with numerous elected officials on the 
Charlotte City Council, the Mecklenburg County Commission, the NC 
General Assembly, and the U.S. Congress to inform them of my positions 
on numerous issues under their consideration, usually relevant to the 
practice of medicine. These issues include the funding of health care 
for the underserved, access to emergency care, medical research issues, 
and injury prevention/injury control issues. The NC Medical Society has 
a very active grass roots program among physicians in North Carolina 
that encourages physicians to make their opinions known to their 
representatives at all levels. I have contacted my legislative 
representatives countless times about such relevant issues. I have 
testified to the NC General Assembly on several occasions about 
specific bills under consideration, including access to emergency 
ophthalmic care in North Carolina and opposition to repeal of the 
motorcycle helmet law. I also served on two separate task forces 
appointed by the Governor to address impaired driving, which developed 
legislative packages for the NC General Assembly to consider, and I 
worked diligently for the passage of those laws.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Please refer to the Acting General Counsel Opinion Letter.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?
    Yes.

                            D. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a compliant to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details.
    No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details.
    No.
    4. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details.
    Yes. Civil litigation case entitled Daniel Phillips vs. Carolina 
HealthCare System and Jeffrey W. Runge, MD. This was a third-party 
lawsuit filed in Mecklenburg County, North Carolina, court in 2000. The 
case was dismissed by the judge in response to a petition from the 
defense.
    5. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense?
    No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.
    None.

                     E. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines set by congressional committees for information?
    Yes, to the best of my ability.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures?
    Yes.
    3. Will you cooperate in providing the committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the committee?
    Yes.
    4. Please explain howyou will review regulations issued by your 
department/agency, and work closely with Congress, to ensure that such 
regulations comply with the spirit of the laws passed by Congress.
    I will work with every Associate Administrator to ensure that the 
regulations promulgated by NHTSA meet the statutory intent of 
legislation. I will work carefully with the Secretary, the Deputy 
Secretary, and the General Counsel to ensure that NHTSA's regulations 
are consistent and meet the goals of the Department of Transportation 
as a whole.
    5. Describe your department/agency's current mission, major 
programs, and major operational objectives.
    The central mission of the DOT is to serve the United States by 
ensuring a safe transportation system that furthers our vital national 
interests and enhances the quality of life of the American people. 
Within this framework, NHTSA's mission is to promote the health and 
well being of the citizens of the United States by working diligently 
toward the reduction of transportation-related deaths and injuries 
while recognizing that the Nation depends on mobility of people and 
goods to sustain commerce and economic growth.
    6. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so?
    Yes.

                  F. GENERAL QUALIFICATIONS AND VIEWS

    1. How have your previous professional experience and education 
qualifies you for the position for which you have been nominated?
    The National Highway Traffic Safety Administration is the Federal 
agency that is responsible for mitigating one of the nation's worst 
public health problems, motor vehicle-related injury. The success of 
this task depends on the integration of strong, science-based 
regulations and laws, and the enforcement of those laws and 
regulations; on programs to study traffic-related injury and to educate 
the public about safe driving and injury prevention; and on advances in 
engineering to mitigate the severity of injury when crashes do occur 
and to take advantage of emerging technologies in crash avoidance and 
occupant protection. The NHTSA Administrator, therefore, should have a 
working knowledge of public education, interaction with regulators and 
legislators, and expertise in injury research.
    I have been the primary founder and organizer of a community 
coalition in Charlotte, NC comprised of physicians, hospitals, 
transportation engineers, police, EMS professionals, prosecutors, 
public health departments, faith and community leaders, and the media. 
Every segment of our society depends on transportation for commerce, 
subsistence, and socialization, and therefore every citizen and visitor 
to the United States is a stakeholder. Everyone must, therefore, be 
involved in the solution to the problem. Through my background I 
understand injury science, public education, laws, regulation and 
enforcement, and I have a working knowledge of safety engineering.
    My allegiance is to the citizens of this country who start each day 
with the full expectation of carrying out their activities safely, 
rather than finding themselves in a hospital emergency department or 
trauma unit. Traffic injury is a disease that must be dealt with in the 
same manner as we have other devastating public health problems in our 
nation's history. This disease will claim over 40,000 lives in the 
United States next year, and 10 times that many will survive their 
injuries with severe disability. This disease will send 40 million of 
our citizens to the emergency department, which will result in 4 
million hospitalizations. Any other disease with this prevalence in the 
population would become a national priority of the highest order in 
which every citizen would participate. I expect the same to be true of 
highway traffic injury. It will require strong, unswerving leadership 
for this Administration to significantly reduce the risk to Americans 
posed by the disease of traffic injury.
    2. Why do you wish to serve in the position for which you have been 
nominated?
    For the last 2 decades, I have tried in earnest to affect one life 
at a time by counseling patients on safe driving and seat belt use, 
encouraging parents to use child restraints, and by doing alcohol 
screening and intervention on patients at risk for driving while 
impaired. While grassroots level effort is also needed, it became 
quickly apparent to me that substantive gains could only be made with 
large-scale public education, policy development, and safety 
engineering. Serving the nation as Administrator of the National 
Highway Traffic Safety Administration is the ultimate opportunity to 
engage in traffic injury prevention and control on the largest possible 
scale. It has been a very difficult personal decision to leave the 
direct care of patients, and I do so only because I believe that I can 
make a larger difference to my fellow man in this position than I can 
one patient at a time.
    3. What goals have you established for your first 2 years in this 
position, if confirmed?
    My overriding goal in the first 2 years is to bring into focus for 
the American people the fact that traffic injury is a disease that 
requires the cooperation of every American citizen to control it. It is 
the leading killer of children over age 1 year and of adults to age 35. 
It can and must be controlled in the same way we have controlled 
infectious diseases in this country. But it will require leadership at 
the very highest levels to accomplish it. Careful attention to 
immunizing the public against traffic injury through the use of seat 
belts and child restraints, sober driving, and having safe and 
crashworthy vehicles on the roadways is a top priority.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?
    Although I have a full understanding of the mission and goals of 
the Department and the Agency, I have never managed an organization 
with 650 employees and a $400 million budget. I have served on the 
Boards of Directors of several nonprofit organizations, and understand 
the importance of effective employee relations, cost accountability, 
and relationships with stakeholders. Through its employees, the 
National Highway Traffic Safety Administration enjoys a wealth of 
experience in management, and I will make every effort to utilize those 
resources to the fullest as well as full coordination with the Office 
of the Secretary and other modal Administrators.
    5. Who are the stakeholders in the work of this agency?
    All drivers and passengers in a motor vehicle and all pedestrians 
are stakeholders in the work of NHTSA. Therefore, virtually every 
American is affected by the programs and regulations developed by the 
Agency.
    Entities which are more directly affected by the decisions and 
policies of the Agency include the manufacturers of automobiles and 
their components, the insurance community, State and local governments, 
especially public safety agencies including police, fire and emergency 
medical services, health care providers and agencies, the media who 
report on traffic safety issues, and highway safety advocates of 
various descriptions.
    6. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question No. 10?
    I will strive to serve all stakeholders in the work of NHTSA in a 
fair, equitable, and ethical manner. My foremost consideration will be 
the overall safety and welfare of the American public and the reduction 
of the numbers of Americans injured and dead on the highways. 
Relationships with stakeholders will be framed in that context, and I 
will never yield in the mission to safeguard the health and well-being 
of the American public.
    7. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices similar to those practiced in the private sector. (a) What do 
you believe are your responsibilities, if confirmed, to ensure that 
your agency has proper management and accounting controls?
    I take financial integrity very seriously, and will meet regularly 
with the Chief Financial Officer of NHTSA to be assured that we are 
operating according to the law and with the best accounting practices 
possible. My understanding is that NHTSA has received a clean audit by 
the Inspector General for the past several years. It appears that the 
system currently in place is doing an excellent job of ensuring 
financial integrity.
    (b) What experience do you have in managing a large organization?
    I have served on the Boards of several nonprofit corporations of 
varying sizes, and on the finance committees of some of these 
organizations. I, therefore, have a working knowledge of budgetary 
methodology and fully understand the importance of financial 
accountability.
    8. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals. (a) Please discuss what you believe to be the benefits of 
identifying performance goals and reporting on your progress in 
achieving those goals.
    I am a strong believer in identifying performance goals 
prospectively, not only for agencies, but for managers and employees 
within an agency. It is a measuring stick for use both internally and 
externally, and if defined broadly, serves to stimulate creativity 
rather than hindering it. It also enables managers to identify poor 
performance, as well as the cause and steps to take toward resolution.
    (b) What steps should Congress consider taking when an agency fails 
to achieve its performance goals? Should these steps include the 
elimination, privatization, downsizing or consolidation of departments 
and/or programs?
    The first step to take when an agency fails to achieve its 
performance goal is to examine the goal itself for its reasonableness 
and attainability. Reasonable goals should be met by Government 
agencies and, if not, problems may be management, resources, or 
infrastructure. Identified problems should be addressed. The need for 
elimination, privatization, downsizing, or consolidation should be 
apparent when the performance goals are formed.
    (c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed?
    As Administrator, I would seek to formulate and adhere to 
performance goals developed with the Secretary and Deputy Secretary. I 
have extremely high expectations for the Agency and for my own 
performance, as well as the performance of my staff. The success of 
NHTSA as an Agency in reducing death and injury on the nation's 
highways is dependent upon its ability to gather and process vehicle 
and crash data, and epidemiological data, upon positively affecting 
human behaviors, upon State laws and their enforcement, and upon giving 
Americans the tools necessary to move about safely. As Administrator, I 
would be personally engaged in every facet of the Agency's business 
from regulations through safety programs. The ultimate performance 
measuring stick will be the safe movement of people on our highways.
    9. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee-complaints been brought against you?
    I believe in empowerment of employees to use their own personal 
resources to accomplish the goals and objectives of their jobs. I 
believe that leadership should articulate the mission and purpose, and 
ensure that all employees are working toward the same goal. I believe 
that micromanagement is harmful. I believe that each employee benefits 
when he or she helps a coworker be successful. I believe that all 
information that will help others accomplish their goals should be 
shared. I believe that managers should be judged by the performance of 
their departments.
    No employee complaints have been brought against me.
    10. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please describe.
    I have been politically active at the national level as a member of 
the American College of Emergency Physicians and of the North Carolina 
Medical Society. I have developed relationships with the Members of 
Congress from my District and have spoken with them on numerous 
occasions about a broad range of health care issues including safety 
issues, health care, financing, and provision of medical care for the 
underserved. Former Representative Alex McMillan has spent time with me 
in the emergency department. I have had no experience in working with 
the committees of Congress. I did co-author testimony for the 
Subcommittee on Small Business of the House Energy and Commerce 
Committee in 1996 dealing with the issue of informed consent in 
emergency research.
    11. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency.
    If confirmed, one of my goals would be to manage NHTSA in a way so 
that its integrity would not be questioned. It is my understanding that 
the Agency closely adheres to all applicable laws and regulations, and 
carries out its programs without a hint of waste, fraud or abuse. I 
would work closely with the Inspector General to assure that the Agency 
continued to operate in this manner.
    12. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your department/
agency comply with the spirit of the laws passed by Congress.
    I understand the relationship of regulations being promulgated by 
our Agency as the method for carrying out laws enacted by the Congress. 
It is, therefore, essential that all administrative regulations meet 
the purposes of duly enacted laws. It is essential for the Agency to 
consult with all citizens through the administrative rulemaking 
process. As Administrator, I would consider it a duty and a privilege 
to meet personally and regularly with the members of the committee to 
make sure that they are apprised of the progress of the agency and its 
interface with the Congress.
    13. In the areas under the department/agency's jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
state your personal views.
    The authorizations of appropriations for NHTSA's (1) motor vehicle 
safety and (2) motor vehicle information and cost savings programs 
expire after fiscal year 2001. The Department has proposed legislation 
under active consideration to reauthorize these programs for FYs 2002-
2005. Providing the necessary resources and authority to carry out 
these programs is the underpinning of the agency's ability to carry out 
its mission of reducing the unacceptable burden of highway injuries and 
fatalities. Increased resources would be devoted to critical program 
areas, such as developing dummies to monitor side, rear-end, and 
rollover crashes, and implementing the dynamic rollover testing and 
child restraint rating programs mandated by the TREAD Act.
    It is also essential that NHTSA and the Department be allowed by 
the Congress to participate in discussions at the State legislative 
level on all issues of highway traffic safety. Most laws that govern 
the movement of vehicles on the highway are appropriately enacted at 
the State level. NHTSA is the nation's foremost agency for the research 
into this discipline, and therefore has a responsibility to contribute 
science to the discussion. The American taxpayers have a great deal of 
financial investment in the science that should be at the basis of 
public policy, and NHTSA should be free to supply it. It is my belief 
that legislative restrictions on the ability of NHTSA officials to 
offer their views on pending State or local legislative proposals 
should therefore be removed.
    A legislative change that is needed immediately is to lift the 
restrictions on NHTSA's abilities to set Corporate Average Fuel Economy 
(CAFE) standards. A current appropriations rider precludes NHTSA from 
starting rulemaking on CAFE standards until October 1, 2001. Because 
responsibly crafted CAFE standards can increase fuel efficiency without 
negatively affecting the U.S. auto industry, lifting this freeze now 
will enable NHTSA to quickly move forward to address this issue.
    Finally, NHTSA has rightly been given the responsibility to 
generate regulations called for by specific pieces of legislation for 
traffic safety. Currently there is a backlog of regulations under 
development. Only sound, science-based regulations should be 
promulgated by the agency, which requires time and resources for 
initial development in addition to the necessary time to meet the 
statutory requirements for rulemaking. I would ask the Congress to be 
sensitive to the Agency's resources before it places time restrictions 
on the agency in the future, so that Congress does not create 
expectations that cannot be met without sacrificing the quality of the 
regulations.
    13. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending based on 
national priorities determined in an open fashion on a set of 
established criteria? If not, please state why. If yes, please state 
what steps you intend to take and a timeframe for their implementation.
    I believe that, as NHTSA Administrator, it is my responsibility to 
align the people and financial resources made available to the agency 
with the highest priority highway safety problems. My understanding is 
that NHTSA has been a leader in incorporating the provisions of the 
Government Performance and Results Act (GPRA) into their budget 
development. As such, there is a roadmap linking budget expenditures to 
expected improvements in highway safety. I will use this roadmap as a 
starting place, but I intend to review completely NHTSA's safety goals, 
policies, and program strategies to assure that the most efficient and 
effective use of resources is made. In striving to achieve our goals, I 
will act to the greatest extent feasible in an open and inclusive 
manner, and will include the many partners and stakeholders in reducing 
the deaths and injuries resulting from traffic crashes. I intend to 
complete a review of NHTSA's programs, priorities, and strategies 
within 6 months of being confirmed as Administrator. I look forward to 
sharing the results of this review with the Committee as a basis for 
developing future legislative initiatives.

    The Chairman. Dr. Runge, thank you very much. With 
permission of my colleagues, we will withhold questions until 
we have heard from all of the nominees. Next we will hear from 
Nancy Victory, who has been nominated by President Bush to be 
Assistant Secretary of Commerce for Communications and 
Information. Ms. Victory, you are welcome to introduce any of 
your family who have accompanied you today.
    Ms. Victory. Yes. I actually do have a crew in the 
audience. I'd like to thank them for supporting me and taking 
time out of the their busy lives to be here with me today. 
First, behind me, let me introduce my parents, Faith and Jim 
Victory, who have flown down from New York for the occasion. 
Next to them is my husband's godchild, Lindsay Hicks, who is a 
sophomore at the University of Texas. She happens to be 
visiting with us this week. Next to Lindsay is my stepson, Mike 
Senkowski, who is a senior at the Bullis School here in 
Potomac. Behind me is Nikki Senkowski, one of my stepdaughters, 
who is a sophomore at the College of Holy Cross. Her elder 
sister, Jennifer, unfortunately could not be here today because 
of work, but I am sure she is with me in spirit. And then, 
finally, let me recognize my husband, Mike Senkowski, who has 
been just a great support during this whole process. Thank you.
    The Chairman. We thank all of you for being here.

 STATEMENT OF NANCY VICTORY, NOMINEE TO BE ASSISTANT SECRETARY 
                OF COMMERCE FOR COMMUNICATIONS 
                        AND INFORMATION

    Ms. Victory. Thank you very much Senator Dorgan, Senator 
Burns, and Senator Allen for those wonderful remarks. I 
appreciate all of you taking time to meet with me during the 
last couple of days and sharing your thoughts and concerns 
regarding U.S. telecommunications policy and the role of the 
National Telecommunications and Information Administration. I 
look forward to that continuing dialog, if confirmed. I am 
truly honored to be here today as the President's nominee to be 
the Assistant Secretary of Commerce for Communications and 
Information. I am humbled yet extremely excited about the 
challenges ahead. I know they are many. I am committed to do 
all I can to live up to the confidence that the President and 
Secretary Don Evans have placed in me, and I very much look 
forward to working with this Committee if confirmed. I do have 
a prepared statement for the record which I'd like to submit. I 
would also be happy to entertain your questions.
    [The prepared statement and biographical information of Ms. 
Victory follow:]

                 Prepared Statement of Nancy J. Victory

    Mr. Chairman, Senator McCain and members of the Committee, it is a 
tremendous privilege to have the opportunity to appear before you 
today. I have had the pleasure of speaking with several of you over the 
past 10 days. I very much appreciate so many of you taking the time 
during this busy period before recess to share your thoughts and 
concerns with me regarding U.S. telecommunications policy and the role 
of the National Telecommunications and Information Administration. I 
look forward to that continuing dialog, if I am confirmed.
    I am deeply honored to have been nominated by the President to be 
the Assistant Secretary of Commerce for Communications and Information. 
I am humbled, yet extremely excited, about the many challenges that lie 
ahead. I am also committed to do my all to live up to the confidence 
the President and Commerce Secretary Don Evans have placed in me.
    Communications and information form the critical infrastructure 
upon which our country's future growth and our citizenry's future 
opportunities depend. The telecommunications highways and the content 
that they deliver are the keys to advances in education, the creation 
of jobs and U.S. competitiveness in global commerce. The challenge 
ahead is to ensure that the highways are open to all Americans and that 
their full potential is harnessed for the common good.
    As you know, we are facing increasing demands for increasingly 
scarce spectrum. The lessons of past spectrum successes is that the 
birth of band plans for new technologies is a complex process that 
requires patience, creativity and give-and-take. In the ongoing 3G 
deliberations, we have wireless companies seeking a home for next 
generation wireless services; Federal users with the mission critical 
responsibilities for defending our country; and, incumbent licensees of 
both commercial and Federal spectrum. Our ability to reach an outcome 
serving the interests of the country as a whole will depend upon the 
willingness of all interested parties to engage in a constructive 
process of consultation, collaboration and compromise. If confirmed, 
you have my commitment to work with Congress, Chairman Powell, the 
Department of Defense and the industry to fashion a ``win-win-win'' 
outcome--a win for wireless U.S. commerce, a win for the defense of our 
country, and a win for the public we all seek to serve.
    With respect to broadband services, we face an equally daunting 
conundrum. There are hundreds of thousands of miles of broadband 
``pipes'' lying underutilized across the country. The on-ramps and off-
ramps for the worldwide web are spigots that need to be opened to the 
home as well as to the office. If confirmed, you have my commitment to 
work with all interested parties, consumer groups and the Congress to 
build an environment of stability, predictability and certainty that 
encourages investments in the construction, deployment and provision of 
new technologies and services. Here again, the goal would be a ``win-
win-win'' outcome rather than the picking of winners and losers.
    Communications and information, of course, are not just domestic 
highways. They are the links between us and the world. If confirmed, I 
would direct particular attention to exploring ways to improve the 
preparation, advocacy and acceptance of important national concerns on 
the international stage. I believe that a close working relationship 
among NTIA, the State Department and the FCC is a necessity for all 
concerned.
    Last, but not least, there is the goal of ensuring that all 
Americans participate in the opportunities and benefits of 
communications and information. This includes reaching out to rural 
areas; reaching out to minorities; and, reaching out to the 
disadvantaged. If confirmed, I look forward to working with Congress 
and members of this Committee in a common effort to bring uncommon 
benefits to the public.
    In closing, let me once again emphasize my appreciation for the 
opportunity to serve my country. Although I am humbled by the 
challenges in front of me, I look forward with great eagerness to the 
opportunity to serve the President and Secretary Evans and to work with 
the distinguished members of this Committee in the days ahead.
    Again, thank you for the opportunity to be here today. I would be 
happy to answer any questions you might have for me.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name: Nancy Jane Victory.
    2. Position to which nominated: Assistant Secretary of Commerce far 
Communications and Information.
    3. Date of nomination: June 26, 2001.
    4. Address: Home: 9559 Bell Drive, Great Falls, VA 22066; office: 
Wiley, Rein & Fielding, 1776 K Street NW., Washington, DC. 20006.
    5. Date and place of birth: July 19, 1962, New York, NY.
    6. Marital status: Married to Ray Michael Senkowski.
    7. Names and ages of (step)children: Jennifer Lynn Senkowski, age 
23; Nichole Rae Senkowski, age 18; Raymond Michael Senkowski, age 17.
    8. Education: Georgetown University Law Center, Washington, DC; JD 
cum laude awarded May 1988 (attended 8/85-5/88); Princeton University, 
Princeton, NJ; BA awarded June 1984 (attended 9/80-6/84); Garden City 
High School, Garden City, NY, high school diploma awarded June 1980 
(attended 9/76-6/80).
    9. Employment record: Partner, Wiley, Rein and Fielding, 
Washington, DC (1/96-present); formerly Associate (1/89-12/95) and 
Summer Associate (6/87-8/87); Volunteer, Henry Viscardi School, 
Albertson, NY (9/88-12/88); Law Intern, Nassau County Surrogate's 
Court, Mineola, NY (6/86-8/86); Legal Assistant, Long Island Trust Co., 
Garden City, NY (2/85-8/85); Legal Assistant, Nixon, Hargrave, Devans & 
Doyle, New York, NY (11/84-12/84).
    10. Government experience: None other than as listed above.
    11. Business relationships: Partner, Wiley, Rein & Fielding 
(terminated before entering government service); Director, Jim Victory 
Television, Inc. (until 12/00, when company was dissolved).
    12. Memberships: American Bar Association; District of Columbia 
Bar; New York Bar; Federal Communications Bar Association; Lowes Island 
Golf Club, Sterling, VA; The Tower Club, Tyson's Corner, VA.
    13. Political affiliations and activities: (a) List all offices 
with a political party which you have held or any public office for 
which you have been a candidate: None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years: None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years: Friends of George Allen--
$1000 on 10/5/00; Bush for President, Inc.--$1000 on 5/30/00; McCain 
for Senate `98--$500 on 11/4/98; Friends of John Warner 1996 
Committee--$500 on 10/15/96; Friends of Larry Pressler--$1000 on 2/20/
95.
    14. Honors and awards: While at Georgetown University Law Center: 
cum laude JD; The Georgetown Law Journal; Lawyer's Co-operative 
Publishing Prize; Dean's List. While at Princeton University: Honors in 
American Studies Program.
    15. Published writings: Antenna and Tower Site Compliance Handbook, 
authored with Thomas Dombrowsky (May 2000) [appears on Wiley, Rein & 
Fielding website, http://www.wrf com].
    16. Speeches: The following speech on telecommunications issues, 
delivered during the last 5 years and of which I have a copy, is 
attached as Attachment A: ``FCC/FAA Antenna Structure Requirements: 
What Do You Need to Know?''; PCIA Tower and Site Management 2000 (May 
18, 2000).
    17. Selection: (a) Do you know why you were chosen for this 
nomination by the President? I hope that I was chosen for the position 
because the President found that my experience in the 
telecommunications industry and my personal skills, intellectually and 
interpersonally, would enable me to tackle successfully the complex 
telecommunications policy issues that have arisen and will continue to 
arise.
    (b) What do you believe in your background or employment experience 
affirmatively qualifies you or this particular experience? I have had 
the benefit for the last 12 years of working on a tremendous variety of 
telecommunications matters at the Washington law firm of Wiley, Rein & 
Fielding. I have substantial expertise in wireless and satellite 
issues, including spectrum allocation, licensing, and compliance. Some 
of my recent projects in this area have ranged from domestic and 
international spectrum allocation issues for a new wireless service to 
regulatory issues surrounding the privatization of a global satellite 
company. My experience also includes cellular and PCS spectrum 
allocation issues, spectrum cap restrictions, microwave spectrum 
relocation issues, designated entity qualifications, E-911 and CALEA 
requirements, and NEPA matters. I am also familiar with the issues 
surrounding telecommunications mergers, having served as counsel for 
numerous transactions, ranging from relatively small asset transfers to 
some of the largest and most complex industry mergers. In addition, I 
am also familiar with the legislative process, having provided 
legislative counsel support to the firm's government affairs group with 
respect to various pieces of legislation, including portions of the 
Telecommunications Act of 1996.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate? Yes, except that I plan to continue to 
retain my financial interests in two existing contribution pension 
plans administered by KeyTrust for the Wiley, Rein & Fielding 
retirement plan. However, no further contributions would be made to 
either plan.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? No.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients and customers.
    Until recently, I was an equity partner of Wiley, Rein & Fielding, 
a Washington, DC law firm. Pursuant to the terms of the firm's 
partnership agreement, my capital contribution will be returned to me 
within 12 months of withdrawing from the partnership. I will also 
receive the balance of my partnership shares for the period January 1, 
2001 to my withdrawal date on January 10, 2002 (three-quarters) and 
April 10, 2002 (one-quarter). I will continue to retain my financial 
interests in two existing contribution pension plans administered by 
KeyTrust for the firm's retirement plan. However, no further 
contributions would be made to either plan. These arrangements have 
been listed on my Financial Disclosure Report, which the Office of the 
General Counsel of the U.S. Department of Commerce has certified. I 
will have no continuing financial arrangements, agreements or dealings 
with clients or customers.
    2. Indicate any investments, obligations, liabilities, or other 
relationship which could involve potential conflicts of interest in the 
position to which you have been nominated.
    I currently have stock interests in several telecommunications 
companies, which I will be divesting. In addition, my husband has a 
continuing relationship with Wiley, Rein & Fielding. Attached as 
Attachment B is an Agreement that I have entered into with the 
Department of Commerce to resolve any potential conflicts of interest 
that might arise, primarily through divestiture of any 
telecommunications interests and a change in my husband's status with 
the firm. It is my understanding that the Office of the General Counsel 
of the Department of Commerce, the Office of Government Ethics, and the 
White House Counsel's Office have found that this agreement resolves 
any potential conflicts of interest.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    As indicated above, I have previously served as a partner in a law 
firm. I have now resigned from the firm. The agreement attached as 
Attachment B indicates further actions I will take to resolve any 
potential conflicts of interest that might arise from my past practice, 
primarily through recusals. It is my understanding that the Office of 
the General Counsel of the Department of Commerce, the Office of 
Government Ethics, and the White House Counsel's Office have found that 
this agreement resolves any potential conflicts of interest. Further, 
the limited recusals to which I have agreed to be subject will not 
significantly affect my ability to serve in this position should the 
Senate confirm my nomination.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy.
    During the last 10 years, I have had occasion to assist the firm's 
government affairs group on several legislative matters. My role was 
that of legislative counsel, providing statutory interpretation, 
drafting potential amendments, and explaining the legal ramifications 
of proposed language. On several occasions, I also accompanied members 
of the government affairs group to meetings with Members of Congress 
and/or their staff in order to clarify language or explain the legal 
ramifications of various proposals. The legislative matters I worked on 
included:
    Telecommunications Act of 1996--I worked on the following issues in 
connection with the various legislative proposals that culminated in 
the Act: modification of broadcast ownership rules; provision of 
telemessaging services by local exchange carriers; Bell Operating 
Company entry into manufacturing; elimination of foreign officer and 
director limitation in Section 310(b) of the Communications Act; 
modification of foreign ownership restrictions on common carrier 
licenses; allocation of non-auctioned spectrum for private, non-
commercial use; infrastructure sharing provisions; tower siting 
provisions; radio telegraphy requirement for Global Maritime Distress 
and Safety System-equipped ships; Balanced Budget Act of 1997--I worked 
on the issue of retaining tax certificates for relocation of microwave 
users out of their original spectrum.
    During the last 10 years, I have also represented clients on a wide 
variety of matters before the FCC, including broad policy matters in 
rulemaking proceedings and notices of inquiry. My involvement in such 
matters has generally involved legal analysis of regulatory proposals, 
drafting pleadings filed in the record, and attending meetings with the 
FCC Commissioners, their staff and/or the staff of the relevant bureau. 
My activities in this area have primarily been on behalf of wireless 
and satellite service providers and involved issues such as spectrum 
allocation, licensing requirements, auction procedures, relocation 
issues, spectrum cap and cross-ownership restrictions, and various 
other issues such as E-911, CALEA, etc.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    The agreement attached as Attachment B sets forth specifically how 
I intend to resolve any potential conflicts of interest. It is my 
understanding that the Office of the General Counsel of the Department 
of Commerce, the Office of Government Ethics, and the White House 
Counsel's Office have found that this agreement satisfactorily resolves 
any potential issues in this area. Further, the limited recusals to 
which I have agreed to be subject will not significantly affect my 
ability to serve in this position should the Senate confirm my 
nomination. On a going-forward basis, I intend to continue to consult 
with the ethics officials at the Department of Commerce and, if 
appropriate, divest myself of any new conflicting interests, recuse 
myself or obtain a conflict of interest waiver under 18 U.S.C. 208(b) 
if the interest is not substantial.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?
    Yes.

                            D. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than a minor traffic offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? No, except for the following: During 
the spring of 1995, my husband and I sued our cable provider, Media 
General Cable, in Virginia General District Court, Fairfax County, VA, 
for property damage. The case was settled before trial.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. None.

                    E. RELATIONSHIP WIITH COMMITTEE

    I. Will you ensure that your department/agency complies with 
deadlines set by congressional committees for information? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing this committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the committee? Yes.
    4. Please explain how you will review regulations issued by your 
department/agency, and work closely with Congress, to ensure that such 
regulations comply with the spirit of the laws passed by Congress.
    If confirmed, I will put in place a process for the timely and 
thorough review of any and all regulations issued by NTIA, prior to 
their adoption, to ensure they comply with the letter and spirit of the 
laws passed by Congress. I will also establish a policy of open and 
frequent communication between NTIA and Congress.
    5. Describe your department's current mission, major programs, and 
major operational objectives.
    NTIA is the President's principal advisor on telecommunications and 
information policy issues. Working in conjunction with other agencies, 
NTIA helps to shape the Administration's position on telecommunications 
issues and represents the Administration in domestic and international 
telecommunications policy activities. NTIA is also responsible for 
managing the Federal Government's use of spectrum; administering 
several grants programs related to telecommunications (principally, 
infrastructure grants to facilitate the access to telecommunications 
services by all Americans and facilities grants to maintain and extend 
the public broadcasting infrastructure); and conducting research on 
technical telecommunications issues, including standards-setting. In 
its 2000 Annual Report, NTIA articulated four goals to shape its 
operational efforts: (1) promote open markets and encourage 
competition; (2) ensure spectrum provides the greatest benefit to all 
people; (3) advance the public interest in telecommunications, mass 
media and information; and (4) promote the availability and sources of 
advanced telecommunications and information services.
    6. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

                  F. GENERAL QUALIFICATIONS AND VIEWS

    1. How have your previous professional experience and education 
qualified you for the position for which you have been nominated?
    I believe that the position for which I have been nominated serves 
a dual role--advising the President and the Secretary on a wide variety 
of complex communications issues while also serving as administrator of 
a substantial governmental organization. I believe that my previous 
professional and educational experiences have well qualified me for 
both of these roles.
    As a practicing communications lawyer for over 12 years, I have had 
an opportunity to work on a wide variety of communications regulatory 
matters. Although the focus of my practice has been on wireless and 
domestic and international satellite issues (particularly spectrum 
allocation, licensing, and compliance), I am also familiar with the 
major regulatory issues facing broadcasters, cable operators, and 
competing and incumbent local exchange carriers. My experience has also 
helped me to be conversant with the legislative process, having 
provided legislative counsel support to the firm's government affairs 
group with respect to various pieces of legislation, including portions 
of the Telecommunications Act of 1996. This familiarity with the issues 
facing the communications industry should facilitate my ability to 
contribute immediately and meaningfully in my appointed position, if 
confirmed.
    My educational background should additionally serve me well in 
tackling the thorny issues I will likely face in my new position. 
During law school, along with the standard curriculum, I studied 
communications law. I also learned helpful problem solving skills in 
both my undergraduate and law school classes. Finally, during my years 
in private practice, I have had an opportunity to observe and develop 
organizational management skills, as well as to serve in management of 
a 200-lawyer law firm.
    2. Why do you wish to serve in the position for which you have been 
nominated?
    Communications and information technologies have become 
increasingly important components of all Americans' lives, as well as 
of our nation's economy. Ensuring all Americans access to 
communications and information services, the fostering of new 
technologies, and the continued health and growth of the communications 
and information industries is essential to our nation's global 
competitiveness. Yet, in this era of spectrum scarcity, technological 
convergence, and increased competition from abroad, the challenges in 
maintaining our nation's progress in this area are significant. I can 
think of no better way to use my skills and experience than to enter 
government service.
    3. What goals have you established for your first 2 years in the 
position, if confirmed?
    If confirmed, I would strive: To facilitate the availability of 
advanced communications service to all Americans, particularly the 
availability of broadband services; To increase the United States' 
competitiveness in the global communications marketplace, by advancing 
policies that facilitate investment in the communications industry, 
create jobs, and provide marketplace opportunities; To assist in 
formulating policies and procedures to improve coordination and sound 
spectrum management that finds the appropriate balance between 
government and commercial spectrum needs.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?
    If I an confirmed this will be my first entry into Federal 
Government service. As a private attorney, I have not previously been 
privy to an inside view of the regulatory and legislative processes, 
nor have I been involved in the behind-the-scenes interaction among 
NTIA, Congress, and the other executive branch departments who 
collaborated on the formation of domestic and global communications 
policy. Fortunately, the NTIA staff includes a number of individuals 
experienced in such matters. I look forward to drawing upon their 
knowledge as I gain experience on these procedural and jurisdictional 
issues.
    5. Who are the stakeholders in the work of this agency?
    Federal Government users of spectrum, private users of spectrum and 
Congress are all stakeholders in NTIA's activities. However, American 
consumers are the ultimate stakeholders in the work of NTIA.
    6. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question No. 5?
    The stakeholders are an essential source of input and information. 
If confirmed, I will be a fair and impartial decisionmaker who takes 
the stakeholders' views into account in formulating my positions on 
issues.
    7. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices similar to those practiced in the private sector. (a) What do 
you believe are your responsibilities, if confirmed, to ensure that 
your agency has proper management and accounting controls? If 
confirmed, I will also work to ensure that NTIA complies with all of 
its legal obligations, including the Chief Financial Officers Act. In 
particular, I will work with the Commerce Department's Chief Financial 
Officer to ensure that NTIA employs effective management and accounting 
controls and procedures.
    (b) What experience do you have in managing a large organization? 
As noted above, during my years in private practice, I have had an 
opportunity to observe and develop the skills to manage a substantial 
organization. As a partner in a 200-lawyer law firm, I regularly 
managed large projects, coordinating and motivating the efforts of 
other attorneys and legal professionals. I have also been extremely 
involved in the overall management of the firm. Until my recent 
withdrawal from the firm, I was the chair of the firm's Recruiting 
Committee, an elected member of the Management Committee, and a member 
of the firm's Long Range Planning Committee.
    8. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals. (a) Please discuss what you believe to be the benefits of 
identifying performance goals and reporting on your progress in 
achieving those goals. Identifying performance goals and reporting on 
the progress toward achieving them forces the establishment of 
priorities and deadlines, while promoting efficiencies and creating 
accountability. In short, this process compels the use of good 
management skills and ensures accountability to Congress, the Secretary 
of the Department, and the taxpaying public.
    (b) What steps should Congress consider taking when an agency fails 
to achieve its performance goals? Should these steps include the 
elimination, privatization, downsizing or consolidation of departments 
and/or programs? Ideally, Congress and an agency should maintain 
continuous communication so steps can be taken to avoid an agency's 
absolute failure of performance. However, when goals are not achieved, 
it is important to figure out why (i.e., lack of leadership, 
insufficient resources, unrealistic goals, forces beyond the agency's 
control) and address those causes directly. If an agency repeatedly 
fails to perform or its mission is significantly reduced or deemed no 
longer necessary, it may be appropriate to eliminate, downsize, 
consolidate or privatize it or its programs.
    (c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed?
    If I am confirmed, I believe the following goals should be 
applicable to my personal performance: my ability to establish a high 
quality team drawing from existing personnel and newly hired 
individuals; my organization's responsiveness to the Administration's 
and Congress' goals and objectives; and timely and principled 
decisionmaking.
    9. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?
    I believe the supervisor/employee relationship should be 
cooperative and collaborative. It is the supervisor's responsibility to 
motivate and bring out the best in their employees. I believe this can 
best be achieved in an environment that fosters teamwork, where an 
employee's achievements are recognized and shortcomings are 
constructively addressed. To my knowledge, I have never been the 
subject of an employee complaint.
    10. Describe your working relationship, if any, with Congress. Does 
your professional experience include working with committees of 
Congress? If so, please describe.
    During the 1995-1997 timeframe, I acted as legislative counsel for 
the firm's government affairs group on several legislative matters, 
providing statutory interpretation, drafting potential amendments, and 
explaining the legal ramifications of proposed language. During the 
course of these activities, I on occasion met with Members of Congress 
and/or their staff as well as staff of the Commerce Committee and 
Finance Committee.
    11. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency.
    If confirmed, I would support the Inspector General and require all 
in my organization to cooperate with any activities of the Inspector 
General's office.
    12. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your department/
agency comply with the spirit of the laws passed by Congress.
    If confirmed, I would work to establish open and frequent 
communications with this Committee and its staff. I will be attentive 
to the views expressed by Members of Congress and will seek out such 
views for clarification when necessary.
    13. In the areas under the department/agency's jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
state your personal views.
    If confirmed, I look forward to learning the Administration's and 
Congress' legislative priorities. Where appropriate, I would be pleased 
to provide my input on legislative initiatives.
    14. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending based on 
national priorities determined in an open fashion on a set of 
established criteria? If not, please state why? If yes, please state 
what steps you intend to take and a timeframe for their implementation.
    If confirmed, I will develop and implement a system that allocates 
discretionary spending based on national priorities determined in an 
open fashion on a set of established criteria. As required by the 
General Performance and Results Act, I will provide Congress, the 
Commerce Department and the Executive Office of the President with the 
data and analysis required to determine the appropriate allocation of 
resources to NTIA. I will also work with the Commerce Secretary and the 
Administration to develop a strategic plan for NTIA.

    The Chairman. Without objection, your entire statement will 
be made part of the record. We thank you for your statement. 
Next we will hear from Mr. Otto Wolff, nominee to be Assistant 
Secretary of Commerce and Chief Financial Officer. Mr. Wolff, 
if you have family with us, you are welcome to introduce them 
at this time.
    Mr. Wolff. I do at this time. Mr. Chairman, I'd like to 
introduce my wonderful wife Jan, and my terrific kids, Jennifer 
and Matthew.
    The Chairman. Thank you very much. Welcome. You may 
proceed, Mr. Wolff.

 STATEMENT OF OTTO WOLFF, NOMINEE TO BE ASSISTANT SECRETARY OF 
              COMMERCE AND CHIEF FINANCIAL OFFICER

    Mr. Wolff. Good afternoon, Mr. Chairman, Senator Burns, 
Senator Allen. I am honored to be here today as President 
Bush's nominee to be Chief Financial Officer and Assistant 
Secretary for Administration at the U.S. Department of 
Commerce. I want to take this opportunity to thank the 
President and Secretary Evans for their confidence in me and I 
want to thank you, too, Mr. Chairman and the Committee for 
taking the time out during this busy week before the recess to 
schedule this hearing.
    If I am favorably reported and confirmed by this Committee 
and confirmed by the Senate, I will work diligently to provide 
support and to provide management tools to the employees in the 
Department to enable them to better deliver their programs to 
the American people. I pledge to work closely with the members 
and staff of this Committee, the Appropriations Committees, and 
other Members of Congress who have oversight responsibility for 
the Department's programs. At this time, Mr. Chairman, in the 
interest of saving some time, I would ask your permission to 
submit my written statement for the record. I'd be pleased to 
answer any questions you might have.
    [The prepared statement and biographical information of Mr. 
Wolff follow:]

                  Prepared Statement of Otto J. Wolff

    Good afternoon Mr. Chairman and members of the Committee. I am 
honored to appear before you as President Bush's nominee to serve as 
the Chief Financial Officer and Assistant Secretary for Administration 
(CFO/ASA) for the U.S. Department of Commerce. I would like to thank 
the President and Secretary Evans for their confidence in me for this 
position. And thank you, Mr. Chairman, for taking the time during this 
busy pre-recess period to schedule this hearing.
    In carrying out its mission of promoting U.S. business domestically 
and abroad, the Commerce Department touches the lives of the nation's 
people at a fundamental level on a daily basis. The CFO/ASA plays a 
critical role in this effort by managing budgetary and human resources, 
financial systems, real and personal property, grant and procurement 
activities, security and other support services essential to carrying 
out the Department's programmatic responsibilities.
    President Bush has pledged to improve government service to the 
American public. If reported favorably by this Committee and confirmed 
by the Senate, I will do everything I can to ensure that these 
administrative functions operate as efficiently and effectively as 
possible to better enable the CFO/ASA organization to provide our many 
stakeholders with the level and quality of service that they deserve.
    If confirmed, I plan to concentrate on several key areas during my 
tenure. First, it is essential that we maintain the proper 
accountability for the expenditure of public funds. We must make 
certain that our financial systems comply with all applicable law, 
regulation and generally accepted Federal Government accounting 
standards. We must strive to provide to our stakeholders reliable 
management data to enable them to better oversee and manage our 
programs.
    Second, we need to improve our efforts to comply fully with the 
spirit of the Government Performance and Results Act (GPRA). We need to 
develop measurement criteria for program delivery that provide accurate 
and meaningful indications of accomplishment.
    Third, it is critical that we address the human capital challenges 
in the workplace. With our aging workforce and shortages in critical 
areas, it is essential that we aggressively meet the formidable 
challenges in this area. We need to prepare now to make sure we are in 
the position to effectively carry out our mission in the years ahead.
    Fourth, the Department needs to assure that its many databases, 
many of which are critical to the American people, are protected from 
unauthorized access. If confirmed I will work collaboratively with the 
Chief Information Officer to strengthen information technology security 
throughout the Department.
    Fifth and equally as important as any of the previous items, I 
consider it essential to maintain excellent relations with this 
Committee and others in Congress that are charged with appropriations 
and oversight responsibilities of our programs. I pledge that if I am 
confirmed I will work closely and diligently with Members and staff 
toward our mutual goal of better service and effective program 
delivery.
    I was fortunate to have had the privilege to serve at the 
Department of Commerce previously, having been hired by then-Secretary 
Malcolm Baldrige in 1981 as special assistant. From 1983 to 1993, I 
served as the Deputy Assistant Secretary for Administration. During 
that period, I became familiar with the Department and its mission, 
organization, and programs and the administrative requirements that cut 
across bureau lines. More recently I served as a staffer on the House 
Administration Committee where I was responsible for oversight of, and 
policy direction for the House officers and the Inspector General. I 
have a degree in finance and broad experience with financial systems 
development and general administrative management and feel confident 
that, if confirmed, I will be able to implement the change necessary to 
meet the many challenges ahead. I am excited about the prospect of 
being able to serve at the Department of Commerce and to work with your 
Committee once again.
    Thank you for the opportunity to appear before you today. I would 
be pleased to respond to any questions that the committee may have.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name: Otto J. Wolff.
    2. Position to which nominated: Assistant Secretary of Commerce for 
Administration and Chief Financial Officer.
    3. Date of nomination:
    4. Address: 4018 Whispering Lane, Annandale, VA 22003.
    5. Date and place of birth: June 20, 1942, Buffalo, New York.
    6. Marital status: (Include maiden name of wife or husband's name.) 
Janis A. Wolff (nee Etter), wife.
    7. Names and ages of children: (Include stepchildren and children 
from previous marriages.) Jennifer Wolff, 22; Matthew Wolff, 18.
    8. Education: (List secondary and higher education institutions, 
dates attended, degree received and date degree granted.)
    Thomas Dale HS, Chester VA, 1956 to 1960; Penn State, 1960 to 1964, 
BS.
    9. Employment record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment.)
    U.S. Air Force Officer Candidate, Lackland AFB, TX, 1964 to 1965; 
U.S. Air Force munitions/weapons maintenance officer trainee, Lowry 
AFB, CO, 1965; U.S. Air Force special weapons and F-106 weapons systems 
maintenance officer, Langley AFB, VA, 1965 to 1967; U.S. Air Force 
munitions and F-100 and F-4 weapons systems maintenance officer, Tuy 
Hoa Air Base, Republic of Vietnam, 1967 to 1968; U.S. Air Force officer 
in charge of logistics for the special weapons stockpile, Hq USAFE, 
Lindsey Air Station, Wiesbaden, Germany, 1968 to 1971; U.S. Air Force 
Hq USAFE Inspector General Staff 1971 to 1972; U.S. Air Force 
experimental weapons test officer, Eglin AFB, FL, 1972 to 1973; 
Research department, Republican National Committee (RNC, Washington, 
D.C., 1973 to 1974; Executive Assistant to the Co-Chairman, RNC, WDC, 
1974 to 1976; Office of administrative services, RNC, WDC, 1976 to 
1978; Director of Administration, Connelly for President national 
campaign committee, Arlington VA, 1978 to 1979; Director of 
Administration, Reagan-Bush national campaign committee, Arlington VA, 
1979 to 1980; Deputy Executive Director, Reagan-Bush Inaugural, WDC 
1980 to 1981; Special Assistant to the Secretary, U.S. Department of 
Commerce, WDC, 1981 to 1983; Deputy Assistant Secretary for 
Administration (and CFO), U.S. Department of Commerce, WDC 1983 to 
1993; Management consultant, 1993 to 1994; Committee on House 
Administration Staff, U.S. House of Representatives, WDC, 1994 to 2001; 
Advisor to the Secretary, U.S. Department of Commerce, WDC 2001 to 
present.
    10. Government experience: Not applicable.
    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.) Not applicable.
    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.)
    Grace Episcopal Church Vestry, 1998 to 2001, Executive Committee 
2000 to 2001; Grace Episcopal School Board Member, 1988 to 1994; 
Treasurer, 1990 to 1992; Chairman, 1992 to 1994; Mason District Little 
League Board, 1991 to 1994; Treasurer, 1993 to 1994; Forest Hollow 
Civic Association, 1985 to Present; Forest Hollow Pool Board, 3 years 
in the mid-1990s; Arlington Aquatic Club Boosters President, 1991 to 
1992; Annandale High School PTA, 1992 to present; Annandale High School 
Athletic Boosters, 1994 to present.
    13. Political affiliations and activities: (a) List all offices 
with a political party which you have held or any public office for 
which you have been a candidate. Not applicable.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years.
    I have been active in my precinct and other areas of Northern 
Virginia in every general election for the past 10 years, including the 
following: Bush-Cheney Presidential Campaign; Bush Presidential Primary 
Campaign; Davis for Congress campaigns (all); Warner for Senate 
Campaigns; Allen for Governor and Senate campaigns; Bush-Quayle 
reelection campaign; Gilmore for Governor campaign.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.
    None.
    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals and any 
other special recognitions for outstanding service or achievements.) 
U.S. Air Force Meritorious Service Medal; National Defense Service 
Medal; Vietnam Service Medal; Republic of Vietnam Campaign Medal; 
Presidential Unit Citation; Air Force Outstanding Unit Award; Air Force 
Commendation Medal; Air Force Achievement Medal.
    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.) None.
    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated. None.
    17. Selection: (a) Do you know why you were chosen for this 
nomination by the President?
    Because of my reputation as a good manager, my extensive financial 
and administrative background and my previous experience at the U.S. 
Department of Commerce as deputy to the position for which I seek 
confirmation.
    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment?
    I believe that in addition to my long years of service in the 
administrative management area, and my experience at the Department of 
Commerce during both the Reagan and Bush Administrations in the job 
that is the line deputy to the CFO and Assistant Secretary for 
Administration uniquely qualifies for this position. Also, I served for 
6 years on the Committee on House Administration with the House of 
Representatives where my responsibilities included providing policy 
direction and oversight to the Officers of the House including the 
Clerk, Chief Administrative Officer, Sergeant at Arms and the Inspector 
General. The House received its first and subsequent ``clean'' audit 
opinions during my watch. In addition, I have a degree in finance with 
accounting and economics minors, coupled with extensive financial 
systems development experience that will serve as a solid base as I 
face the challenges of modernizing the financial systems of the 
Department.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate? I have done so already. I serve as advisor 
to Secretary Evans at the present time.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. No.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? That is my 
intention.

                   C. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers. None.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated. None.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy. None, other than 
the duties performed as a committee staffer with the U.S. House of 
Representatives.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.) Not 
applicable.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.

                            D. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a compliant to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details. No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. None.

                     E. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines set by congressional committees for information? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the committee? Yes.
    4. Please explain how you will review regulations issued by your 
department/agency, and work closely with Congress, to ensure that such 
regulations comply with the spirit of the laws passed by Congress.
    To the extent that my job would involve the review of regulations I 
would in consultation with legal counsel do everything possible to 
ensure that they comply with every applicable law. In addition, in 
those cases where congressional intent is unclear I would request that 
every effort be made to make that determination as accurately as 
possible through legislative research and consultation with applicable 
committees.
    5. Describe your department/agency's current mission, major 
programs, and major operational objectives.
    Broadly defined, the mission of the Department of Commerce is to 
help create a climate that fosters job creation and an improved 
standard of living for American citizens; measure and analyze societal 
and economic activities; and to advance our nation's science and 
technology. The office of the CFO and Assistant Secretary for 
Administration is responsible for supporting that mission in a way that 
encourages first class service to the Department's many stakeholders. 
It is its responsibility to assure effective program delivery through 
the management of fiscal resources, developing and maintaining a 
skilled, flexible workforce and through the creative use of technology.
    6. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

                  F. GENERAL QUALIFICATIONS AND VIEWS

    1. How have your previous professional experience and education 
qualified you for the position for which you have been nominated?
    I believe that in addition to my long years of service in the 
administrative management area, and my experience at the Department of 
Commerce during both the Reagan and Bush Administrations in the job 
that is the line deputy to the CFO and Assistant Secretary for 
Administration uniquely qualifies me for this position. Also, I served 
for 6 years on the Committee on House Administration with the House of 
Representatives where my responsibilities included providing policy 
direction and oversight to the Officers of the House including the 
Clerk, Chief Administrative Officer, Sergeant at Arms and the Inspector 
General. The House received its first and subsequent ``clean'' audit 
opinions during my watch. In addition, I have a degree in finance with 
accounting and economics minors coupled with extensive financial 
systems development experience that will serve as a solid base as I 
face the challenges of modernizing the financial systems of the 
Department.
    2. Why do you wish to serve in the position for which you have been 
nominated?
    To help promote the priorities of the President, the Secretary and 
the Department.
    3. What goals have you established for your first 2 years in this 
position, if confirmed?
    At this point I am still learning about the management needs of the 
Department through briefings, discussions, reading and review of GAO 
and Inspector General findings. If confirmed, I will belaying out my 
goals for the office of the CFO/ASA with specificity as soon as input 
from the internal staff and all the stakeholders has been received and 
synthesized. However, my initial thoughts along these lines lead me 
toward the following general areas where our collective efforts must be 
concentrated: Improve financial management to assure full compliance 
with all laws and regulations, maintain a ``clean'' audit opinion, 
strengthen internal controls, and to provide management with the sound 
financial data they need to run their program areas effectively; In 
conjunction with the Chief Information Officer of the Department strive 
for a model information security system department-wide; Improve the 
Department's strategic planning and performance measurement process; 
Aggressively address the severe human capital challenges facing the 
department; Strive to maintain excellent working relationships with our 
Senate and House committees and the Congress in general; Review and 
reform where necessary the procurement practices of the Department.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?
    While I believe that I already possess the skills that are required 
to carry out the responsibilities of this position, should I discover 
that there is a need for additional training I would take action 
immediately to rectify the situation.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when should society's 
problems be left to the private sector, and what standards should be 
used to determine when a government program is no longer necessary.
    The U.S. Government has an essential role in the affairs of the 
nation. However, its role must be tempered by common sense and Federal 
programs must be continually reviewed to assure that they are best 
serving the needs of the American people.
    6. In your own words, please describe the agency's current 
missions, major programs, and major operational objectives.
    Broadly defined, the mission of the Department of Commerce is to 
help create a climate that fosters job creation and an improved 
standard of living for American citizens; measure and analyze societal 
and economic activities; and to advance our nation's science and 
technology. The office of the CFO and Assistant Secretary for 
Administration is responsible for supporting that mission in a way that 
encourages first class service to the Department's many stakeholders. 
It is its responsibility to assure effective program delivery through 
the management of fiscal resources, developing and maintaining a 
skilled, flexible workforce and through the creative use of technology.
    7. In reference to question No. 6, what forces are likely to result 
in changes to the mission of this agency over the coming 5 years?
    The mission of the office of the CFO/ASA in unlikely to change, but 
programmatic changes brought about by Congressional and Presidential 
directive may refocus its support efforts. This office needs to be ever 
ready to respond to the needs of its stakeholders.
    8. In further reference to question No. 6, what are the likely 
outside forces which may prevent the agency from accomplishing its 
mission? What do you believe to be the top three challenges facing the 
department/agency and why?
    The single most challenging outside force that will affect the 
office of the CFAIASA's ability to perform its mission is the 
management of the workforce in an era of budget restraints and 
shortages of some skill sets in the workforce. Second, implementing a 
single integrated Department-wide financial system will require a huge 
investment of time and resources. Third, protecting our automated 
systems from outside threats must be addressed aggressively.
    9. In further reference to question No. 6, what factors in your 
opinion have kept the department/agency from achieving its missions 
over the past several years?
    While I have no detailed knowledge at this point in my tenure, it 
seems that budgetary restraints and workforce skill shortages have had 
an effect on program delivery.
    10. Who are the stakeholders in the work of this agency?
    The Secretary, Deputy Secretary, bureau heads, the 36,000 employees 
of the Department, the OMB, Congress and the American people.
    11. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question No. 10?
    If confirmed, I would listen carefully to the input of the 
sometimes-competing interests of the various stakeholders, weigh their 
concerns and arrive at fair and cost effective conclusions. I would do 
my utmost to support those responsible for program delivery in doing 
their jobs and would work with the Inspector General to eliminate 
waste, fraud and abuse in the Department.
    12. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices similar to those practiced in the private sector. (a) What do 
you believe are your responsibilities, if confirmed, to ensure that 
your agency has proper management and accounting controls? As CFO the 
responsibility for compliance with all applicable laws, regulations and 
accounting standards, and implementation of compliant, effective 
internal controls would rest with me. While the management of the 
Department is a shared and decentralized endeavor, it would be my 
responsibility to make sure that the line management in the bureaus had 
the tools necessary to effectively manage their operations. I would 
need to work closely with the Inspector General, the Congress, the GAO 
and the central management agencies toward more effective management of 
this vast workforce and its other resources.
    (b) What experience do you have in managing a large organization?
    I was deputy to the position I seek for about 10 years under 
previous administrations. This was a line management job with broad 
ranging responsibilities across the entire Department. In addition, I 
was responsible for overseeing the administrative operations of the 
U.S. House of Representativesfor 6 years. Prior to that I had 
nationwide responsibilities for administrative management for two 
Presidential campaigns.
    13. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals. (a) Please discuss what you believe to be the benefits of 
identifying performance goals and reporting on your progress in 
achieving those goals.
    The identification of performance goals and the measurement of 
progress against plan is more than a benefit, it is absolutley 
essential to effective management of any program. The true benefits are 
reaped in the form of effective program delivery.
    (b) What steps should Congress consider taking when an agency fails 
to achieve its performance goals? Should these steps include the 
elimination, privatization, downsizing or consolidation of departments 
and/or programs?
    The first thing that should occur is to delve into the reasons that 
performance goals were not reached. If the failure can be attributed to 
poor performance of those responsible for program delivery appropriate 
corrective action should be taken up to and including termination. If 
there are other factors that have caused or contributed to the failure, 
both management and the appropriate committees need to be involved. 
Reports should be requested, hearings held and appropriate directive 
provided in bill and report language. Obviously, more severe 
repercussions to include program termination are available to the 
Congress and should be exercised if other measures fail.
    (c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed?
    My performance should be measured by how effectively I meet the 
needs of my customers or stakeholders. Many of the specific objectives 
will change, but the core goals of effective product delivery in the 
most efficient manner at the least cost to the taxpayer lie at the 
heart of what should be expected of my performance. Attainment of 
goals, constructed in a collaborative way with stakeholders and 
employees should be the bottom line measure.
    14. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?
    My general philosophy is to clearly define what is expected of 
employees, and hold them to established objectives as laid out in their 
performance plans.
    No complaints have been brought against me.
    15. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please describe.
    As a longtime Washington hand and a recent alumnus of a staff of 
the House of Representatives I know well the essentiality of 
maintaining excellent working relationships with Members and staff of 
the Congress. The Senate Commerce Committee has general oversight of 
many of the programs of the department and its general operations and 
management. When I was with the Department of Commerce during the 
Reagan and Bush Administrations as deputy to the position for which I 
now seek confirmation my office had an excellent relationship with the 
committees with which we worked. If confirmed, I pledge to work 
diligently to foster good communications and rapport with the Members 
and staff of the authorizing and appropriations committees in the House 
and Senate.
    16. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency.
    The roles of these two positions must be collaborative. I will rely 
heavily on the advice and recommendations of the IG and his staff. I 
have worked in the past with the present Inspector General of the 
Department and we share the same goals and would work well together.
    17. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your department/
agency comply with the spirit of the laws passed by Congress.
    The intent of Congress must be the guiding consideration in all 
regulatory implementation. The General Counsel of the Department is 
responsible for the Department's regulatory programs and, if confirmed, 
I would work closely with that office on all such matters.
    18. In the areas under the department/agency's jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
state your personal views.
    If confirmed, the annual appropriations bills and initiatives 
proposed by the Administration would be my primary legislative 
concentrations.
    19. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending based on 
national priorities determined in an open fashion on a set of 
established criteria? If not, please state why. If yes, please state 
what steps you intend to take and a timeframe for their implementation.
    Yes. The Department has a performance measurement system already in 
place whereby progress against plan is measured in accordance with the 
Government Performance and Review Act. I would do all I could to 
strengthen that process.

    The Chairman. Mr. Wolff, thank you very much. Finally, we 
will hear from Mr. John Hammerschmidt, who has been nominated 
once again for the position of a Member of the National 
Transportation Safety Board, a position that he has worked in 
for the past 16 years, and his nomination by President Bush is 
pending before this Committee and this Congress. Mr. 
Hammerschmidt, welcome. And you are welcome to invite 
recognition to any members of your family who are here with 
you.
    Mr. Hammerschmidt. Thank you, Mr. Chairman. I have no 
members of my personal family here, but I do have, I believe, 
six members of my NTSB family here, and I just want to thank 
them for being here, including my colleague, John Goglia, a 
fellow board member.
    The Chairman. We welcome them.
    Mr. Hammerschmidt. Thank you. I might mention that the NTSB 
is a very small agency in Washington terms, about 400 people, 
and since I have been there beginning in 1985, I have always 
considered it to be one large family, a very supportive group 
of people. Mr. Chairman, I have a very brief statement I'd like 
to read.

           STATEMENT OF JOHN HAMMERSCHMIDT, MEMBER, 
          RENOMINATED TO BE A MEMBER OF THE NATIONAL 
                  TRANSPORTATION SAFETY BOARD

    Mr. Chairman and Members of the Committee, I am very 
honored to appear before you today as you consider my 
renomination to be a Member of the National Transportation 
Safety Board. I wish to thank the President for nominating me, 
and I wish to thank the Committee for scheduling this hearing 
so very promptly. If confirmed, I look forward to working with 
the Members of this Committee as we all seek to improve 
transportation safety.
    The position of Board Member is one of important 
responsibility and one of great opportunity. Board Members are 
responsible for finding the cause of transportation accidents 
and then determining how best to prevent such accidents from 
recurring. In that pursuit, Members of the Board have the 
opportunity to perform a significant public service.
    For the past 16 years, I have served at the National 
Transportation Safety Board and have had the privilege of 
working with some of the most skilled, dedicated, and committed 
professionals that there are in the federal government. Let me 
say that it is very easy to become committed to improving 
transportation safety once you have viewed death and 
destruction up-close at an accident site.
    The traveling public deserves the clear assurance that the 
government is acting in such a way that will aggressively seek 
out the causes of transportation accidents and will take the 
appropriate measures to correct whatever factors are found to 
have caused or contributed to those accidents. And the public 
also needs the clear assurance that the government's 
investigations are conducted fairly, competently, and 
efficiently. Such has been the tradition at the National 
Transportation Safety Board and, if confirmed, I will do my 
best to continue that tradition.
    That concludes my opening statement and, of course, I will 
be glad to answer any questions you may have. Thank you.
    [The biographical information of Mr. Hammershmidt follows:]

                      A. BIOGRAPHICAL INFORMATION

    1. Name: John Arthur Hammerschmidt.
    2. Position to which nominated: Member, National Transportation 
Safety Board.
    3. Date of nomination: June 27, 2001.
    4. Address: Current address: 1200 N. Veitch St., Apt. 226 
Arlington, VA 22201; Office address: National Transportation Safety 
Board, 490 L'Enfant Plaza East, SW Washington, DC 20594.
    5. Date and place of birth: May 30, 1949; Harrison, AR.
    6. Marital status: Single.
    7. Names and ages of children: None.
    8. Education: (List secondary and higher education institutions, 
dates attended, degree received and date degree granted.) Woodberry 
Forest School, Woodberry Forest, VA, 1964-1967; Dartmouth College, 
Hanover, NH, 1967-1971 A.B., 1971; Vanderbilt University Law School, 
Nashville, TN, 1971-1972; Harvard University Business School, Boston, 
MA, 1973-1974; Catholic University of Ecuador, Quito, Ecuador 
(Georgetown University summer foreign study program), 1972; 1975.
    9. Employment record: (List all jobs held since college, including 
the title or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.)


----------------------------------------------------------------------------------------------------------------
                From                   To       Name of Employer           Address              Type of Work
----------------------------------------------------------------------------------------------------------------
06/91..............................   07/01  National               Washington, DC.......  Board Member.
                                              Transportation
                                              Safety Board.
04/85..............................   06/91  National               Washington, DC.......  Special Assistant.
                                              Transportation
                                              Safety Board.
09/84..............................   11/84  Reagan-Bush 1984.....  Baton Rouge, LA......  Field Coordinator.
01/84..............................   04/84  Office of the Vice     Washington, DC.......  Staff Assistant.
                                              President (on U.S.
                                              Senate payroll).
07/74..............................   12/83  Hammerschmidt Lumber   Harrison, AR.........  Chief Executive
                                              Company, Inc..                                Officer; Secretary/
                                                                                            Treasurer.
05/79..............................   12/83  Farmers Lumber         Harrison, AR.........  President.
                                              Company, Inc., a
                                              wholly-owned
                                              subsidiary of
                                              Hammerschmidt Lumber
                                              Company, Inc..
08/73..............................   08/73  Hammerschmidt Lumber   Harrison, AR.........  General duties.
                                              Company, Inc..
01/73..............................   03/73  Rural Resources        Washington, DC.......  Research Assistant.
                                              Institute.
09/72..............................   11/72  Harrison Federal       Harrison, AR.........  Appraiser.
                                              Savings & Loan
                                              Association.
04/72..............................   06/72  Coalition for Rural    Washington, DC.......  Research Assistant.
                                              America.
06/71..............................   08/71  Hammerschmidt Lumber   Harrison, AR.........  General duties.
                                              Company.
----------------------------------------------------------------------------------------------------------------

    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.) During the 
summers of 1967, 1968, and 1969, I worked for the Arkansas State 
Highway Department: survey crew; rock quarry crew; drilling/blasting 
crew.
    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.)
    As noted in # 9, above, former positions held were: Secretary-
Treasurer, Hammerschmidt Lumber Company, Inc.; President, Farmers 
Lumber Company, Inc.
    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.)
    Formerly served on the Board of Directors of the following 
organizations: Boone County (Arkansas) Industrial Development 
Corporation (also served as Vice President and as President); Mid-
America Lumbermens Association; Arkansas Lumber and Building Materials 
Dealers Association; Harrison (Arkansas) Rotary Club; United Way of 
Boone County.
    13. Political affiliations and activities: (a) List all offices 
with a political party which you have held or any public office for 
which you have been a candidate. None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years. None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 of more for the past 10 years. 05/27/99, $1,000, George 
W. Bush; 07/17/00, $1,000, Republican Party of Arkansas.
    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals and any 
other special recognitions for outstanding service or achievements.)
    Performance awards at the National Transportation Safety Board: 
received a Quality Step Increase in recognition of outstanding 
performance in 1990, 1989, 1988, and 1986.
    At Dartmouth College: selected for and completed the history honors 
program; graduated ``With Highest Distinction'' in history; Rufus 
Choate Scholar; Dean's List student; awarded varsity letters in 
wrestling.
    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.) None.
    16. Speeches: (Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated.)
Speeches Delivered During the last 5 Years
    10/08/96, Addressed 4th International Symposium on Railroad-Highway 
Grade Crossing Research and Safety (Knoxville, TN); 03/06/97, Addressed 
Third International Helicopter Logging Safety Workshop (Ketchikan, AK); 
04/21/97, Addressed 1st International Boating & Water Safety Summit 
(jointly sponsored by National Water Safety Congress and National Safe 
Boating Council) (San Diego, CA); 08/11/97, Addressed IREI Air Safety 
Panel (Uenomura Village, Japan); 11/21/97, Addressed Second Fishing 
Industry Safety and Health Workshop (Seattle, WA); 04/28/98, Addressed 
National Convention of the Home Office Life Underwriters Association 
(Washington, DC); 11/10/99, Addressed First Air Cargo Pilots Symposium 
(Tunica, MS); 01/23/00, Addressed Helicopter Association 
International's Rotorcraft Roundtable (Las Vegas, NV); 02/14/00, 
Addressed Airport Safety and Operations Specialist School (jointly 
sponsored by AAAE and FAA) (Miami, FL); 05/12/00, Addressed Annual E.H. 
Harriman Memorial Awards Ceremony (railroad safety) (Washington, DC); 
09/11/00, Addressed 41st Annual Conference, National Association of 
State Boating Law Administrators (Mackinac Island, MI).
    17. Selection: (a) Do you know why you were chosen for this 
nomination by the President? Yes.
    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment?
    For over the past 10 years I have served as a Member of the 
National Transportation Safety Board (NTSB) and, since 1995, as the 
senior Board Member. Previous to being confirmed as a Board Member in 
June 1991, I served for over 6 years as Special Assistant to the 
Chairman/Board Member of the NTSB. During these 16+ years I have been 
immersed in practically all facets of the NTSB's work and have gained a 
great deal of experience and knowledge in this specialized area.
    Please refer to the attached 20-page Addendum for details 
concerning my employment experience at the NTSB.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate?
    My present employer is the government agency to which I have been 
renominated. I have no other business connection.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. No.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers. None.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated. None.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy.
    The only activities would have been as part of my official duties 
at the NTSB. Inasmuch as the NTSB is responsible for influencing public 
policy in order to enhance transportation safety, especially as regards 
the relevant regulatory agencies (FAA, FRA, USCG, etc.), I have been a 
part of that daily process for the past 16 years.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)
    I perceive no potential conflict of interest. If such a conflict 
should arise, I would follow the advice of the NTSB's Office of General 
Counsel.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.

                            D. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a compliant to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details. No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details.
    In the course of business, on occasion, there was civil litigation 
associated with Hammerschmidt Lumber Company's attempts to collect 
seriously past-due accounts receivable.
    4. Have you ever been convicted (including please of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. None.

                     E. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines set by congressional committees for information? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the committee? Yes.
    4. Please explain how you will review regulations issued by your 
department/agency, and work closely with Congress, to ensure that such 
regulations comply with the spirit of the laws passed by Congress.
    I strongly believe that regulations need to comply with the spirit 
of the laws passed by Congress. Otherwise, the departments/agencies 
essentially begin to legislate on their own per various agendas.
    I am keenly aware of this problem and this tendency. During my 
tenure at the NTSB, I have carefully reviewed policy documents and have 
been watchful for the divergence between legislative intent and agency 
follow-up. For example, I reviewed a draft letter generated by NTSB 
staff and noticed that it had missed the fact that a Public Law had 
mandated a certain action that the letter was criticizing as being 
unnecessary. The letter was subsequently modified.
    5. Describe your department/agency's current mission, major 
programs, and major operational objectives.
    The core mission of the NTSB is to enhance transportation safety 
through the investigation of transportation accidents and the issuance 
of safety recommendations.
    The major programs are the investigative activities in the 
delineated areas of aviation, rail, highway, marine, pipeline, and 
hazardous materials safety.
    A major operational objective is the continued thorough and 
professional investigation of transportation accidents, and the 
application of lessons learned so as to prevent similar accidents from 
recurring. Stated another way, the major operational objective 
continues to be saving lives and reducing injuries and property damage.
    6. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

                  F. GENERAL QUALIFICATIONS AND VIEWS

    1. How have your previous professional experience and education 
qualifies you for the position for which you have been nominated.
    For over the past 10 years I have served as a Member of the 
National Transportation Safety Board (NTSB) and, since 1995, as the 
senior Board Member. Previous to being confirmed as a Board Member in 
June 1991, I served for over 6 years as Special Assistant to the 
Chairman/Board Member of the NTSB. During these 16+ years I have been 
immersed in practically all facets of the NTSB's work and have gained a 
great deal of experience and knowledge in this specialized area.
    Please refer to the attached 20-page Addendum for details 
concerning my employment experience at the NTSB.
    Concerning education, in a sense I have been ``going to school'' 
continuously at the NTSB since April 1985. Many of the details of this 
NTSB experience are contained in the 20-page Addendum. Although I 
completed courses in such basic knowledge areas as physics, chemistry, 
meteorology, mathematics and technology when I was an undergraduate, 
and have since earned my private pilot's license, the best education 
that I have received for this position has been on-the-job learning at 
the NTSB for the past 16+ years.
    2. Why do you wish to serve in the position for which you have been 
nominated?
    In this day and age, with rapid technological advances and a 
society that is increasingly mobile, I consider the protection of the 
traveling public by enhancing transportation safety as a golden 
opportunity for public service. Having served and learned at the NTSB 
for the past 16+ years, and thus having accumulated a considerable 
amount of institutional knowledge, I wish to continue to utilize this 
experience in order to best serve the public interest.
    3. What goals have you established for your first 2 years in this 
position, if confirmed?
    My continuing goal is to rigorously review and study NTSB reports 
and other official documents, which usually represent the culmination 
of great amounts of time and effort, to ensure that they meet a high 
standard of excellence.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills? I can't think of any.
    5. Who are the stakeholders in the work of this agency? Everybody! 
Anyone who travels by air, rail, highway, or waterway, or who lives 
near a pipeline, is a stakeholder in the work of the NTSB. Because 
aircraft can crash into the ground or water anywhere, and because vapor 
clouds of hazardous materials released in a transportation accident can 
migrate over widely populated areas, everybody in the United States is 
a stakeholder. Due to the global nature of transportation, there are 
many such stakeholders outside the United States as well.
    6. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question No. 10. We at 
the NTSB work for the people.
    7. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices similar to those practiced in the private sector. (a) What do 
you believe are your responsibilities, if confirmed, to ensure that 
your agency has proper management and accounting controls? At the NTSB, 
the Chairman has the responsibility for proper management and 
accounting controls.
    (b) What experience do you have in managing a large organization? 
As Chief Executive Officer, I was involved with every facet of daily 
management of our family's retail building materials business, 
including a subsidiary. The corporation is now 90 years old.
    8. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals. (a) Please discuss what you believe to be the benefits of 
identifying performance goals and reporting on your progress in 
achieving those goals. Identifying performance goals enables an agency 
to channel its effort into focused areas of importance. Reporting on 
the progress in achieving those goals provides accountability.
    (b) What steps should Congress consider taking when an agency fails 
to achieve its performance goals? Should these steps include the 
elimination, privatization, downsizing or consolidation of departments 
and/or programs?
    Congress should first determine if the performance goals were 
compatible with the congressionally authorized purpose of the agency or 
program. Next, Congress should determine if the goals were realistic. 
If the goals set, but not met, were both mission-compatible and 
realistic, then any of the mentioned steps should be logically 
explored.
    (c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed?
    A Board Member's duties are so varied that I would be reluctant to 
define any specific performance goals--other than performing those 
varied duties at a level of excellence that befits the NTSB.
    9. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?
    A supervisor should inspire employees to perform their duties to 
the best of their potential. I prefer open and constant communication.
    No employee complaints have been brought against me.
    10. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please describe.
    The main part of my working relationship with Congress is somewhat 
indirect and involves the review of draft testimony that typically the 
NTSB Chairman delivers in committee hearings. Working with committees 
of Congress is usually handled either by the Chairman or by staff in 
the NTSB Office of Government Affairs.
    There have been occasions when I was the Board Member on scene at a 
major accident investigation, or chaired a public hearing in the locale 
of a major accident, and have briefed Members of Congress and their 
staff on the progress of the investigation. Likewise, over the past 10 
years, I have briefed Members of Congress about the NTSB and ongoing 
investigations both in their offices and in my office.
    On May 11, 2000, I represented the Board before the U.S. Senate 
Committee on Commerce, Science, and Transportation at a hearing 
concerning pipeline safety.
    11. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency.
    The most recent reauthorization of the NTSB assigned specific 
oversight responsibilities to the U.S. Department of Transportation 
Inspector General. As to those responsibilities, I would expect to have 
a professional relationship and to be responsive to requests for 
information.
    12. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your department/
agency comply with the spirit of the laws passed by Congress.
    I strongly believe that regulations need to comply with the spirit 
of the laws passed by Congress. Otherwise, the departments/agencies 
essentially begin to legislate on their own per various agendas.
    I am keenly aware of this problem and this tendency. During my 
tenure at the NTSB, I have carefully reviewed policy documents and have 
been watchful for the divergence between legislative intent and agency 
follow-up. For example, I reviewed a draft letter generated by NTSB 
staff and noticed that it had missed the fact that a Public Law had 
mandated a certain action that the letter was criticizing as being 
unnecessary. The letter was subsequently modified.
    13. In the areas under the department/agency's jurisdiction, what 
legislative actions(s) should Congress consider as priorities? Please 
state your personal views.
    Infrastructure improvements, especially in areas such as highways 
and airports, are fundamental to maintaining and improving 
transportation safety.
    14. Within your area of control, will you pledge to develop and 
implement a system that allocated distretionary spending based on 
national priorities determined in an open fashion on a set of 
established criteria? If not, please state why. If yes, please state 
what steps you intend to take and a time frame for their 
implementation.
    I agree with the premise but, if confirmed, I likely would not be 
involved with developing and implementing a system that allocates 
discretionary spending based on national priorities determined in an 
open fashion on a set of established criteria.

                                ADDENDUM

    References questions A. 17. (b) and F.1.
    Board member, National Transportation Safety Board, June 26, 1991 
to present. Duties: Participate in Board deliberations and vote on 
``probable cause(s)'' of specific accidents and resultant safety 
recommendations to be applied system-wide as developed from accident 
investigations in civil aviation, rail, highway, marine, pipeline, 
hazardous materials, and commercial space launch transportation.
    Participate on-scene during major domestic accident investigations; 
serve as spokesman for the NTSB (the lead Federal agency) and as 
liaison to the public during the formal investigative process.
    Chair Board-conducted public hearings on single-accident issues 
with broader application to that transportation mode.
    Review and vote on appeals from airmen and merchant seamen whose 
certificates have been revoked or suspended.
    Identify transportation safety problems of a recurrent nature for 
formal study; define, direct, and approve publication of such studies.
    Represent the NTSB at various transportation safety-related events/
occasions organized by industry entities, public interest groups, 
professional associations, or Federal regulatory agencies.
NTSB Experience as Board Member

Go-Team Launches

    Participated on-scene at the following accident investigations:

1991

    11-13; Controlled flight into terrain, Bruno's Inc., Beechjet 400A; 
all 9 on board fatal; Rome, GA.

1992

    04/29-05/01; Gradecrossing collision, Amtrak train 94 and dump 
truck; all train units derailed; Newport News, VA.

1993

    03/17-20; Gradecrossing collision, Amtrak train 91 and gasoline 
tractor-semitrailer tank truck; Fort Lauderdale, FL.
    04/07-09; Inadvertent in-flight slat deployment necessitating 
emergency landing, China Eastern Airlines MD-11; 2 fatal, 156 injured 
(only time that investigation of an aviation accident has been 
delegated to the NTSB by the People's Republic of China); Shemya, AK.
    09/22-25 Derailment of Amtrak train 2 while crossing bridge over 
Big Bayou Canot; 47 fatal in Amtrak's worst accident; Mobile, AL.
    11/11-14; Head-on collision of southbound Burlington Northern and 
northbound Union Pacific freight trains; Kelso, WA.
    11/30-12/02; Gradecrossing collision, Amtrak train 88 and 178 ft. 
long tractor-trailer rig hauling gas turbine generator; Intercession 
City, FL.
    12/02-05; Express Airlines II (dba Northwest Airlink) Flight 5719, 
Jetstream BA-3100, collision with terrain on final approach to airport; 
all 18 on board fatal; Hibbing, MN.

1994

    07/02-07; USAir Flight 1016, DC-9-30, crash near airport during go-
around in severe weather; 37 fatal, 21 survivors; Charlotte, NC.

1995

    06/22; Liberian-registered cruise vessel M/V Celebration, operated 
by Carnival Cruise Lines, immobilized by electrical fire in engine 
control room, with 2,560 people on board (Liberian investigation; NTSB 
invited to participate); Freeport, Bahamas.
    08/21-24 Atlantic Southeast Airlines (ASA) Flight 529, Embraer EMB-
120, off-airport crash landing following in-flight loss of propeller 
blade; 9 fatal, 20 survivors; Carrollton, GA.

1996

    07/27-29; Laundry-room fire with heavy smoke propagation, cruise 
ship Universe Explorer, cruising in the Lynn Canal with 1,006 people on 
board; 5 crew fatal; Juneau, AK.
    09/05-09; Federal Express Flight 1406, DC-10-10F, emergency landing 
due to in-flight fire in cargo area; airplane destroyed by fire after 
stopping on a high-speed taxiway; Newburgh, NY.
    12/15-18; Collision of the Liberian-registered Bulk Carrier Bright 
Field with the Port of New Orleans River Walk Shopping Mall, about Mile 
100, Lower Mississippi River; New Orleans, LA.

1997

    01/09-13; Comair Flight 3272, Embraer EMB-120, crash on approach to 
Detroit Metropolitan/Wayne County Airport; all 29 on board fatal; 
Monroe, MI.

1998

    03/11-15; Collision at passive grade crossing when local school bus 
pulled into path of Burlington Northern Santa Fe freight train; 2 (of 
5) students on bus fatal; Buffalo, MT.
    03/16-18; Collision between the 162 ft.-long offshore supply vessel 
(OSV) Bass River and the 202 ft.-long OSV C-Captain near Belle Pass, 
LA; 3 fatal; Gulf of Mexico.
    06/29-07/03; Explosions and fire during transfer of fuel from semi-
trailer cargo tank to straight-truck cargo tank at Dion Oil Company 
storage location near marina, Key West, FL.

1999

    05/01-12; Sinking of the U.S. Coast Guard-inspected amphibious 
excursion vessel Miss Majestic in Lake Hamilton; 13 fatal, 8 survivors 
(in terms of ``passenger fatalities,'' worst marine accident 
investigated by Board since 1978); Hot Springs, AR.
    06/11-15; Failure of 16-inch diameter pipeline carrying gasoline, 
with product flow into creek; 3 fatal when gasoline ignited; 
Bellingham, WA.
    09/26-10/02; Big Island Air Flight 58, PA-31-350, crash on the 
northeast slope of volcano during air tour; all 10 on board fatal; 
Mauna Loa Volcano, HI.

2000

    01/31-02/07; Alaska Airlines Flight 261, MD-83, uncontrolled flight 
into Pacific Ocean; all 88 on board fatal; Port Hueneme, CA.
    08/15; MTA Light Rail Vehicle collision with bumping post and 
International Terminal building at BWI International Airport (all 22 on 
board injured); Linthicum, MD.
    08/19-21; El Paso Natural Gas 30-inch diameter gas transmission 
pipeline rupture and fire; 12 campers fatal; Carlsbad, NM.

2001

    01/28-30; Crash of Raytheon Beechcraft King Air 200 after rapid 
descent from flight level 230 (23,000 feet); flight was transporting 
players, staff and guests of the Oklahoma State University basketball 
team; 10 fatal; Strasburg, CO.
    02/10-25; Collision between the U.S. nuclear attack submarine USS 
Greeneville and the Japanese fisheries training vessel Ehime Maru, in 
the Pacific Ocean, about 10 miles south of Pearl Harbor, Hawaii on 02/
09/01; Honolulu, HI.
    07/19; Derailment of CSX freight train within single-track tunnel 
beneath the city of Baltimore; emergency response to hazardous 
materials release and fire affected downtown area for several days; 
Baltimore, MD.
Public Hearings
    Chaired hearings associated with the following accident 
investigations:
    01/04-07/94; Crash of American International Airways, Inc. (dba 
Kalitta Flying Service) Flight 808 at the Naval Air Station, Guantanamo 
Bay, Cuba; August 18, 1993; Ypsilanti, MI.
    09/19-22/94; Crash of US Air Flight 1016, DC-9-30, near Charlotte, 
NC airport during go-around in severe weather; July 2, 1994; Charlotte, 
NC.
    02/27-03/03/95; Crash of Simmons Airlines (dba American Eagle) 
Flight 4184, ATR-72-210, near Roselawn, IN, during holding pattern in 
icing conditions; October 31, 1994; all 68 on board fatal; 
Indianapolis, IN.
    01/17-19/96; Gradecrossing collision, METRA express commuter train 
and a Crystal Lake school bus, in Fox River Grove, IL; October 25, 
1995; 7 students fatal; Crystal Lake, IL.
    06/02-05/97; Explosion in the Rio Piedras area of San Juan that 
destroyed a six-story commercial building and destroyed/damaged other 
buildings; November 21, 1996; 33 fatal, over 100 injured (the worst 
pipeline accident ever investigated by the Board); San Juan, PR.
    02/17-18/99; Fire aboard the cruise ship MS Ecstasy as it was 
departing the Port of Miami on July 20, 1998; Miami, FL.
    12/13-16/00; Crash of Alaska Airlines Flight 261, MD-83, into 
Pacific Ocean near Port Hueneme, CA; January 31, 2000; all 88 on board 
fatal; Washington, DC.
Public Forums
    Chaired forums associated with the following safety issues:
    03/06-07/96; Integrated Bridge Systems, to examine technological 
advances in maritime navigation and communications; Vienna, VA.
    03/03-04/98; Transit Bus Operations; St. Louis, MO.
    12/08-09/99; Amphibious Passenger Vessel Safety; Memphis, TN.
Legislative Testimony
    02/13/92; Subcommittee on DWI, Committee on Criminal Jurisprudence, 
House of Representatives, State of Texas, Austin (Subject: 
Administrative License Revocation (ALR)).
    04/08/92; Judiciary Committee, Senate, State of New Hampshire, 
Concord (Subject: ALR).
    09/17/92; DWI Laws Subcommittee, Joint Interim Committee on Public 
Transportation, Arkansas General Assembly, Little Rock (Subject: ALR).
    05/11/00 Committee on Commerce, Science and Transportation, U.S. 
Senate (Subject: Pipeline Safety).
Speeches
    04/27/92; Addressed Southwestern/Western Regional Meeting, American 
Short Line Railroad Association; (Fort Worth, TX).
    09/30/92; Addressed 61st Annual Meeting, National Association of 
State Aviation Officials (NASAO); (San Antonio, TX).
    03/08/93; Addressed Airport Safety and Operations Specialist School 
(jointly sponsored by American Association of Airport Executives (AAAE) 
and Federal Aviation Administration (FAA)); (Portland, OR).
    04/19/93; Addressed 43rd National Water Safety Congress, 
Professional Development Seminar; (Little Rock, AR).
    06/28/93; Addressed 1st European/U.S. Airport Safety and Operations 
Specialist School (jointly sponsored by Irish Airports Authority, 
International Association of Airport Executives, AAAE, and FAA); 
(Shannon, Ireland).
    03/02/94; Addressed Airport Safety and Operations Specialist School 
(jointly sponsored by AAAE and FAA); (Las Vegas, NV).
    10/10/94; Addressed the 1994 Annual Transportation Conference, The 
Fertilizer Institute; (Tucson, AZ).
    01/17/95; Addressed The Forum Club; (New York, NY).
    08/12/95; Addressed American Trucking Associations' Safety 
Management Council's National Truck Driving Championships Awards 
Banquet; (New Orleans, LA).
    02/28/96; Addressed Second International Helicopter Logging Safety 
Workshop; (Ketchikan, AK).
    04/22/96; Addressed Southwestern/Western Regional Meeting, American 
Short Line Railroad Association; (Memphis, TN).
    05/13/96; Addressed the Annual Assembly Meeting of the Radio 
Technical Commission for Maritime Services; (San Diego, CA).
    10/08/96; Addressed 4th International Symposium on Railroad-Highway 
Grade Crossing Research and Safety; (Knoxville, TN).
    03/06/97; Addressed Third International Helicopter Logging Safety 
Workshop; (Ketchikan, AK).
    04/21/97; Addressed 1st International Boating & Water Safety Summit 
(jointly sponsored by National Water Safety Congress and National Safe 
Boating Council); (San Diego, CA).
    08/11/97; Addressed IREI Air Safety Panel; (Uenomura Village, 
Japan).
    11/21/97; Addressed Second Fishing Industry Safety and Health 
Workshop; (Seattle, WA).
    04/28/98; Addressed National Convention of the Home Office Life 
Underwriters Association; (Washington, DC).
    11/10/99; Addressed First Air Cargo Pilots Symposium; (Tunica, MS).
    01/23/00; Addressed Helicopter Association International's 
Rotorcraft Roundtable; (Las Vegas, NV).
    02/14/00; Addressed Airport Safety and Operations Specialist School 
(jointly sponsored by AAAE and FAA); (Miami, FL).
    05/12/00; Addressed Annual E.H. Harriman Memorial Awards Ceremony 
(railroad safety); (Washington, DC).
    09/11/00; Addressed 41st Annual Conference, National Association of 
State Boating Law Administrators; (Mackinac Island, MI).
NTSB Formal Training
    08/16-26/93; Technical Aviation Training for Attorneys (Course No. 
12031); FAA Academy; Oklahoma City, OK.
    06/15-16/94; Hot Air Balloon Familiarization Course; AERCO Division 
of Albuquerque Balloon Center; Albuquerque, NM.
    02/13-17/95; NTSB Advanced Aircraft Accident Investigation Course: 
Human Factors; Alexandria, VA.
    02/24-27/97; NTSB Proficiency Flight Course; Florida Institute of 
Technology School of Aeronautics; Melbourne, FL.
Other Formal Training
    Hold FAA-issued private pilot (airplane single engine land) airman 
certificate.
Represented the NTSB at the Following:
1991

    Briefings/demonstrations by National Center for Atmospheric 
Research; (Denver and Boulder, CO; 07/24-25).
    39th Annual Experimental Aircraft Association (EAA) Fly-in 
Convention and Aviation Exhibition (NTSB an exhibitor); (Oshkosh, WI; 
07/26-28).
    Briefings/orientation by FAA and The Port Authority of NY & NJ, JFK 
International Airport; (Jamaica, NY; 08/09).
    Briefings/safety orientation aboard new cruise ship about to 
commence commercial service; (New York Harbor to Philadelphia; 08/10-
11).
    Briefings/systems review (re: heavy-truck brake systems), Rockwell 
International; (Troy, MI; 10/03).
    Aircraft Owners and Pilots Association (AOPA) Annual Convention and 
Industry Exhibit (NTSB an exhibitor); (New Orleans, LA; 10/23-26).

1992

    40th Annual EAA Fly-in Convention and Aviation Exhibition (NTSB an 
exhibitor); (Oshkosh, WI; 07/31-08/02).
    Accompanied a delegation from the Public Works and Transportation 
Committee, U.S. House of Representatives, to a series of 
transportation-related briefings/demonstrations (Japan, People's 
Republic of China, Thailand, and Hong Kong; 08/23-09/08). Of note: met 
with China Premier Li Peng, in Beijing.
    Aircraft Owners and Pilots Association (AOPA) Annual Convention and 
Industry Exhibit; (Las Vegas, NV; 10/10-14).

1993

    Test run/demonstration of Amtrak's X-2000 high-speed train from 
Union Station in Washington, DC to 30th Street Station in Philadelphia, 
PA (01/08).
    Heli-Expo '93 and the 45th Annual Meeting, Helicopter Association 
International (Miami, FL; 02/24-26).
    Briefings/site review (flew Boeing 777 simulator), Boeing 
Commercial Airplane Group (Seattle, WA; 03/10).
    NASA briefings/orientation of shuttle launch preparation (Kennedy 
Space Center, FL; 03/20-23).
    Briefings/tour of the Airbus Training Center (Miami, FL; 03/24).
    Briefing/demonstrations, Motor Coach Industries (MCI) Bus Assembly 
Plants (Winnipeg, Manitoba, Canada and Pembina, ND; 05/19-21).
    Briefing/site inspection, Eurotunnel construction (Folkestone, 
England; 06/30).
    Tour, magnetic levitation (mag/lev) test facility of Thyssen 
Henschel (Emsland, Germany; 07/01).
    Tour/briefings, production facilities (electronic brake systems for 
trucks) at WABCO Westinghouse (Hannover, Germany; 07/02).
    Tour, assembly plant, Deutsche Aerospace Airbus (Hamburg, Germany; 
07/05).
    Tour, InterCityExpress (ICE) high speed rail system Service 
Facility (Hamburg-Eidelstedt, Germany; 07/06).
    Airshow Canada 1993, international aviation and aerospace 
exhibition (Abbotsford, British Columbia, Canada; 08/04-06).

1994

    3rd National Leadership Conference on Increasing Safety Belt Use in 
the U.S. (Orlando, FL; 01/13-15).
    Pipeline safety trip to natural gas operations, including tour of 
Tenneco's offshore gathering compressor platform (Dallas, TX, 06/01; 
Lake Charles, LA, and Gulf of Mexico, 06/02).
    9th Anniversary Memorial Ceremony of the 08/12/85 crash of JAL 
Flight 123, a Boeing 747, including associated Air Safety Conference 
and dedication of the (former NTSB Chairman) Jim Burnett Monument along 
the trail to the crash site near top of mountain (near Uenomura 
Village, Japan; 08/11-12).
    Briefings/tour, with FAA European Representatives, of the Air 
Accidents Investigation Branch (AAIB), U.K. Department of Transport, 
facilities; briefings by officials of Jetstream Aircraft Ltd. (British 
Aerospace), including Jetstream 31 & 41 cockpit orientation, and Airbus 
Industrie (Royal Aerospace Establishment, Farnborough, England; 09/08-
10).
    The Chicago Convention, that established the International Civil 
Aviation Organization (ICAO), 50th Anniversary Conference and 
Exhibition; and ICAO Council meeting (Chicago, IL; 10/30-11/01).
    Fishing Vessels Expo 1994; (NTSB an exhibitor), and tour of factory 
trawler S/T Alaska Ocean; (Seattle, WA; 12/02-03).

1995

    Southern California Safety Institute, Inc. & FAA Civil Aeromedical 
Institute's ``12th Annual International Aircraft Cabin Safety 
Symposium'' (Torrance, CA; 02/07-10).
    Airline Safety Action Partnership (ASAP) Conference (Irving, TX; 
05/25-26).
    Tour/orientation of the new Denver International Airport, including 
demonstration of firefighting equipment (Snozzle) at Firehouse No. 2 
(Denver, CO; 06/07).
    Tour/briefings, Transportation Technology Center, including HAZMAT 
training exercise (Pueblo, CO; 06/08).
    Orientation/briefings, NASA Ames Research Center; including 
vertical-motion simulator session re: ongoing accident investigation of 
USAir Flight 427, a Boeing 737 (Moffett Field, CA; 07/13).
    Tour/briefings, Bay Area Rapid Transit (BART) System, including the 
operations control center (Oakland, CA; 07/14).
    Santa Fe Railway: tour of Barstow, CA switching yard and control 
center; rode freight-train locomotive down the Cajon Pass to San 
Bernadino re: ATSF/UP freight trains accident on 12/14/94; (Barstow to 
San Bernadino, CA; 07/17).
    American President Lines: operations briefing; toured Los Angeles 
Harbor facility, observed containerized ship loading/unloading 
procedures, reviewed shipboard safety aboard the M/V President Lincoln; 
toured intermodal rail transfer facility (San Pedro & Los Angeles, CA; 
07/18).
    Tour/briefings, Los Angeles County Metropolitan Transit Authority; 
including the operations control center and the soon-to-be-opened green 
line; (Los Angeles, CA; 07/19).
    Northwest Arkansas Regional Airport ``Cloudbreaking;'' met with 
Regional FAA and local airport officials (Benton & Washington Counties, 
AR; 08/10).
    American Trucking Associations' Safety Management Council's 
National Truck Driving Championships (New Orleans, LA; 08/11-12).
    Tour/briefings, Burlington Northern Railroad's Network Operations 
Center (Fort Worth, TX; 08/14).
    10 Airports Council International--North America (ACI-NA) 4th 
Regional Conference; Airports Council International 5th World Assembly 
& Exhibition (Washington, DC; 09/11-13).
    5th International Federation for Automatic Control (IFAC) Symposium 
on Automated Systems Based on Human Skill--Joint Design of Technology 
and Organization; including tour/briefings, new Berlin DFS Air Traffic 
Control Centre at Tempelhof Airport; participated in Discussion Group 
on ``Aircraft and Air Traffic Control'' (Berlin, Germany; 09/25-27).
    Inter Airport '95; including Crash Fire Rescue Workshop (``Are 
Current ICAO Firefighting Media Requirements Realistic?'') and 
firefighting demonstration by the Frankfurt Airport Fire Service 
(Frankfurt, Germany; 09/29).
    Briefing/tour of New Terminal construction site, including ATC 
tower, Washington National Airport (Arlington, VA; 10/30).
    Federal Transit Administration, Office of Safety & Security's 
``Fire/Life Safety Training Seminar,'' including emergency response 
training exercise to a simulated multi-modal MARTA accident (Atlanta, 
GA; 12/03).

1996

    Southern California Safety Institute International's ``13th Annual 
International Aircraft Cabin Safety Symposium'' (San Diego, CA; 01/29-
02/02).
    Briefings/orientation at Biscayne Bay Pilots Station and on the 
bridge of the cruise ship Royal Majesty, in preparation for upcoming 
NTSB public forum on ``integrated bridge systems'' (Miami; FL, and 
Atlantic Ocean; 02/16).
    Heli-Expo '96 and the 48th Annual Meeting, Helicopter Association 
International; flew McDonnell Douglas Explorer/600N Notar helicopter 
(N9082Z) (Dallas, TX; 02/22-24).
    Orientation/briefing, NTSB rudder-system testing on a retired 
Boeing 737 in Boeing Commercial Airplane Group hangar at Boeing Field 
re: continuing accident investigation of USAir Flight 427 (Seattle, WA; 
02/26).
    Annual Assembly Meeting of the Radio Technical Commission for 
Maritime Services (San Diego, CA; 05/12-16).
    Burlington Northern Santa Fe Railroad's Network Operations Center, 
technology update (Fort Worth, TX; 05/22).
    Site visit/briefing, ValuJet Flight 592 ongoing wreckage recovery 
activities (Everglades near Miami, FL; 06/05).
    Tour of airside operations at Miami International Airport (Miami, 
FL; 06/06).
    Tour/briefing/ship simulator exercises, Marine Institute of 
Technology and Graduate Studies (Linthicum Heights, MD; 06/26).
    Site visit/briefing, TWA Flight 800 ongoing wreckage documentation/
layout activities in large Grumman hangar (Calverton, Long Island, NY; 
08/02).
    44th Annual EAA Fly-in Convention and Aviation Exhibition (NTSB an 
exhibitor); (Oshkosh, WI; 08/03-05).
    Aircraft Owners and Pilots Association (AOPA) Annual Convention and 
Industry Exhibit (San Jose, CA; 10/17-19).
    Airports Council International-North America (ACI-NA) 5th Regional 
Conference (San Diego, CA; 10/20-22).
    Site visit/briefing, TWA Flight 800 accident ongoing wreckage 
reconstruction and other investigative activities (Calverton, Long 
Island, NY; 10/28).
    American Airlines-Flight Training: Advanced Aircraft Maneuvering 
Program, ground school (Alexandria, VA; 11/04).
    NTSB Public Hearing on ValuJet Flight 592, DC-9-32, accident in the 
Florida Everglades; all 110 on board fatal (Miami, FL; 11/18-19).
    ``Canadian National Crossing Accident & Trespassing Strategy'' 
presentation at Canadian National Railway Company (CN) headquarters by 
CN Safety & Regulatory Affairs personnel (Montreal, Canada; 12/19).

1997

    Heli-Expo 1997 and the 49th Annual Meeting, Helicopter Association 
International; participated in ``Rotorcraft Roundtable'' session 
(Anaheim, CA; 02/01-02).
    Tour/briefing, Applied Research Laboratory at the Florida Institute 
of Technology's Space Coast Center for Human Factors Research 
(Melbourne, FL; 02/28).
    Allied Signal Aerospace: tour/briefing, flight recorder technology; 
in-flight demonstration of Enhanced GPWS (Ground Proximity Warning 
System) aboard Beech King Air (Redmond & Seattle-area, WA; 03/07).
    Tour/briefing, San Diego Trolley system (San Diego, CA; 04/18).
    Technical briefing/in-vehicle demonstration of the Automated 
Highway System (AHS) prototype project, by the National AHS Consortium 
(San Diego, CA; 04/22).
    Met with the Secretary of State of Puerto Rico, Hon. Norma Burgos, 
at the Department of State re: NTSB Public Inquiry into the 11/21/96 
fatal explosion in San Juan; accompanied Ms. Burgos to the accident 
site for orientation/briefing (San Juan, PR; 05/29-30).
    System-safety briefing aboard BNSF (Burlington Northern Santa Fe 
Railroad) high-rail vehicle future high-speed rail corridor (Seattle, 
WA, to Vancouver, WA; 06/26).
    Tour of Washington National Airport's new terminal building, ATC 
tower, and TRACON facility (Arlington, VA; 07/11).
    Tour/briefings, Naval Safety Center and airfield operations 
facilities at Naval Air Station Norfolk (Norfolk, VA; 07/17).
    Tour/briefings, aboard the nuclear-propelled aircraft carrier USS 
Dwight D. Eisenhower (CVN-69), including an arrested landing (trap) 
onboard the carrier and a catapult launch from the carrier, both in a 
C2 (Atlantic Ocean; 07/17-18).
    45th Annual EAA Fly-in Convention and Aviation Exhibition (NTSB an 
exhibitor) and NTSB Board Meeting (Oshkosh, WI; 07/31-08/01).
    Tour/briefing, magnetic levitation (mag/lev) test facility of HSST 
Development Corporation (Nagoya, Japan; 08/08).
    13th Anniversary Memorial Events and Ceremony of the 08/12/85 crash 
of JAL Flight 123, a Boeing 747, including Air Safety Panel Discussion 
(near Uenomura Village, Japan; 08/11-12).
    Aircraft Owners and Pilots Association (AOPA) Annual Convention and 
Industry Exhibit (Orlando, FL; 10/23-25).
    Rail safety briefing/tour in high-rail vehicle: Port Terminal 
Railroad (Houston, TX; 11/04).
    Orientation/safety briefing of Houston port pilot operations in the 
Houston Ship Channel, aboard oil tankship Corelli (Houston to 
Galveston, TX; 11/07).
    Briefing at FBI New York Headquarters on TWA Flight 800 
investigation, followed by press conference (New York, NY; 11/18).
    NTSB Public Hearing on TWA Flight 800, Boeing 747-131, accident on 
July 17,1996 off the coast of Long Island, NY; all 230 on board fatal 
(Baltimore, MD; 12/08-11).

1998

    Heli-Expo 1998 and the 50th Annual Meeting, Helicopter Association 
International (Anaheim, CA; 02/15-16).
    NTSB Public Hearing on Korean Air Flight 801, Boeing 747-300, 
accident on August 6, 1997 in Agana, Guam; 228 of 254 on board fatal 
(Honolulu, HI; 03/24-26).
    19th International Air Cargo Forum & Exposition (Paris, France); 
Bureau Enquetes Accidents (Le Bourget, France); Eurostar system (Paris 
to London); Maritime Rescue International (Stonehaven, Scotland); 
Montrose Fire & Emergency Training Centre (Montrose, Scotland); Total 
Oil Marine plc's Alwyn North offshore platform (North Sea); Maritime 
and Coastguard Agency, and the Royal National Lifeboat Institution 
(Aberdeen, Scotland) (05/06-15).
    Latin American Aeronautical Association Annual Convention and 
Exposition (Miami Beach, FL; 07/15-16).
    46th Annual EAA Fly-in Convention and Aviation Exhibition (NTSB an 
exhibitor) (Oshkosh, WI; 7/30).
    Airports Council International-North America (ACI-NA) 7th Regional 
Conference (Orlando, FL; 10/05).
    Dedication of the new Northwest Arkansas Regional Airport 
(Highfill, AR; 11/06).

1999

    Briefing aboard cruise ship MS Ecstasy of circumstances of the 07/
20/98 fire, in preparation for chairing upcoming public hearing on the 
accident (Miami, FL; 01/08).
    Briefing/``hands-on'' operational demonstrations at Parker 
Aerospace re: USAir Flight 427 accident investigation (Irvine, CA; 01/
13).
    Briefing/tour, Pacific Harbor Line railroad (Ports of Los Angeles 
and Long Beach, CA; 01/15).
    Led group of senior NTSB technical specialists to Airbus Industrie 
and Aerospatiale, for technical training; to ATR, for technical 
discussions re: ongoing NTSB investigations (flew ATR42 simulator) 
(Toulouse, France); to Bureau Enquetes Accidents, technical training 
(Le Bourget, France) (02/01-05).
    Heli-Expo '99 and the 51st Annual Meeting, Helicopter Association 
International (Dallas, TX; 02/23).
    NTSB Bar Association Mid-Year Meeting (Dallas, TX; 02/24).
    Briefings/simulator exercises re: USAir Flight 427 accident 
investigation, Boeing Commercial Airplane Group (Everett, Renton and 
Seattle, WA; 03/03-04).
    Follow-up to NTSB Public Hearing on MS Ecstasy fire re: Carnival 
Cruises' training programs at RTM Star Center maritime training 
facility (Dania, FL); 1999 cruise ship conference (Miami Beach, FL) 
(03/09-12).
    EAA International Sport Aviation Convention (Lakeland, FL; 04/16).
    Latin American Aeronautical Association Annual Convention and 
Exposition (Miami Beach, FL; 07/15-16).
    Briefings/meetings, command post for on-scene investigation of 
EgyptAir Flight 990, Boeing 767-300ER, accident on October 31, 1999 
near Nantucket Island, MA; all 217 onboard fatal (Quonset Point, RI; 
11/01).
    Via government aircraft (N1) from DCA (with Sec. of Transportation, 
FAA Administrator, Egypt's Ambassador and others) to EgyptAir Flight 
990 accident memorial service (Brenton Point State Park, RI; 11/07).

2000

    Briefing, tour of terminal facilities, United Airlines ground 
safety program at Los Angeles International Airport (Los Angeles, CA; 
01/10).
    Briefing at Crane Co./Hydro-Aire Division re: continuing 
investigation of TWA Flight 800 accident (Burbank, CA, 01/10).
    Inspection of wreckage from the August 1999 China Airlines MD-11 
accident at Hong Kong International Airport, Boeing Commercial Airplane 
Group (Long Beach, CA; 01/11).
    Aviation Safety Alliance Legislative & Executive Seminar (Miami, 
FL; 01/13-15).
    Heli-Expo 2000 and the 52nd Annual Meeting, Helicopter Association 
International (Las Vegas, NV; 01/23-26).
    Florida International Aero Expo (Miami, FL; 02/13).
    Cruise ship inaugural activities; RTM Star Center maritime training 
facility (Ft. Lauderdale and Dania, FL; 02/15-16).
    Briefing/tour, Wings Aviation Services re: proposed Safety 
Recommendation from investigation of uncontained turbine engine failure 
(Miami, FL; 04/12).
    Transportation Safety Roundtable Discussion with U.S. Dept. of 
Transportation Secretary Slater (Little Rock, AR; 05/01).
    Briefing, Ride the Ducks re: Safety Recommendation M-00-5 (Branson, 
MO; 05/19).
    Briefing/tour, Trig Aerospace re: ongoing investigation of Alaska 
Airlines Flight 261 accident (Santa Ana, CA; 06/05).
    Inspection of Alaska Airlines Flight 261 wreckage (Port Hueneme, 
CA; 06/06).
    NTSB Bar Association Eastern Region Meeting (Howard Beach, NY; 06/
08).
    Briefing/tour, Boston Duck Tours re: Safety Recommendation M-00-5 
(Boston, MA; 06/09).
    Site visit to The Admiral re: ongoing accident investigation of the 
near breakaway of the moored vessel by drifting barges on 04/04/98; 
briefing by The Admiral and U.S. Coast Guard personnel (St. Louis, MO; 
06/16).
    Rail safety inspection trip aboard Burlington Northern Santa Fe 
intermodal freight train Z-CHCSSE2-11 (Shelby, MT to Seattle, WA; 07/
13-14).
    Briefing/discussion with Alaska Airlines senior management re: 
ongoing investigation of Alaska Airlines Flight 261 accident (Seattle, 
WA; 07/14).
    Safety briefing and hands-on demonstration of new off-throttle 
steering system for Kawasaki personal watercraft, in response to NTSB 
Safety Recommendation M-98-85 (Lake Mead, NV; 09/18).
    Airports Council International-North America's 9th Annual 
Conference and Exhibition (New York, NY; 10/01-03).
    NASA STS-92 Mission: 100th Space Shuttle launch, including 
briefings (Kennedy Space Center, FL; 10/04-05,10-11).
    Alaska Airlines Base Maintenance Facility: observed MD-83 
undergoing a C-check (in particular, the end-play check and lubrication 
process of the horizontal stabilizer's jackscrew assembly), in 
preparation for chairing public hearing on Alaska Airlines flight 261 
accident (Oakland, CA; 10/18).
    Alaska Airlines line-maintenance night operations at San Francisco 
International Airport re: upcoming public hearing (San Francisco, CA; 
10/19).
    Aircraft Owners and Pilots Association (AOPA) Annual Convention and 
Industry Exhibit (Long Beach, CA; 10/21-22).
    Landing of Space Shuttle Discovery, NASA STS-92 Mission (Edwards 
Air Force Base, CA; 10/24).
    Aviation Safety Alliance ``Aviation Safety and Severe Weather 
Conditions'' seminar; site visit to Bombardier Regional Jet 
Manufacturing Facility (Montreal, Canada; 11/02-03).

2001

    Alaska Airlines Flight 261 accident memorial service--gave remarks 
(Naval Air Station Point Mugu, CA; 01/31).
    U.S. Coast Guard commissioning ceremony, Cutter Blacktip, 87-Foot 
Coastal Patrol Boat (Port Hueneme, CA; 02/01).
    Briefing, Angels Flight funicular railway accident site; 1 fatal on 
02/01/01 (Los Angeles, CA; 02/02).
    Meeting with Mr. Robert J. Gilliland, SR-71A Lockheed Skunk Works 
First Flight Test Pilot (Burbank, CA; 02/09).
    2001 cruise ship conference; met with Executive Committee, 
International Council of Cruise Lines (Miami Beach, FL; 03/06-08).
    Briefings/U.S. Coast Guard Group Key West and U.S. Coast Guard 
Station Key West (Key West, FL; 03/09).
    Briefings/American Airlines Maintenance and Engineering Center re: 
ongoing investigation (Tulsa, OK; 04/12).
    Briefing/vessel inspection, Ride the Ducks re: ongoing 
investigation (Branson, MO; 04/12-13).
    Briefing/Boston Duck Tours maintenance facility re: ongoing 
investigation (Boston, MA; 06/01).
     Briefings/FedEx Express re: upcoming air cargo public hearing 
(Memphis, TN; 06/14)
    Briefing/vessel inspection, Ride the Ducks re: ongoing 
investigation (Branson, MO; 06/16).
    Briefing/Alaska Airlines headquarters re: ongoing investigation 
(Seattle, WA; 06/28).
    Briefing/The Boeing Company re: ongoing investigations (Seattle, 
WA; 06/28).
Special Assistant to the Chairman/Board Member
    April 1985-June 1991. Duties: Acted as conduit for information-flow 
between Chairman and staff regarding matters internal and external to 
Agency, including: accident notifications (round-the-clock); status 
reports of investigations; briefings on safety situations of special 
concern.
    Directed staff concerning Chairman's opinions, comments and 
recommendations for action in safety matters affecting all modes of 
transportation.
    Represented and served as intermediary for Chairman at meetings, 
conferences, investigations, and functions.
    Reviewed investigative reports, special studies, safety information 
and procedures, and advised the Chairman on these subjects for 
recommended actions.
    Prepared correspondence, briefing material, and speeches for 
Chairman.
    Attended Chairman's meetings with staff, and with representatives 
of other agencies and industry.
NTSB Experience as Special Assistant
Go-Team Launches

1985

    05/15-17; Derailment of NYCTA subway train; Brooklyn, NY.
    09/06-10; Midwest Express Airlines Flight 105, DC-9-14 crash, all 
31 on board fatal; Milwaukee, WI.
    09/29-30; Cessna 208 crash; all 17 on board fatal; Jenkinsburg, GA.
    11/11-14; Midair collision of Falcon DA50 and Piper PA28; 6 fatal 
(including 1 on the ground); Fairview, NJ.

1986

    02/21-24; Texas Eastern Gas Pipeline Co. rupture and fire; 
Lancaster, KY.
    05/30-06/02; Intercity Tour Bus loss of control and rollover into 
West Walker River; 21 fatal, 20 injured; Walker, CA.

1987

    02/06-10; Capsizing, U.S. Charter fishing vessel Fish-N-Fool; San 
Diego, CA.
    11/16-22; Continental Airlines Flight 1713, DC-9-14 crash; 28 
fatal, 54 survivors; Denver, CO.

1988

    05/16; Piper PA28 non-fatal crash (Anchorage Field Office 
investigation); Wasilla, AK.
    05/26; Gates Learjet 35A crash (``field major'' investigation); W. 
Patterson, NJ.

1989

    02/27-03/02; CSX train derailment of butane cars, release/fire of 
butane gas and evacuation of area residents; Akron, OH.
    07/19-22; United Airlines Flight 232, DC-10 crash; 111 fatal, 185 
survivors; Sioux City, IA.
    07/23-25; CSX train derailment with release/fire of hazardous 
materials; Freeland, MI.

1991

    02/02-11; Runway collision of USAir Flight 1493, Boeing 737 and 
Skywest Flight 5569, Fairchild Metroliner, LAX Airport; 34 fatal, 67 
survivors; Los Angeles, CA.
    04/12-13; Amtrak lite engine consist collision with Conrail coal 
train; Chase, MD.
Public Hearings
1985

    07/16-19; Collapse of U.S. Highway 43 Chickasawbogue bridge spans 
near Mobile, AL; Atlanta, GA.
    10/28-11/01; Delta Airlines Flight 191, Lockheed L1011-385-1 crash 
at DFW Airport; 134 fatal, 29 survivors; Irving, TX.

1986

    02/05-07; Henson Airlines Flight 1517, Beech B99 crash at Grottoes, 
VA; all 14 on board fatal; Harrisonburg, VA.
    02/10-13; Northwest Utilities Service Co. natural gas explosion and 
fire, Derby, CT; Waterbury, CT.
    02/18-21; Midwest Express Airlines Flight 105, DC-9-14 crash; 
Milwaukee, WI.
    04/30-05/02; Texas Eastern Gas Pipeline Co. rupture/fire; Danville, 
KY.
    12/02-05; Midair Collision of Aeronaves De Mexico, S.A., DC-9-32 
and Piper PA 28 at Cerritos, CA; 82 fatal (including 15 on the ground); 
Los Angeles, CA.

1988

    06/22-24 & 10/04; Engine room fire and loss of propulsion, cruise 
ship Scandinavian Star in the Gulf of Mexico; Miami, FL.
    11/29-12/02; Delta Airlines Flight 1141, Boeing 727-200 crash at 
DFW airport; 14 fatal, 94 survivors; Irving, TX.

1989

    06/26-29; CSX train derailment of butane tank cars, with release 
and fire of butane; Cleveland, OH.

1991

    03/18-22; Northwest Airlines Flights 1482 (DC-9) and 299 (Boeing 
727) runway incursion and collision, Detroit Metropolitan/Wayne County 
Airport; 8 fatal (all on board the DC-9); Detroit, MI.
NTSB Formal Training
1985

    05/06-08; Survival Factors Training Seminar; Washington, DC.

1986

    03/10-21; NTSB Accident Investigation School: Aviation Accident 
Investigation Course; Oklahoma City, OK.
    09/17, 24; & 10/01; Report Writing for Managers Seminar; 
Washington, DC.

1987

    06/17-19; Human Performance Seminar; Arlington, VA.

1989

    01/12; Aviation Go-Team Investigator-in-Charge (IIC) and Group 
Chairman Training; Arlington, VA.

1990

    03/07-08; Major Aviation Accident Investigation Procedures and 
Coordination (re: Airbus Industries Products) Training; Arlington, VA.

Other Formal Training
1989

    02/21-04/11; FAA Flying Club Private Pilot Ground School; 
Washington, DC.
    10/23-27; Hazardous Materials Advisory Council (HMAC) and 
Government Services Institute (GSI) ``Transportation of Hazardous 
Materials and Dangerous Goods'' basic course; Orlando, FL.
Represented the NTSB at the Following:
1985

    19th Annual International Aviation Snow Symposium (Allentown, PA; 
04/30-05/01).
    Tour/briefing, FAA's Washington Air Route Traffic Control Center 
(Leesburg, VA) and the new automated Flight Service Station at 
Leesburg; tour/briefing of control tower at Dulles International 
Airport.
    Tour/briefing, U.S. Coast Guard's National Response Center 
(Washington, DC).
    Motor Vehicle Manufacturers Association & Western Highway Institute 
Industry/Government Motor Truck Research Symposium (Wlliamsburg, VA; 
08/27-28).

1986

    University of Southern California's Institute of Safety and Systems 
Management's ``Drug Impact in Aviation Environment: Forum '86'' (Los 
Angeles, CA; 05/06-08).
    International Northwest Aviation Council's Aviation Safety Seminar 
(Whistler, British Columbia, Canada; 08/27-30).
    Tour/briefing, General Motors assembly plant and Proving Grounds 
(Pontiac, MI; 10/02-03).
    Aircraft Owners and Pilots Association (AOPA) Annual Convention and 
Industry Exhibit (San Antonio, TX; 10/29-11/01).
    American Association of Airport Executives & FAA's ``Airport Safety 
Seminar'' (Mesa, AZ; 11/03-04).
    Tour/briefing, American Airlines headquarters, and Simuflight 
Corporation headquarters (Fort Worth, TX; 12/10-11).
    Tour/briefing, NASA's Kennedy Space Center, the NTSB's 
reconstruction of the Space Shuttle Challenger wreckage, and launch 
facilities (Kennedy Space Center, FL; 12/12).

1987

    Smithsonian Institution Seminar ``Aviation Since WW II'' 
(Washington, DC area; Patuxent Naval Air Test Center, MD; 01/11-17).
    University of Southern California's Institute of Safety and Systems 
Management's ``4th Annual International Aircraft Cabin Safety 
Symposium'' (Las Vegas, NV; 03/02-06).
    Tour/briefing, Bell Helicopter Textron Inc. headquarters (Ft. 
Worth, TX; 07/01).
    FAA's HOST Computer dedication at Houston AirRoute Traffic Control 
Center (Houston, TX; 07/27).
    Allied Pilots Association's ``Airline Pilot Dialogue 1987'' seminar 
(DFW Airport, TX; 07/29).
    14th Annual Virginia Aviation Conference (Richmond, VA; 08/20).
    Tour/briefing, Denver's Stapleton Airport & Control Tower, the 
Doppler weather radar facility at nearby Buckley Field, and the 
National Weather Service (NWS) Facility at Stapleton. Outside the NWS 
Facility, observed actual microburst on airfield which was documented 
by photo (Denver, CO; 09/02).
    Air Transport Association's ``Engineering and Maintenance Forum'' 
(Cincinnati, OH; 09/30)
    Tour/briefing, General Electric's Aircraft Engine plant (Evendale, 
OH; 10/01).
    Air Transport Association's ``1987 Airline Operations Forum'' 
(Annapolis, MD; 10/19-20).
    National Association for Pupil Transportation (School Bus) Annual 
Conference (Norfolk, VA; 11/02).

1988

    Tour/briefing, Piper Aircraft Corporation headquarters and training 
center (Vero Beach, FL; 01/28).
    FAA's Aviation Safety-Education Seminar (La Grange, IL; 01/30).
    Southern California Safety Institute, Inc. & FAA's ``5th Annual 
International Aircraft Cabin Safety Symposium.'' Participated in live 
demonstration (``in the water'') of survival equipment and wet ditching 
procedures (Oakland, CA; 02/22-25).
    Safety and Health Council of Greater Omaha's ``Expo 1988.'' Tour of 
Union Pacific Railroad's headquarters (Omaha, NE; 03/23-24).
    22nd Annual International Aviation Snow Symposium (Buffalo, NY; 04/
24-25).
    FAA's ``Second Annual Aviation Education Super Safety Seminar'' 
(San Jose, CA; 05/07).
    Tour/briefings/ship simulator training exercises, U.S. Merchant 
Marine Academy (Kings Point, NY; 05/25-26).

1989

    Southern California Safety Institute, Inc. & FAA's ``6th Annual 
International Aircraft Cabin Safety Symposium.'' Participated in live 
demonstration of survival equipment, wet ditching procedures, and ocean 
rescue by helicopter (Long Beach, CA; 01/23-26).
    Hearing of the Standing Committee on Transport, Parliament's House 
of Commons (Ottawa, Ontario, Canada; 05/30).
    Visit to the Canadian Aviation Safety Board (Hull, Quebec, Canada; 
05/30).
    ``Hands-on'' demonstration/briefing of the Saab (runway) Friction 
Tester (Dulles International Airport; 06/23).
    Aircraft Owners and Pilots Association (AOPA) Annual Convention and 
Industry Exhibit (Orlando, FL; 10/18-21).

1990

    Southern California Safety Institute, Inc. & FAA's ``7th Annual 
International Aircraft Cabin Safety Symposium'' (Napa, CA; 01/22-25).
    Commercial Vehicle Safety Alliance 1990 Spring Conference 
(Charleston, SC; 04/23).
    Liverpool and London P&I's Second International Conference, ship 
safety (Sliema, Malta; 04/24-26).
    Paralysis Society of America's 6th ``Access to the Skies'' 
Conference (Phoenix, AZ; 09/09-11).

1991

    Southern California Safety Institute, Inc. ``8th Annual 
International Aircraft Cabin Safety Symposium'' (Costa Mesa, CA; 02/06-
07).

    The Chairman. Mr. Hammerschmidt, thank you very much.
    All four of you would actually be rendered unfit for Senate 
service, given the brevity of your statements, but frankly, we 
appreciate it. I have a number of questions. Let me begin, I 
will not go on at great length.
    First, Dr. Runge. You and I had a chance to have a rather 
lengthy visit in my office, and I asked you, you know, do you 
want to assume this office for the purpose of being aggressive? 
Do you want to assume office for the sake of holding office, or 
do you want to grab this office and do good things with it. I 
told you that I, like many Americans, have lost a loved one to 
drunk driving and have spent a great deal of time worried about 
highway safety and drunk driving issues and so on. You told me 
that you wanted to come here with a mission to really get 
things done and accomplish some good things in these areas. 
Would you describe that for me publicly?
    Dr. Runge. Yes, sir. I will be happy to. This is a mission 
for me. This decision to come to Washington was done at not 
only great personal sacrifice, but it also meant uprooting two 
teenage children from a very comfortable home in North 
Carolina. The opportunity to be at NHTSA is the chance to 
affect the globe, quite frankly.
    When you have had the unfortunate opportunity to hold the 
hand of a grieving mother, it makes me realize that there is 
absolutely nothing more important than getting ahold of this 
epidemic of a crash injury. As an example, you mentioned 
impaired driving. I think our Nation has to take a good, long 
hard look at itself with respect to this epidemic, quite 
frankly. Losing nearly 17,000 people per year to alcohol-
related motor vehicle injury is just obscene, and I think it 
will take leadership, strong and unswerving leadership, to 
bring about a cultural change that will cause impaired driving 
as an example to become not something that we simply wink and 
nod at, and do if we can get away with it, but something that 
is absolutely culturally taboo in our society.
    The Chairman. Dr. Runge, I passed a piece of legislation 
here in the Congress. It is now federal law, that requires all 
states to prohibit open containers of alcohol in vehicles. 
Eighteen states have yet to comply. Unforgivably, there are a 
few states remaining in this country in which you can put one 
hand on the key and put it in the ignition to start the engine 
and you can put the other hand around the neck of a bottle of 
Jim Beam and you can drink whisky and drive off and you are 
perfectly legal. It is unforgivable that should the case 
anywhere in this country and if someone thinks it is heavy-
handed for us to believe that no intersection in America should 
be an intersection where you meet someone who is drinking and 
driving legally, then it is a heavy-handed suggestion, but I 
fully intend to pursue this. We have a law that apparently has 
penalties that are not significant enough because there are 18 
states that have not complied with the prohibition of open 
containers of alcohol. I hope that you will work with me to 
convince the states that is the important thing to do. It is 
the law. If we need to tighten the penalties, that is something 
we should do together.
    Dr. Runge. Yes, sir. I would be more than happy to work 
with you on that issue. As you know, NHTSA is prevented from 
directly lobbying states and providing information. I would 
appreciate that.
    The Chairman. Just one additional question for you, Dr. 
Runge. You are subject in that position to a lot of very 
powerful influences back and forth. Some child is dead because 
someone has a product that is unsafe. Tread separates on tires 
and it does it again and again and again and again at 150 
times. And someone says we need to step in and do something 
here. We need to call attention to this. There are powerful 
influences that want agencies to step aside, let us study, and 
let us think. Again, I am hoping that you will be an aggressive 
advocate for using this office for the purpose for which it was 
created.
    Dr. Runge. Thank you, sir.
    The Chairman. Let me say again, I am pleased to support 
your nomination. I think President Bush has chosen well. Let 
me, in the few minutes I have remaining, ask additional 
questions.
    Mr. Hammerschmidt, you have, I think, served this country 
well. I had the privilege of serving with your father when he 
was a Member of the U.S. House of Representatives, and both he 
and you have provided great service to this country, and I have 
great respect for you, and I am pleased to support your 
nomination. Mr. Wolff, we have something called CAMS [Commerce 
Administrative Mangement Systems], I believe over in the 
Commerce Department. It is one of these, it appears to be 
almost bottomless pits that consumes a great deal of money and 
produces very little for it. We have these in other areas. The 
Internal Revenue Service is one. The FAA is another, where we 
put together all these programs, spend a lot of money and do 
not get what we expect. What's your assessment about that? What 
are we going to do about that?
    Mr. Wolff. Senator, indeed it is consuming an awful lot of 
resources both in terms of money, people, and time. CAMS was 
procured as a COTTS system in 1994 through Andersen Consulting, 
and the subsidiary Reltech or subcontractor Reltech. I am not 
saying it was the wrong decision at the time. I wasn't there to 
make those decisions, but I do know that the product that was 
delivered by the subcontractor was imperfect. It had some 
flaws, and I think there were some management problems 
attendant to the implementation of the system. I have gotten 
into it. I have been briefed several times on it. I am still in 
the middle of sorting through what we need to do, and I pledge 
to work with this Committee on putting a good financial system 
into the Department of Commerce.
    The Chairman. Mr. Wolff, you have had experience, I 
believe, both in the Commerce, in the Commerce Department 
previously, now back to the Commerce Department, and I am 
pleased to support your nomination and hope that you will work 
closely with us in a range of issues.
    Let me ask a final question of Ms. Victory, if I might. The 
post that you assume is going to be very important. NTIA is a 
very important post. Let me harken back to Larry Irving, who I 
work closely with. Every time the FCC attempted to talk about 
lifting ownership limits on radio and television stations, 
Larry Irving, as the head of the NTIA, was aggressively filing 
missives over at the FCC on behalf of his Administration, of 
course, to urge the Commission not to liberalize ownership 
limits. I happen to have agreed very strongly. I think it is 
very important to do. I will not ask you specifically about 
your views about that. I do want to meet with you and talk to 
you about that at some point. But are you intending to be an 
activist over there in grabbing some of these issues? My 
intention is that NTIA is a very important post that needs a 
very activist administrator at this point. Tell me how you view 
that role and what your intentions are?
    Ms. Victory. Well, I do agree. I hope that I get an 
opportunity to be an activist over there. I think this is an 
extremely important time for the telecommunications industry. 
The importance of the telecom information industry to our 
country and in terms of the economic growth of our country is 
extremely significant, and with new technological developments 
arising every day, we certainly want to make sure that they are 
deployed to all Americans as quickly as possible, and as 
effectively and efficiently as possible so that they can 
participate and ensure that we remain a leader.
    There are a number of issues that are teed up initially for 
me to get involved in. I think the big one is the spectrum 
issue. We are increasingly seeing more and more uses for the 
wireless spectrum, and unfortunately, it is a finite resource. 
On the positive side, there are always spectrum efficient 
technologies being deployed, but once you already have uses of 
the band, you have quite a complex question of how do you get 
these new uses into play when there are already uses in the 
spectrum.
    One of the things I hope to take a look at is the spectrum 
allocation process. Are there ways to make it more efficient 
and effective? Are there ways to increase our effectiveness on 
the international arena in terms of being able to advance 
national interest.
    On the broadband side, as well, I know that is another 
issue that is teed up. I am a believer of the goals of the 
Telecom Act of 1996 in terms of competition being the best way 
of ensuring that services are deployed, however, there may be 
areas such as rural areas where a little extra attention may be 
warranted, and I know there are several legislative proposals 
and certain other options that people are considering for 
purposes of helping to spur that. Those are things that I hope 
to look at and hope to talk to you all about if I am confirmed.
    The Chairman. With the indulgence of my colleagues, the one 
last question I will ask, Ms. Victory, I ask I think for your 
benefit, because I think it should be asked here.
    You have worked with the Office of Government Ethics, I 
think, to deal with the potential questions of conflict of 
interest inasmuch you have represented telecommunications 
firms, and I believe your husband has as well, and because 
questions have been raised about it, I informed you before the 
hearing that I was going to ask you simply to respond to the 
question of how you have worked with the Office of Government 
Ethics so that you are able to resolve the questions. I notice 
there was, I think, a Wall Street Journal story today about 
that subject, so I think it would benefit the Committee. I 
intend to support your nomination, but I think for your benefit 
and the Committee's benefit, it is important for you to address 
that.
    Ms. Victory. Well, I do welcome the question. I do 
appreciate the opportunity to respond to the article and to be 
able to make statements in correcting certain information in 
it. I take ethics and the conflict of interest rules extremely 
seriously and that is why as part of this nominations process 
very early in the process, I sat down with the Office of 
Government Ethics with the General Counsel's office at the 
Department of Commerce and with the ethics folks in the White 
House Counsel's office as well, and I went through in detail 
with them my personal assets, my personal business 
relationships, my husband's personal assets, his personal 
business relationships. Based on those very detailed 
discussions, those ethics experts made certain suggestions as 
to what we should do in order to avoid a conflict of interest.
    I have either implemented or promised to implement all of 
those directives from those ethics experts. I know that the 
article this morning mentioned that I do own some stock in 
telecommunications companies. The three companies that are 
mentioned, I no longer own that stock. I actually sold it quite 
a while ago. To the extent there are any other stocks that I 
need to sell, I have made a commitment to sell those either 
immediately prior to, or immediately after I am confirmed in 
order to take care of that problem.
    Further, I went through with the ethics experts whether or 
not I would need to be recused from too significant a number of 
matters, and we went through a list of NTIA matters that the 
Assistant Secretary would typically work on and looked at those 
based upon our assets and business relationships. Based upon 
that discussion, we have only been able to identify one mater 
in which I might need to be recused absent a waiver. That 
matter is not 3G, so it would seem to me that there would not 
be a significant block in moving forward. This is an issue that 
I am very, very sensitive to, something that I will have to 
have a continuing dialog with the ethics experts about the 
types of concerns that were raised in the Wall Street Journal 
article this morning. I think I can address those.
    The Chairman. Would you submit to the Committee information 
on the matter that you would be required to recuse yourself on 
so that we have that information prior to tomorrow?
    Ms. Victory. I can tell you right now, it would be the 
ultra wideband proceeding, looking at the deployment of ultra 
wideband services.
    The Chairman. Senator Allen.
    Senator Allen. Thank you, Mr. Chairman. My only questions 
are to Ms. Victory. You actually answered some of the 
questions, or addressed some of the questions I was going to 
ask you questions about. The one is broadband. The other is 3G. 
Let me follow up a little more with it and see, if you are 
willing. You may feel it is not appropriate to comment at this 
time. But on the broadband deployment, I know the concern of 
the two Senators here, Chairman Dorgan and Senator Burns, as 
far as getting broadband, especially to rural areas. As my good 
friend, Senator Burns will say, there is a lot of dirt to dig 
if you are using fiber-optics as a way of doing it. I am a co-
sponsor of Senator Rockefeller's bill, S. 88, which is a 
broadband tax credit for deployment. What would your view be of 
making it more, let us say technology neutral, in that the 
incentives are there as well for wireless, which may be a more 
practical way of getting broadband capabilities to rural areas 
and mountain hollers and so forth?
    Ms. Victory. Well, as I mentioned, I do agree that looking 
at how to speed deployment of broadband to rural areas, and 
even some suburban areas, because I can't get it out in my 
suburb either, is definitely a goal that I will be looking at. 
There are a number of legislative proposals, including the one 
that you mentioned. I don't believe at this time the 
Administration has taken a position on any of the legislative 
proposals yet. At this time, I do not have a personal view, but 
I do agree with you that any, any incentives that we decide are 
necessary should be technology neutral.
    One of the wonders of the telecommunications industry is 
there often is not just one way to provide a service, and if 
there is one way, it is not one way for long, because 
technology continues to develop. So I very much agree with you 
that whatever, whatever incentives are pursued should be 
technology neutral, and that is something that I, if confirmed, 
hope to dive into right away and take a look at what are the 
best options for doing so.
    Senator Allen. Thank you. I do suspect that fiber will be 
important, and wireless will be, as well as satellite, in that 
mix. On the issue that everyone is talking about, 3G, we all 
know that this is the next step. It will be very, very 
important. However, there is a great deal of concern about the 
timing of this, when it should go forward, and obviously in 
some regards, depending upon which part of the spectrum is 
allocated, national security matters as well.
    At this point, would you be willing to identify the most 
promising chunks of the 1755 to 1850 megahertz spectrum that 
could be available in the short term for commercial 3G use?
    Ms. Victory. That is a loaded question.
    Senator Allen. It sure is. I did phrase it, would you be 
willing to?
    Ms. Victory. This is an inordinately complex question, and 
one where there are tremendous emotions on all sides, 
understandably, but there are very significant concerns at 
stake. I think my goal in this process at this time, I don't 
think I could identify for you what is the best option, what 
are the most likely bands for 3G or to reallocate certain bands 
from government use over to commercial use.
    I think my role in this whole debate is going to be trying 
to create a climate where the parties are engaged in a 
constructive dialog in the spirit of accommodation. There are 
valid concerns on both sides. I think, I want to set up a 
process where we really can get to what are the real concerns. 
What are the real problems? There are a lot of options that 
have been presented. Each option carried with it certain 
pitfalls, certain timeframes in terms of viability, and what I 
would hope to do is to participate and help to set up a process 
where we can go through the options that have been identified 
so far, go through perhaps some additional options, being a 
little bit creative and trying to take a real assessment of 
what costs are involved, what, what spectrum can some of these 
uses be reallocated for? Could some of them potentially be 
relocated to existing commercial uses or cannot they? Or cannot 
they be relocated at all? And what are the timeframes for doing 
so? And then after we identify those things, we can make an 
honest assessment as to what is the most viable option in the 
timeframes if the folks need it. But the most important thing 
is it is got to be a conversation with all of the sides coming 
to the table in the hopes of resolving this issue 
cooperatively, and that is what I will be trying to foster.
    Senator Allen. That seems like a reasonable strategic plan. 
Hopefully you will be able to do it. Now, in the short term, 
there is going to be an auction, or there may be an auction on 
the 1710 to 1755 megahertz chunk of the spectrum to release 
that. There is an auction at least for this moment set for 
2002. There was discussion about waiting on that with concerns 
that many in the commercial industry are not ready to utilize 
it, but others will say gosh, we have to get involved in it, 
otherwise we will be left out whenever that arises. What is 
your, if you do have a view, or if the Administration has a 
view, on the timing of that auction?
    Ms. Victory. I do not know if the Administration has 
expressed a formal view on that. Clearly with respect to 
getting back into the, back to the table on 3G, that process 
should occur long before that date and perhaps there should be 
some answers so we know what direction to go on that auction 
date, but at this point, I cannot give you a specific answer on 
that.
    Senator Allen. That is going to be probably one of the 
first decisions working with Dr. Powell, but you'll all have to 
determine, I believe, on that issue. I have no further 
questions, Mr. Chairman. Thank you for your eloquent 
knowledgeable answers. I look forward to voting for your 
confirmation.
    The Chairman. Senator Burns.
    Senator Burns. Thank you very much, Mr. Chairman. I just 
have one question, I guess, of Ms. Victory. It is pretty 
obvious from yesterday when we had the hearing on spectrum that 
we are not using the spectrum that we have allocated now that 
is already in use efficiently. In other words, there are new 
technologies that would allow us to do a lot more with the 
spectrum that has already been allocated. Do you have a feeling 
toward that?
    Ms. Victory. One of the things I would certainly like to 
look at is whether there are certain incentives that we could 
implement that would encourage existing licensees of the 
spectrum to implement more spectrum efficient technology. I do 
not know what those mechanisms will be at this time. But I do 
agree with you that once licensees are given their spectrum, as 
long as they meet certain buildout requirements, pretty much it 
is theirs, and I think that you do need to try to figure out 
what are some of the incentives we can use in order to 
encourage licensees to implement new technology that would 
allow them to provide perhaps the same services in half the 
bandwidth that they are currently using. With spectrum 
efficient technologies increasingly being developed, I think 
those sorts of incentives do need to be in place, and I am 
going to look forward to trying to discover what they might be.
    Senator Burns. Well, it will always be obvious that the 
industry will always say we need more spectrum, we need more 
spectrum. There will always be a demand for more spectrum. 
Whenever we start down this road of trying to pass any kind of 
legislation that deals with management of that spectrum, if you 
think there was a lot of moving parts in the 1996 Act, you wait 
until we start down this road of performing this. There will be 
a lot of moving parts. And I would suggest that, I think the 
role that you will play as the liaison between Congress and the 
Administration, or putting forth the Administration's approach 
to how they would like to see their policies with regard to 
telecommunications. The FCC, you have two different roles, I 
think, and now we have heard suggestions that we should, some 
of the functions, they should be put together and function 
together--NTIA and FCC.
    I am not one of those. I think your function is primarily 
in the area of policy and how the Administration views 
telecommunications and where you want it to go. It was fairly 
obvious yesterday that if we do not allocate more spectrum, 
then the technologies to use the present spectrum--in other 
words, putting a lot more in a bushel basket than just a 
bushel--that those technologies will continue to be developed. 
That is what I drew from the hearing yesterday.
    Now I am just going to ask you, what do you think the 
wireless industry will look like in 5 years, in 10 years from 
now? What kind of a vision do you see the role that it plays 
and can you, not right now, but I would say our next visit, 
advise us on how we can get there?
    Ms. Victory. Senator, I knew what the wireless industry, if 
I was confident what the wireless industry would look like in 5 
years, I don't think I would be applying for this post. I think 
I would be investing in the stock market. It is hard to tell.
    One of the problems with trying to have a long-range 
planning process in the spectrum allocation process is you do 
not know what technology is going to develop tomorrow, and you 
certainly do not know what consumers are going to want. You 
know I think one of the great things or one of the good ways to 
try to figure out what consumers might be using a couple of 
years is look at what the kids are doing now. I am always 
amazed with my stepkids as to how they are using technology. 
They are using it in ways that I would not have even imagined, 
and that tends to be what adults will pick up on then in a 
couple of years. We seem to be a little bit behind them.
    I think the uses are going to be much, many more 
capabilities through wireless handsets. Of course, it will be 
constrained by the spectrum that is available and that is why I 
think some of the policies that NTIA will be working with at 
the FCC are critically important. But I do think that we are 
going to be having much, much more information going to 
wireless handsets. They are going to be much more ubiquitous, 
service is going to be better and hopefully more capabilities. 
But it is very, very hard to predict just because the 
technology develops so quickly, and the whims of the consumer 
changes very, very fast as well.
    Senator Burns. Dr. Runge, I think you are taking over a 
very important post, and I appreciate you coming by the office 
and visiting. I just want to tell you that we have all had our 
experiences in an emergency room, and so I am very aware of 
your work, and the importance of your work, and also the 
importance of your vision of what you are taking on here. Mr. 
Wolff and Mr. Hammerschmidt, of course, I know Mr. 
Hammerschmidt's father, too, and so we welcome you all to 
public service.
    We are very fortunate in this country to have people who 
are willing to go through and jump through all of these hoops, 
fill out all this damnable paperwork. I wouldn't do it. And I 
just head back for the hills and this is the last time you 
would ever see this old cowboy. I would be gone.
    But nonetheless, it proves to me that there are people who 
sincerely want to serve this country. And have an idea, and a 
vision of where we want to go, and I applaud you for that 
because it is a work--it is a labor of love. It is not a 
labor--you are not going to get rich. I will tell you that. And 
so we welcome you here. I plan to support all four of these 
nominees. Thank you, Mr. Chairman, for this hearing today.
    The Chairman. Thank you very much. Just two additional 
questions. Dr. Runge, as you know, as part of the TREAD Act, 
NHTSA was given some very substantial tasks, and I think there 
are upwards of a dozen rulemaking processes going on. Some of 
them are very large undertakings, tire pressure. I think the 
tire pressure rulemaking was just released, but tire standards, 
rollovers and others. If you need more resources, are you 
committed to moving forward on all these fronts, and if you 
need more resources, will you come to us for more resources?
    Dr. Runge. Yes, sir. I am not sure I have ever been asked 
that question before.
    Senator Burns. Well, you just were.
    Dr. Runge. Thank you very much. I will say that I have been 
briefed to the extent that the agency is very proud that they 
are on time with all of the rulemaking for TREAD, and, should I 
be confirmed, I will keep you very much informed of that, and 
yes, I will be back.
    The Chairman. We have asked that question because a lot of 
rulemakings are under way. We are all aware of the substantial 
controversy dealing with the tire issues. And you know, 
substantial number of deaths are involved in those issues. I 
think that it requires very aggressive action on the part of 
the agency, and it is an agency that is critically important at 
this point. There is a lot to do. I am just asking that you be 
active and aggressive.
    I would hope that we would not see slippage of the 
rulemakings because we are told that resources do not exist to 
do that. It seems to me in that circumstance, we would want to 
go into the larger industry and move resources around. That is 
my point.
    Second, Ms. Victory, you indicated that you are unable to 
get broadband DSL at your home. Did I hear you say that?
    Ms. Victory. I did.
    Senator Burns. I can't either.
    The Chairman. Let me ask you, why are you unable, in your 
judgment, to get broadband or DSL broadband service in your 
home? You live in a suburb of Washington, DC?
    Ms. Victory. Well, I live in a fairly rural suburb. I live 
out in Great Falls, Virginia. My understanding is because of 
the rural nature, and because we are so far from a central 
office at this point, it is unable to be deployed.
    The Chairman. Who told you that?
    Ms. Victory. I have tried to see if the service was 
available. The service was not available when I inquired about 
it some months ago.
    The Chairman. Did it make you angry?
    Ms. Victory. It would make life easier for me if I was able 
to obtain the service. Yes.
    The Chairman. Were you just a little upset?
    Ms. Victory. I guess it saved me some money.
    The Chairman. The reason I am asking you this question, I 
think this is the bull's eye of some policy issues dealing with 
the job that you aspire to have, and I will tell you that if 
you lived in Minot, North Dakota, today, no matter where you 
lived in that city or outlining rural areas, including small 
towns, you would have that service from Source River Telephone 
Company. Now why? Because that telephone company bought from 
the old Northern States Power, the telephone system, and it is 
a co-op and it decided that it was going to make broadband 
universally available to its entire service system. It has done 
that. Senator Burns lives in a suburb of Washington, DC.
    Senator Burns. Three miles.
    The Chairman. And does not have broadband. Why doesn't 
Senator Burns have broadband? Because the provider that 
normally would do that has simply decided they are not going to 
do it. And he does not, I assume, have competition for his 
local service. I assume nobody is knocking on his door saying 
we have got a deal for you. You have got a monopoly of local 
service, and we have competition. No competition, monopoly 
service, no buildout of DSL, because they designed not to do 
so.
    Senator Burns. No. If the Senator would yield, I just got 
this last week, got a little flyer and I have been poking 
around and looking for it. I have got a wireless provider now 
where we live down there. We live in a low-rent, high-crime 
area down here.
    Senator Allen. It is in the District.
    Senator Burns. No. It is in Virginia.
    Senator Allen. No. It is not. I normally like your stories. 
This one is too tall.
    Senator Burns. There is some wireless services that are 
coming in now, are being deployed, and we are going to look 
into those situations, but there is some competition coming, 
and now, when it wakes up the local loop guy, I do not know. 
But sometimes they just never wake up.
    The Chairman. You sound like Reverend Mike talking about 
the sweet by and by here. The service is coming. The reason I 
asked the question is because you and Ms. Victory and I and 
virtually everyone else are subject to the whims of an 
incumbent carrier who decides whether they will or will not 
build out DSL. There are many areas of this country where you 
ought to have DSL service, they say we are not going to do 
that. You have a digital divide. Some of the digital divide is 
in America's cities. Most likely it is in the far rural 
reaches. And the bull's eye of public policy in my judgment for 
you in a wide range of areas is to make sure we have 
communications capability in this country that are universal, 
and that includes not just a telephone, but it includes 
advanced services which we wrote in the 1996 Act. The only way 
that is going to happen is if it is supported by the universal 
service fund if the FCC is capped contrary to the law we wrote, 
Senator Burns and I, and others actually helped write those 
provisions.
    You have got a lot on your plate. My hope is that every day 
when you go to work you understand that I couldn't get DSL at 
my home and I am a little upset by that and I am going to 
change public policy that provides robust competition, but 
provides stimulus to those incumbent carriers so we get rid of 
this digital divide. You want to respond to that, colleagues, I 
think the President has chosen well, and I would echo the 
comments by Senator Burns. It is important to ask men and women 
to present themselves for public service to serve our country 
and you and your families I hope are proud of your willingness 
to do that. This hearing is adjourned.
    [Whereupon, at 3:25 p.m., the hearing adjourned.]
     

                            A P P E N D I X

  Response to Written Questions Submitted by Hon. John McCain to Dr. 
                         Jeffrey William Runge

Highway Epidemic
    Question 1: You indicate in your biographical and financial 
information questionnaire that traffic injuries should be treated the 
same way we treat infectious diseases in this country. Would you expand 
on what you meant by this statement?
    Answer: In the United States, injury is the leading cause of 
traumatic death of persons of every age from 6 to 33 years and motor 
vehicle injury is the number one cause of death from injury. By nearly 
every measure, the injuries and deaths associated with motor vehicle 
crashes should rank as one of the nation's most pressing public health 
priorities. The economic cost alone of motor vehicle crashes in the 
United States is estimated to be more than $150 billion each year.
    I believe that NHTSA must continue to address motor vehicle crash 
injury and death as a major public health problem. In the public health 
community, advances are made in the control of disease by understanding 
the root causes and spread of the disease and its cures. In the case of 
motor vehicle crash injury, this understanding is the result of 
contributions from many disciplines, including epidemiology, 
engineering, research and analysis, and the biomedical and social 
sciences. It thereby necessitates the cooperation of officials at the 
Federal, State, and community levels to be successful. This 
comprehensive approach involves the prevention of crashes from 
occurring, mitigation of the severity of the injuries once a crash has 
occurred, and provision of timely treatment of these injuries in the 
post-crash phase. It also involves the reduction of hazards 
(environmental, vehicular, and behavioral) and control of the vectors 
of spread of injury (impaired, arrogant, and drowsy drivers).
    This conceptual framework for addressing traffic injury control is 
critical to the success of reducing the traffic injury toll. As NHTSA's 
Administrator, I will use this comprehensive approach to focus the 
agency's resources to develop and implement innovative, thoroughly 
evaluated, effective safety programs.

Lessons from Firestone Tire Recall:
    Question 1: You have observed the Firestone tire investigation as 
most Americans have, that is, as it played out on the front pages of 
newspapers and on TV. As an outside observer, what lessons do you think 
NHTSA can learn from this?
    Answer: One of the most important lessons is that NHTSA must 
identify potential safety-related defects earlier. To do this, the 
agency needs to access information in the possession of vehicle and 
equipment manufacturers that previously has not been available to the 
agency. Congress recognized this problem and has helped to ensure its 
solution by enacting the TREAD Act.

Office of Defects Investigation (ODI):
    Question 1: There is evidence that NHTSA's Defect Information 
Management System (DIMS) may be inadequate. DIMS, for example, did not 
capture information about the tread separations on Firestone tires. 
Last year, I asked the DOT Inspector General, Ken Mead, to conduct an 
analysis of the Office of Defects Investigation, to include a review of 
the DIMS system, and this report should be completed shortly. Do you 
envision a better way of collecting and storing consumer complaints 
than is currently in place? What approach beyond posting information on 
NHTSA's website do you recommend for alerting consumers of safety 
defects?
    Answer: The current Defects Information Management System, utilized 
by NHTSA's Office of Defects Investigation (ODI) to store all of its 
data, which includes information on consumer complaints, 
investigations, and recalls, has remained essentially unchanged since 
it was initially developed in the mid-1980s. Over the years, ODI has 
become increasingly aware of several serious inadequacies in that data 
system, some of which were highlighted during the Firestone tire 
investigation. As a result, ODI requested and received additional funds 
to design and implement a new system to identify potential defects in a 
more timely manner. The development of this system is particularly 
critical in light of the significant amount of additional information 
that ODI will be receiving under the ``early warning'' provisions of 
the TREAD Act.
    With respect to alerting consumers about safety defects, because 
vehicle registrations are required in all states, virtually all motor 
vehicle owners receive recall notices directly from the vehicle 
manufacturers. Unfortunately, there is no similar mandatory system in 
place for capturing the names and addresses of owners of motor vehicle 
equipment, such as child safety seats, tires, or aftermarket equipment. 
The result is that owners of the unregistered seats, as well as owners 
of other aftermarket equipment, do not receive direct notification from 
the equipment manufacturer that there has been a safety-related recall. 
I believe that NHTSA can do more to distribute information about 
recalls, and I will work to accomplish this.

Updating Obsolete Standards Not Required in TREAD
    Question 1: While the TREAD Act directs NHTSA to initiate a 
rulemaking to revise and update tire standards that have not been 
updated in 30 years, the Act does not require NHTSA to revise other, 
equally old and probably obsolete standards such as the roof crush 
standard despite 10,000 deaths/year in rollover accidents. What action 
will you take to ensure that NHTSA adequately revises the roof crush 
standard?
    Answer: I will do all I can to reduce the number of fatal and 
serious injuries caused by rollover crashes. Regarding the roof crush 
standard, I will carry out Deputy Secretary Michael P. Jackson's 
commitment, made at the House Energy and Commerce Committee's joint 
subcommittee hearing on June 19, 2001, to publish a notice this summer 
in the Federal Register to request comments on NHTSA's roof crush 
research. Upon receipt of those comments, I will make the analysis and 
the determination of a sensible and meaningful upgrade to Federal Motor 
Vehicle Safety Standard (FMVSS) No. 216, ``Roof crush resistance,'' one 
of my highest priorities.
    Question 2: Should NHTSA undertake to review regularly and update 
all of its motor vehicle safety standards?
    Answer: I intend to establish a new review process that will lead 
to systematic reviews of all the safety standards on a regularly 
scheduled basis. The agency is developing a plan to implement this 
process. After completing the review process, which will examine all 
the available data to determine safety need, technology developments to 
ensure the standards are still testing appropriately, and other 
factors, NHTSA will decide if the particular safety standard needs to 
be updated. I plan to involve the public in this process by seeking 
public input during the review and advising the public of the agency's 
decision about whether to update the standard after we complete the 
review.
    Question 3: An article that appeared recently in The New Yorker 
suggested that past decisions by NHTSA to emphasize passive-restraint 
systems, rather than increasing seatbelt usage, may have been wrong. 
The article suggested that, while passive restraint systems have 
undoubtedly saved lives, European countries that focused more on 
educating their citizens about the benefits of seatbelt use have 
surpassed the U.S. on highway safety. Do you believe that NHTSA has 
over-emphasized passive restraints and under-emphasized seat belt use?
    Answer: No, I believe that NHTSA has neither over-emphasized 
passive protection nor under-emphasized seat belt use; both are 
important. My attention as Administrator is on the future rather than 
the past. NHTSA will continue to take a balanced approach, focusing on 
both human factors and vehicle design to optimize motor vehicle 
passenger safety. The goal is for the safest possible vehicle fleet to 
be driven in the safest possible manner. Clearly, the immediate use of 
seat belts by all Americans would bring about a rapid reduction in 
death and injury on the highways, and I deem it a top priority to work 
toward that goal. More primary seat belt laws are needed at the state 
level, and enforcement must be enhanced. I will ensure that the agency 
does all that it can, within the limits of its statutory prohibitions, 
to provide assistance to the states with the provision of scientific 
information to make those legislative decisions and support enforcement 
of those laws.

Passenger Vehicle Compatibility
    Question 1: In collisions between small passenger vehicles and 
lights trucks or vans, including SUVs, passengers in the small 
passenger vehicles are more likely to be seriously injured or killed. 
The increase in the overall number of light trucks and vans on the road 
could compound this problem, though some manufacturers are addressing 
this issue, such as Ford, which recently said that over the next 
several years it will lower the steel beams inside the front ends of 
all Ford sport utility vehicles and pickups to the same height as in 
cars. Do you think the market alone will take care of this 
compatibility problem?
    Answer: It is too early to say whether the market alone will take 
care of the compatibility problem. The increased popularity of light 
trucks and vans (LTVs) pickups, SUVs, and minivans presents a growing 
safety problem that needs to be addressed.
    NHTSA's immediate research goal in this area is to generate 
knowledge that the government and industry can use to reduce the hazard 
posed by vehicle incompatibility. However, I believe that manufacturers 
have the responsibility to test their vehicles thoroughly to ensure 
that they are not overly aggressive before introducing them into the 
fleet. I will closely monitor progress in this regard, and take 
decisive action if Federal requirements are needed.

Rollovers
    Question 1: NHTSA recently issued comparative rollover ratings for 
passenger vehicles based on a static test. Some consumer groups and 
manufacturers have criticized the adequacy of this rating, however, and 
urged instead that NHTSA develop a dynamic rollover test that could, 
they claim, more accurately predict a vehicle's propensity to roll 
over. The TREAD Act requires NHTSA to develop such a test by 2002. Will 
NHTSA meet this deadline?
    Answer: Yes, NHTSA will meet this deadline. NHTSA has been doing 
testing since May to develop a driving maneuver based test for rollover 
resistance. The agency published a request for comment on this research 
activity on July 3, 2001, and is awaiting public comments. A final 
notice will be published on the dynamic maneuver test ratings in 
November 2002.

Driver Distraction by In-vehicle Displays
    Question 1: Concern about the relationship between driver 
distractions and accident rates have led some state and local 
governments to try to restrict drivers' use of cell phones. Even as 
this is occurring, manufacturers are introducing or proposing to 
introduce cars that contain interactive video and audio devices, Global 
Positioning Satellite displays, and fax machines. What should, if 
anything, NHTSA do to ensure that these devices don't compromise 
safety?
    Answer: I understand that NHTSA has been researching the 
relationship between distractions and driving performance since 1991. 
NHTSA has been studying the relative demands of different types of 
systems, including cell phones, navigation systems, and audio system 
controls, etc. NHTSA will continue its research to understand how 
drivers' use of technology affects their safety-related performance. 
This research will utilize the capabilities of the new National 
Advanced Driving Simulator. The agency intends to work with industry to 
support the development of test procedures and guidelines to design 
equipment that minimizes or eliminates driver distraction. I also 
believe that manufacturers have the responsibility to understand the 
ramifications of introducing these systems on the driving task before 
introducing them into the fleet. It should be expected as a 
demonstration of corporate citizenship not to depend solely on the 
regulatory efforts of the Federal Government to ensure that their 
products are safe. The agency will nevertheless be as vigilant as 
possible in monitoring the introduction of these products and their 
impact on safety.

CAFE Standards
    Question 1: Because of appropriations bills riders, the Corporate 
Average Fuel Efficiency (CAFE) Standard for light trucks has remained 
frozen at 20.7 miles per gallon since model year 1996. You mention in 
your biographical and financial information questionnaire that lifting 
the freeze would enable NHTSA to quickly address this issue. Does this 
mean you are in favor of raising the CAFE standard for light trucks?
    Answer: I have no preconceived position on whether the light truck 
standard should be raised, only that the standard be established based 
upon sound science. Determining fuel economy standards requires 
difficult trade-offs among environmental benefits, vehicle safety, 
cost, oil import dependence, and consumer preferences, issues discussed 
in the recent report of a National Academy of Sciences panel. Assessing 
these trade-offs requires detailed analyses and scientific studies. 
Consequently, I believe the rider should be lifted so NHTSA can address 
the issue analytically and through the administrative process.
    Question 2: The Alternative Motor Fuels Act of 1988 gave 
manufacturers of vehicles that run on alcohol or natural gas, either 
exclusively or in addition to gasoline, a credit toward the 
manufacturers' corporate average fuel efficiency standard. The Act 
required the Secretary of Transportation, in consultation with the EPA 
Administrator and the Secretary of Energy, to submit a report to 
Congress by September 2000 on the success of the CAFE credit in 
promoting alternative fuel use, and for the DOT to decide by the end of 
this year whether to continue the credit until 2008 or end it in 2004. 
When do you expect the DOT to submit the report to Congress?
    Answer: DOT, working with EPA and DOE, has drafted the report. I 
expect that this report will be submitted to Congress before the end of 
summer.

Vehicle Importation
    Question 1: I understand that NHTSA is proposing to relax 
requirements that registered importers post a bond and certify a 
vehicles' compliance with U.S. safety standards before the imported 
vehicle can be sold in the United States. Some have suggested that 
these and other proposed relaxations of import restrictions will not 
only compromise safety, but will make it more difficult to identify 
stolen vehicles. I understand that NHTSA's Office of Vehicle Safety 
Compliance has justified its proposal in part on the lack of available 
resources, which, according to some reimporters, has led to undue delay 
in the importation process and uneven application of the law. Do you 
believe that the importation requirements should be relaxed as NHTSA 
has proposed?
    Answer: NHTSA's Notice of Proposed Rulemaking was issued on 
November 20, 2000. The agency is currently reviewing the comments, 
which were due by February 1, 2001. NHTSA does not believe that the 
proposal would compromise safety in any way. NHTSA also does not 
believe that the proposed rules would make it more difficult to 
identify stolen vehicles. Nevertheless, I assure you that the agency 
will carefully consider all comments before a final action is taken.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Olympia J. Snowe to Dr. 
                             Jeffrey Runge
Lead-in:
    Throughout my tenure in Congress, I have been a staunch advocate 
for efforts to enhance highway safety. NHTSA is a key agency in the 
fight to reduce fatalities and enhance safety on our roads and 
highways, in a whole range of different ways. For example, NHTSA 
investigates safety defects in motor vehicles, sets and enforces fuel 
economy standards, helps states and local communities reduce the threat 
of drunk drivers, promotes the use of safety belts, child safety seats 
and air bags, investigates odometer fraud, establishes and enforces 
vehicle anti-theft regulations and provides consumer information on 
motor vehicle safety topics. In the wake of the Firestone tire recall, 
I believe that NHTSA's role will become even more important, and we 
must continually re-evaluate the agency's funding and authority in 
order to ensure that it has all of the tools it needs to accomplish its 
important mission.
    Question 1: What will your highest priority be, if confirmed to 
this position?
    Answer: My highest priority for the duration of my tenure as 
Administrator will be to engage the American public in our mission, to 
reduce death and injury on our nation's streets and highways. It is 
imperative to bring into focus for the American people the fact that 
traffic injury is a disease that requires the cooperation of every 
American citizen to control it. It is the leading killer of children 
over age 3 and of adults to age 35. It can be controlled in the same 
way we have controlled infectious diseases in this country, but it will 
require leadership at the very highest levels to accomplish it. Careful 
attention to immunizing the public against traffic injury through the 
use of seat belts and child restraints, responsible driving, and the 
use of safe and crashworthy vehicles is a top priority. By nearly every 
measure, the injuries and deaths associated with motor vehicle crashes 
should rank as one of the nation's most pressing public health 
priorities. The economic cost alone of motor vehicle crashes in the 
United States is estimated to be more than $150 billion each year.
    Operationally, my more immediate goal is to ensure that the 
agency's programs and resources are focused solely on the mission of 
decreasing traffic crash injury and death. This will entail the use of 
a balanced program that focuses on driver behavior and safe vehicle 
design. All programs should be subject to thorough evaluation, so that 
resources can be focused on those with demonstrated effectiveness. 
Strategically, the agency will re-examine its long-term goals, its 
strategic plan, and short-term performance objectives to ensure that 
they are reasonable, scientifically sound and designed to enhance the 
mission.
    Question 2: What will you do to ensure that we do not get caught 
off guard again, as we did in the case of the Firestone recall?
    Answer: First and foremost, I will ensure the prompt and effective 
implementation of each of the requirements of the TREAD Act. 
Accordingly, NHTSA already has taken a number of actions to improve its 
ability to promptly identify potential safety-related defects in motor 
vehicles and motor vehicle equipment and effectively investigate 
potential defects. In addition, under the early warning provisions of 
the TREAD Act that will be implemented by the statutory deadline of 
June 2002, NHTSA will routinely receive a wide variety of relevant 
information in the manufacturers' possession, such as claims and 
lawsuits, consumer complaints, field reports, warranty data, and 
foreign recall actions.
    Question 3: What is the status of NHTSA's investigation into design 
defects in the Ford Explorer, and when does the agency expect to issue 
its findings?
    Answer: There is no pending investigation of this issue at the 
present time. NHTSA has received a letter from Bridgestone/Firestone, 
Inc. (Firestone) requesting that the agency open an investigation into 
the performance of the Ford Explorer following a tread separation on a 
left rear tire. Although Firestone did not submit the letter as a 
formal petition to open a defect investigation, the agency is treating 
it as a formal petition. The consultant hired by Firestone to conduct 
stability and handling tests of the Explorer and other sport utility 
vehicles has not completed these tests. NHTSA expects to receive this 
test data later this month. After receiving this data, the agency will 
decide whether to grant Firestone's request for an investigation.
    Question 4: Does the Ford Explorer roll over more frequently than 
other SUVs following tread separation?
    Answer: The analysis performed by NHTSA of incidents involving 
claims of tread separation on Firestone tires showed no statistical 
difference between the rollover rates for the Explorer in those 
incidents as compared to a peer group of SUVs.
    Question 5: What criteria does NHTSA use to determine whether a 
specific tire line is defective?
    Answer: NHTSA looks at a variety of factors in deciding whether a 
safety-related defect exists in a tire. These factors include, among 
other things, the design of the tire, its failure experience, the 
results of testing performed by the agency and others, and the severity 
of crashes associated with failures of the tire.
    Question 6: It is my understanding that NHTSA considers many 
different factors before making a tire defect determination, and that 
one of those factors is the ``claims'' rate for a particular model of 
tire. Is this accurate, and if so, can you elaborate on what ``claims'' 
rates are, how they are defined and used, and whether NHTSA should 
establish a uniform definition of ``claims'' for this purpose?
    Answer: Tire manufacturers define a ``claim'' as a request for 
remuneration above the cost of replacing the tire. Thus, claims include 
those requests for reimbursement for minor damage to the vehicle, 
damage to other property, as well deaths and injuries. A claims rate 
for a tire model or size is simply the calculation of the number of 
claims divided by the number of tires produced. As part of its early 
warning regulations under the TREAD Act, NHTSA will provide a specific, 
uniform definition of numerous terms, including ``claim.''
    Question 7: Can you share what the status of NHTSA's research is 
into how drivers react under circumstances such as tread separation?
    Answer: NHTSA is developing research into the question of driver 
reaction to tire failures using its newly developed National Advanced 
Driving Simulator (NADS). A comprehensive study of how drivers react to 
various emergencies will be initiated later this year.
    Question 8: Are tread separations common occurrences? Please 
elaborate on this matter.
    Answer: Tread separations of passenger car or light truck tires are 
a relatively uncommon occurrence. The vast majority of these tires in 
the United States wear out and are replaced before they fail. Most 
failures are caused by road hazards, such as a nail puncture, or 
substantial owner misuse.

</pre></body></html>
